<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                        TUESDAY, MARCH 30, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Stevens, Shelby, Byrd, Leahy, 
and Murray.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENTS OF:
        EDUARDO AGUIRRE, JR., DIRECTOR, U.S. CITIZENSHIP AND 
            IMMIGRATION SERVICES
        ROBERT C. BONNER, COMMISSIONER, BUREAU OF CUSTOMS AND BORDER 
            PROTECTION
        MICHAEL J. GARCIA, ASSISTANT SECRETARY, BUREAU OF IMMIGRATION 
            AND CUSTOMS ENFORCEMENT

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. The hearing will please come to order. 
Today we continue our review of the President's fiscal year 
2005 budget request for the Department of Homeland Security. We 
will specifically consider the request for programs and 
activities of three of the department's agencies: Citizenship 
and Immigration Services, Customs and Border Protection, and 
Immigration and Customs Enforcement.
    I am pleased to welcome the Director of Citizenship and 
Immigration Services, Mr. Eduardo Aguirre; the Commissioner of 
the Bureau of Customs and Border Protection, Mr. Robert Bonner; 
and the Assistant Secretary of the Bureau of Immigration and 
Customs Enforcement, Mr. Michael Garcia. We thank you for 
submitting copies of your statements in advance of the hearing. 
These will be made a part of the record. And we invite you each 
to make any comments you think would be helpful to the 
committee's understanding of the budget request.
    Before asking the witnesses to proceed, however, I am happy 
to yield to Senator Byrd and other Senators who may wish to 
make opening statements.
    Senator Byrd.

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Thank you, Mr. Chairman, comrades on the 
committee. You see, I am ahead of everybody else on the Hill. 
Fifty-one years on the Hill entitles me to call my friends here 
``comrades.''
    Welcome to our distinguished witnesses. The men and women 
under your direction have a great impact on the safety of 
American citizens, as well as visitors to our country. 
Secretary Ridge has promoted the concept of one face at the 
border. And I support that concept. However, I remain concerned 
that there are real vulnerabilities facing us Nation that 
require immediate response.
    Last December, Secretary Ridge said, ``The strategic 
indicators, including al-Qaeda's continued desire to carry out 
attacks against our homeland, are perhaps greater now than at 
any point since September 11.'' On March 11, terrorists armed 
with backpacks filled with explosives coordinated an attack 
that resulted in the deaths of nearly 200 people in Madrid. I 
would expect that the administration would anticipate these 
kinds of threats and address such threats with a robust 
defense.

                    REVIEW OF THE PRESIDENT'S BUDGET

    Yet, as I review the administration's budget, America's 
defense is far too reliant on paper, on studies, and on 
reports, rather than on the layered defense that the President 
and the Secretary often describe in their homeland security 
speeches. Let me just give a few examples.
    Nearly 9 million commercial containers are brought into 
this country each year through our ports. Yet, only 5 percent 
of them are inspected. We have all heard these figures time and 
time again.
    On January 5, 2004, the new visa tracking system, known as 
US VISIT, began operation at 115 airports and 14 seaports. 
Customs and Border Protection inspectors are collecting data on 
visitors entering our country, but the Bush Administration 
still has no clear plan for confirming who is exiting the 
United States. We have no way of knowing whether aliens, who 
are supposed to have left the country, have in fact left the 
country.
    At the same time, we need to ensure that sufficient funds 
are provided to integrate the various existing biometric 
databases. We need to make sure that the US VISIT system and 
the Border Patrol IDENT system are compatible with the FBI's 
Integrated Automated Fingerprint Identification System. At our 
March 9 hearing, Secretary Hutchinson attempted to address this 
issue, but I believe that he fell short in his response.

                      NEED FOR INTEGRATED SYSTEMS

    We need to have integrated systems that can talk to each 
other. We must know whether an alien trying to come into this 
country, or already in this country, has a criminal history. By 
integrating these systems, CBP would know if an alien is a 
security risk and could refuse him entry into the country, or 
remove him from the country, or imprison him. We simply cannot 
be satisfied with the incompatible systems that result in 
murderers and other criminals walking through holes in our 
border security.

                     SHORTCOMINGS IN BUDGET REQUEST

    The Federal Air Marshal Service does not have sufficient 
resources this year to maintain the number of air marshals on 
targeted domestic and international flights. And because the 
Administration has proposed no increase for next year, a bad 
problem could become even worse next year.
    The President has proposed a sweeping amnesty for people 
already residing illegally in this country. Yet, the 
President's budget request includes only modest increases for 
programs that attempt to cope with our growing illegal alien 
population, and provides insufficient funds to robustly enforce 
our existing immigration laws. When I inquired of Secretary 
Ridge just how he would pay to implement the President's 
amnesty program, he could not provide an answer.
    I want to make sure that this subcommittee and this 
Congress provide real homeland security to the American people, 
not just assurances on paper. The President stubbornly has told 
this agency not to seek supplemental appropriations this year. 
Just last week we learned that, more than a year after setting 
up the new department, there still is not a complete accounting 
of the funds which have been made available for the operation 
of your agencies.

                             HIRING FREEZES

    The department has imposed hiring freezes so that the 
department's accounts, along with its OMB overseers, can audit 
the books. Air marshals are not being hired. Inspectors at our 
ports of entry and criminal investigators are not being hired. 
We are 6 months into the fiscal year. I simply do not 
understand why the Administration has not proposed a solution 
to this problem. Homeland security cannot wait.

                        THE NATION IS VULNERABLE

    I have never claimed to be the Oracle at Delphi, but there 
are many times these days when I feel like Diogenes. I am 
looking for an honest man. I am seeking someone who can tell 
this President that this Nation is vulnerable and that this 
President leaves us vulnerable for another year.
    Time and again, my colleagues and I have tried to provide 
this department with the additional resources we believe it 
needs to surely provide security to the homeland. And time and 
again, this Administration has stiff-armed our efforts, 
labeling amendments for border security, port security, air 
cargo security, and rail security as wasteful spending.

                        ALLEGED BUDGET SHORTFALL

    I hope we can get to the bottom of this alleged budget 
shortfall for the department quickly. It is a problem not of 
Congress's making. I will be discussing many of these issues. I 
appreciate the fine work of our witnesses and the courageous 
men and women who work for you. I look forward to hearing from 
you.
    Thank you, Mr. Chairman.
    Senator Cochran. Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you, Mr. Chairman. I could not help 
but think as I listened to both your statement and to Senator 
Byrd's statement, that the witnesses before us this morning all 
bear great responsibility for keeping our Nation secure. All 
three of you do. And we all thank you for your service.

                     HIRING FREEZES FOR ICE AND CBP

    But when we come together here today, I am concerned about 
the hiring freeze that is in place in part or in all of your 
agencies. I understand that the Bureau of Immigration and 
Customs Enforcement, ICE, the Bureau of Customs and Border 
Protection, CBP, are facing a budget shortfall of more than 12 
percent. It is really inexcusable to hear about a hiring freeze 
in critical national security agencies, especially after the 
administration has so stridently opposed efforts by Senator 
Byrd and others, many others, in Congress to make homeland 
security the priority that it needs in the national budget.
    We know full well that the administration budget's 
priorities ultimately is the White House prerogative and not 
yours. My criticism is not directed at you. But this morning 
the American people need to hear an explanation how this could 
have happened and what this freeze will mean to the missions of 
your agencies and what is being done in the meantime to protect 
the security of the American people.
    We ask these questions because, as Senator Byrd has pointed 
out so many times, under the Constitution the question of 
spending starts here in the Congress, not on the other end of 
Pennsylvania Avenue. We hold the purse strings.

         LAW ENFORCEMENT TRAINING CENTER IN WILLISTON, VERMONT

    Now I am glad that ICE is making increased use of the Law 
Enforcement Support Center, LESC, in Williston, Vermont. For 
years the LESC has done an excellent job of providing 
information to State and local police departments throughout 
the Nation regarding the immigration status and identities of 
aliens suspected, arrested, or convicted of criminal activity. 
I had the pleasure of joining Mr. Garcia there last summer.
    I recall at one point during the discussion we were talking 
to somebody about that it is open 24 hours, 7 days a week. What 
happened earlier that winter, one time we had a 3-foot snowfall 
overnight. And this got kind of puzzled looks. Well, everybody 
came to work, of course. I mean, what else would they do? It 
was only 3 feet. It kind of screwed up the parking lot, but 
everybody got to work.
    But I think that when it is done, including this work at 
ICE, Operation Predator, designed to catch sex offenders, I 
think that is extremely important. But I am also concerned that 
LESC may not receive the resources its needs to accomplish its 
additional workload. I hope that will be addressed today.

              TRIPS AROUND THE COUNTRY TO VARIOUS OFFICES

    Incidentally, I know all of you make trips around the 
country to the various departments. Those are meaningful. I 
mentioned to Mr. Garcia earlier this morning, when I was coming 
out of mass on Sunday, somebody came up to me and said that 
they were there when he came through and was delighted that he 
actually took time and asked them what they do and how they do 
it, what is involved in their job. I am sure there were a whole 
lot of other people he asked. But this particular person 
remembered this. It was almost a year later.

                      CIS BUDGET REQUEST CONCERNS

    Now turning to Mr. Aguirre's agency, I am concerned about 
the President's proposed budget for Citizenship and Immigration 
Services, CIS.. The budget calls for a 40-percent cut in the 
amount of directly appropriated funds for CIS from the nearly 
$235 million appropriated for the current year. They are 
cutting it, Mr. Chairman, to $140 million for fiscal year 2005.
    Now this cut comes at a time where we are way, way, way far 
from fulfilling the President's own promise to reduce the 
average wait time for applicants for immigration benefits to 6 
months by 2006. It was a great speech. It was a great promise. 
I agree with the President entirely. But after making the 
speech, he did not cut the funds to make sure the promise could 
be realized.
    It also comes at a time when the President has proposed a 
worker program that would significantly increase the CIS 
workload. Yet another great speech, a large Hispanic 
population. But I guess it proved unpopular with some in the 
President's party, so we have not heard more about it. But we 
know it is still floating out there.
    In fact, I wrote to the President in January. I asked him 
to submit a legislative proposal to Congress for implementing 
his plan. He announced it with great fanfare. And I was curious 
just how it is going to be done. We only have a few real 
working days left in the Congress this year, and we have yet to 
receive a response.

                 INCREASE CAP FOR THE H2B VISA PROGRAM

    I would like to raise one other policy issue while Mr. 
Aguirre is here. I hope the CIS and the administration as a 
whole will support bipartisan efforts in Congress to increase 
the cap for the H2B visa program. Your department recently 
announced that the statutory cap for this program has already 
been reached, if I am correct. It is causing tourism-dependent 
businesses across the country to fear they will be unable to 
serve their customers this summer.

                           prepared statement

    I am enjoying with at least 13 of my colleagues, including 
Senator Stevens, the chairman of the full committee, to 
introduce S. 2252, the Save Summer Act of 2004. It would 
increase the cap for the current fiscal year by 40,000. I would 
urge the administration to support it.
    Mr. Chairman, I look forward to the testimony. I thank you 
for your usual courtesy and giving me a chance to make a 
comment.
    [The statement follows:]

             Prepared Statement of Senator Patrick J. Leahy

    The witnesses before us this morning all bear great responsibility 
for keeping our Nation secure, and we thank you for your service. Yet 
as we come together today, there is a hiring freeze in place at all or 
part of each of your agencies.
    I understand that the Bureau of Immigration and Customs Enforcement 
(ICE) and the Bureau of Customs and Border Protection (BCBP) are facing 
a budget shortfall of more than 12 percent. It is outrageous to hear 
about a hiring freeze in critical national security agencies after the 
Bush Administration has so stridently opposed attempts by the Ranking 
Member and many, many others in Congress to make homeland security the 
priority that it needs to be in the national budget. We know full well 
that setting the Administration's budget priorities ultimately is the 
White House's prerogative, and not yours. But this morning the American 
people need to hear an explanation of how this could have happened, 
what this freeze will mean to the missions of your agencies, and what 
is being done in the meantime to protect the security of the American 
people.
    Meanwhile, I am glad that ICE is making increased use of the Law 
Enforcement Support Center (LESC), in Williston, Vermont. For years, 
the LESC has done an excellent job of providing information to state 
and local police departments throughout the nation, regarding the 
immigration status and identities of aliens suspected, arrested, or 
convicted of criminal activity. I had the pleasure of joining Mr. 
Garcia last summer at the LESC to announce an expansion of its role, 
including its work in ICE's Operation Predator, designed to catch sex 
offenders. At the same time, I am concerned that the LESC may not 
receive the resources it needs to accomplish its additional workload. I 
hope that Mr. Garcia will address those concerns today.
    Turning to Mr. Aguirre's agency, I am concerned about the 
President's proposed budget for Citizenship and Immigration Services 
(CIS). The budget calls for a 40 percent cut in the amount of directly 
appropriated funds for CIS, from the nearly $235 million appropriated 
for the current year, to $140 million for fiscal year 2005. This cut 
comes at a time when we are still far from fulfilling the President's 
promise to reduce the average wait time for applicants for immigration 
benefits to 6 months by 2006. It also comes at a time when the 
President has proposed a guest worker program that would significantly 
increase the CIS workload. Of course, the guest worker program may have 
simply fallen off the President's radar screen now that it has proven 
unpopular with some in his party. I wrote to the President in January 
and asked him to submit a legislative proposal to Congress for 
implementing his plan. Despite the ever-shrinking legislative year 
ahead of us, I have still not received a response.
    I would like to raise one other policy issue with Mr. Aguirre while 
he is here. I hope that CIS and the Administration as a whole will 
support bipartisan efforts in Congress to increase the cap for the H-2B 
visa program. Your department recently announced that the statutory cap 
for this program had already been reached, causing tourism-dependent 
businesses across the country to fear they will be unable to serve 
their customers this summer. I have joined with at least 13 of my 
colleagues--including the Chairman of the full committee--to introduce 
S. 2252, the Save Summer Act of 2004. This bill would increase the cap 
for the current fiscal year by 40,000. It is a necessary response to a 
critical and unexpected problem, and I urge the Administration to 
support it.
    I look forward to hearing your testimony.

    Senator Cochran. Thank you, Senator.
    Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Mr. Chairman.
    First, Mr. Secretary, let me thank you for the bureau's 
efforts to stop the exploitation of children. I have worked 
with you and your predecessors for many years to ensure that 
the people that would take advantage of and seek to prosper 
from the exploitation of children are prosecuted to the fullest 
extent of the law. I remain committed to working with you to 
eliminate the threat to our children.
    In addition, I know you have been working with our partners 
at the National Center for Missing and Exploited Children. Let 
me encourage you to maintain that partnership. I think it has 
been very valuable and it works. The center is an invaluable 
asset, I think, in our quest to protect our children in 
America.

                           OPERATION PREDATOR

    I understand that Operation Predator is underway. And 
Senator Leahy alluded to that. I am interested in its progress 
and what the funding requirements are to maintain this 
important program in 2005. I am also interested in learning of 
any additional programs that are dedicated to eliminating 
crimes against children, I would appreciate it if you would 
take the time to go over some of these in your testimony or 
questions.

         NUMBER OF ILLEGAL ALIENS RESIDING IN THE UNITED STATES

    Among your many goals here is the charge to secure our 
borders, Mr. Director, and to control illegal immigration. I am 
told that the most current estimates place the number of 
illegal aliens in our country at over 8 million. I believe it 
is much more than that.
    Gentlemen, what is your best estimate on the number of 
illegal aliens currently residing in this country? How many new 
illegal aliens entered the country last year? Is that an 
increase or a decrease from the previous year? I fear that it 
is an increase. If we are so uncertain about the numbers, does 
that not seem to indicate that we are not doing enough to 
secure our borders and our homeland?

                               OVERSTAYS

    Another major problem with our immigration system is the 
fact that many of these people currently counted as illegals 
actually entered the country legally, but have overstayed their 
visas. Do you have any recent numbers on visa overstays, given 
that this makes up a large part of our illegal population?
    Next, what is your agency doing right now, and what are you 
planning to do in the future, to ensure that this does not 
continue to be a problem? That is, they get a visa, they come 
in, they do not go back, and you do not know where they are. 
There must be a way to keep track of these folks.

       STEMMING THE FLOW OF ILLEGAL ALIENS INTO THE UNITED STATES

    I spent this past week conducting county meetings all over 
the State of Alabama, my State. Without fail, at every meeting 
I was asked what the Federal Government was doing to stem the 
flow of illegal aliens into the United States. Unfortunately, 
my answer to them was, ``obviously not enough.''
    What is the directorate doing to make our borders more 
secure and eliminate the influx of illegal aliens in this 
country? How many aliens have been detained and deported in the 
last year? I am asking these questions, and I hope you will 
touch on all of them.
    If a Mexican citizen looking for work can pay a fee to a 
coyote to traverse our border, what is to keep terrorists that 
will do us harm from doing the same thing? I have been told 
many times, and I believe it, that rewarding bad behavior only 
encourages more bad behavior. We learn that as children. 
Currently, if you break the law entering the United States, you 
get a job. Now that is not what the law provides, but it sure 
seems to be what is happening.
    I have serious concerns about the ramification of proposals 
that sound a lot like the amnesty of 1986. If the current 
proposals are put into effect, the criminal would not only get 
a job, but social security and welfare benefits as well. I have 
been told that the rate of illegal immigration actually 
increased after the 1986 amnesty. Is there any truth to that 
statement? Would you agree that we spend too much time and 
money on the vetting process for those following the paths to 
legal immigration, and not enough trying to catch those people 
who are willing to break the law and pay $50 to be at work in 
the States in a couple of days. What are we going to do, or 
what are you going to do, to rectify the problem?
    I know I have posed a number of questions here in a short 
time. And I hope you will address them.
    Mr. Chairman, thank you.
    Senator Cochran. Thank you, Senator.
    Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you, Mr. Chairman. I want to join all 
of my colleagues in welcoming our witnesses today. You have a 
tremendous task before you. And I want to thank you for your 
service.

             $1.2 BILLION SHORTFALL CAUSE OF HIRING FREEZE

    I became increasingly concerned about the level of the 
President's budget request when I read that, according to the 
Wall Street Journal, a $1.2 billion shortfall has caused a 
hiring freeze within your agency. So I hope your testimony will 
clear up whether that is actually a computer glitch or an 
accounting error resulting from combing budgets from legal 
agencies or a real budget shortfall that this subcommittee will 
need to deal with.

                  SECURING LAND AND SEAPORTS-OF-ENTRY

    Mr. Chairman, my questions today will focus on the 
administration's plan for securing our ports of entry, both on 
land and our seaports. As we all know, many experts in the 
security arena, including some in your own department, have 
said that securing cargo coming into this country should be one 
of our Nation's highest priorities. I could not agree more. We 
absolutely need a coordinated plan for a nationwide cargo 
security regime.

                              TURF BATTLES

    However, I have been very disappointed with the turf 
battles that have been going on between Customs, TSA, and the 
Coast Guard as to who is in charge of cargo security. So I will 
want to explore with Commissioner Bonner how he plans on 
working under Secretary Hutchinson to implement each of the 
Department of Homeland Security's port and security programs 
into one coordinate regime.

                            CUSTOMS OFFICERS

    I am also interested to hear how our Customs and Border 
Protection (CBP) officers are being received overseas and the 
level of cooperation foreign customs agents are provided within 
programs like CSI and C-TPAT. I will also have questions about 
the implementation of security technology, such as radiation 
portal monitors at our ports of entry.
    Mr. Chairman, as always, I look forward to an informative 
hearing. I will have more specific topics to discuss with our 
witnesses during the question and answer period.
    Thank you very much.
    Senator Cochran. Thank you, Senator.
    Senator Stevens.
    Senator Stevens. Mr. Chairman, thank you very much. I have 
come to hear the testimony. No questions.
    Senator Cochran. Thank you very much, Senator.
    We are now ready to proceed. Mr. Aguirre, we will be glad 
to hear from you any opening statement that you have or 
comments in explanation of the President's budget request for 
your agency.

                   STATEMENT OF EDUARDO AGUIRRE, JR.

    Mr. Aguirre. Good morning, Chairman Cochran and Ranking 
Member Byrd and members of the subcommittee. My name is Eduardo 
Aguirre. And I have the honor of serving as the first Director 
of the U.S. Citizenship and Immigration Services within the 
Department of Homeland Security.
    In previous congressional testimony, I have shared my story 
of having arrived to the United States as a 15-year-old 
unaccompanied minor from Cuba. My parents sent me here to 
escape a repressive regime and to experience the freedoms and 
opportunities found only in America. I became a product of the 
legal immigration track, the very system that I am now charged 
with fundamentally transforming.
    We are a welcoming . And hard work and patriotism of our 
immigrants has made our Nation prosperous. We seek to continue 
to improve the administration of immigration benefits for the 
more than 6 million applicants who legally petition USCIS every 
year. Last year, upon creation of the USCIS, a team of 15,000 
and I embraced a simple but imperative mission, making certain 
that the right applicant receives the right benefit in the 
right amount of time or preventing the wrong individuals from 
obtaining our benefits.

                            THREE PRIORITIES

    We established three priorities that guide every aspect of 
our work: Eliminating the immigration benefit application 
backlog, improving customer service, while enhancing national 
security. As we mark our institutional 1-year anniversary, I am 
particularly pleased with the progress we have made and the 
professionalism exhibited by our employees day in and day out, 
while mitigating security threats that we know to be real and 
relentless.

                        ACCOMPLISHMENTS TO DATE

    To date, we have initiated online options for two 
application types, as well as case status updates. And we will 
be adding six more applications in May, which will account for 
over 50 percent of our work. We have established the Office of 
Citizenship. We have eliminated lines at some of our highest 
volume offices, and much more.
    USCIS is one of the largest fee-funded agencies in the 
Federal Government, charging fees from a variety of benefits 
from individuals seeking to enter, reside, or work in the 
United States. Therefore, the actual cash flow for our business 
operations vary from year to year with the number of 
immigration benefit applications received.

                           BACKLOG REDUCTION

    Mr. Chairman, as you know too well, backlogs from 
immigration benefit applications began to grow during the 
1990s, seeing an overall 77-percent increase from fiscal year 
1993 to fiscal year 2001. Beginning with fiscal year 2002, 
President Bush pledged and the Congress supported a multi-year 
$500 million initiative to attain the universal 6-month 
processing time standard by fiscal year 2006 for all 
immigration benefit applications while providing quality 
service to all customers.
    The President's fiscal year 2005 budget request seeks an 
additional $60 million in appropriated funds to boost the total 
dedicated to backlog reduction efforts to $160 million. The 
overall budget request for USCIS is $1.711 billion, which is 
$140 million in discretionary appropriated funds and $1.571 
billion in fees.
    The old INS developed a comprehensive backlog elimination 
plan prior to September 11, 2001, to achieve this goal. And we 
initially realized significant improvements in fiscal year 
2002. Processing times for applications averaged by type 
between 3 and 72 months. By the end of the year, these same 
averages were reduced to between 1 and 26 months. However, as 
we all know, September 11, 2001, profoundly affected our 
business operations, employees, and stakeholders. New guidance 
was issued. Security background checks were enhanced. And new 
processes were implemented. Already, many applications were 
subject to fingerprint and background checks. The enhanced 
checks instituted in July 2002 represents an additional set of 
name checks against a variety of workout databases housed in 
the Interagency Border Inspection System, which is also called 
IBIS.

                            SECURITY CHECKS

    Approximately 35 million security checks were performed 
last year by our agency. This change in the way we process 
immigration benefit applications has meant higher processing 
costs for USCIS. We make no apologies for our commitment to the 
integrity of the immigration system. And we will not cut a 
single corner or compromise security to process an application 
more quickly. We are making America safer against security and 
criminal threats one background check at a time.

                         SECURITY ENHANCEMENTS

    To ensure that our backlog does not increase further, we 
are currently seeking to adjust our fee schedule through the 
regulatory process by recovering costs associated with 
comprehensive security enhancements instituted after September 
11, 2001. The cost of these security enhancements is about $140 
million annually or $21 per application.

                             NEW PRIORITIES

    The fee adjustments will also support new priorities, such 
as establishing a refugee corps and establishing the new Office 
of Citizenship. In addition, USCIS will develop study materials 
and teaching guides to ensure that the process of preparing for 
naturalization is more meaningful, as well as developing 
standardized testing procedures.
    We fully realize that increased funding along will not 
enable us to realize our goals. We are taking a hard look at 
the way we currently conduct our business. We are aggressively 
working to modernize our systems and increase our capacity 
through the reengineering of processes to include developing 
mechanisms to interact with customers in a more forward-
reaching manner.

                      NEW BACKLOG ELIMINATION PLAN

    We are now in the process of finalizing a new backlog 
elimination plan that will outline changes to our business 
processes and which will set forth our revitalized mission of 
delivering immigration service in the future.

                        TEMPORARY WORKER PROGRAM

    On January 7, as has been mentioned here before, President 
Bush courageously confronted a broken system, one that has been 
ignored for too long. From the East Room of the White House, he 
called for Congress to deliver true reform and a new temporary 
worker program that facilitates economic growth, enhances 
national security, and promotes compassion. Many have asked how 
USCIS would implement its part of the President's temporary 
worker program should Congress pass the legislation.
    One of the principles of the President's proposed program 
is that it should be simple and user friendly, thus one that 
can be effectively administered. The President's proposal calls 
for aliens present in the United States as of January 7, 2004, 
to pay a processing fee upon enrolling in the program. USCIS 
anticipates recovering the cost of processing the applications 
through collections of a processing fee, as it is done 
currently with most immigration applications. The processing 
fee will be set based on a full cost recovery.

                           prepared statement

    Mr. Chairman, this concludes my prepared remarks. Thank you 
for your invitation to testify before this committee. And I 
look forward to your questions.
    [The statement follows:]

              Prepared Statement of Eduardo Aguirre, Jr.,

    Good afternoon Chairman Cochran, Ranking Member Byrd and Members of 
the Subcommittee. My name is Eduardo Aguirre and I have the honor of 
serving as the first Director of U.S. Citizenship and Immigration 
Services, within the Department of Homeland Security.
    We are a welcoming Nation, and the hard work and patriotism of our 
immigrants has made our Nation prosperous. We seek to continue to 
improve the administration of immigration benefits for the more than 
six million applicants who petition USCIS on an annual basis.
    We continue to commit ourselves to building and maintaining an 
immigration services system that provides information and benefits in a 
timely, accurate, consistent, courteous, and professional manner; while 
preventing ineligible individuals from receiving benefits. Put more 
simply, it is our job to make certain that the right applicant receives 
the right benefit in the right amount of time, while preventing the 
wrong individuals from obtaining our benefits.
    USCIS is one of the largest fee-funded agencies in the Federal 
government--charging fees for a variety of benefits from individuals 
seeking to enter, reside, or work in the United States. Therefore, the 
actual cash flow for our business operations, including a network of 
250 local offices, Application Support Centers, Service Centers, Asylum 
Offices, National Customer Service Call (NCSC) Centers, Forms Centers, 
and Internet portals, varies from year to year with the number of 
immigration benefit applications received.
    In any typical work day, our workforce of 15,500 (one-third of whom 
are contractors) will:
  --Process 140,000 national security background checks;
  --Receive 100,000 web hits;
  --Take 50,000 calls at our Customer Service Centers;
  --Adjudicate 30,000 applications for immigration benefits;
  --See 25,000 visitors at 92 field offices;
  --Issue 20,000 green cards; and
  --Capture 8,000 sets of fingerprints and digital photos at 130 
        Application Support Centers.
    USCIS has established three priorities: (1) eliminating the 
immigration benefit application backlog, (2) improving customer 
service, while (3) enhancing national security. In our first year of 
operation we have: initiated on-line options for a few application 
filings and case status updates; established the Office of Citizenship; 
eliminated lines at some of our highest volume offices; introduced a 
toll-free customer service help line; streamlined the Certificate of 
Citizenship process for internationally adopted children; developed a 
more secure travel document for permanent residents; and fleshed out 
our leadership team.
    Backlogs of immigration benefit applications began to grow during 
the 1990s. Overall, there was a 77 percent increase from fiscal year 
1993 to fiscal year 2001. The primary factors contributing to the 
backlogs were a dramatic increase in the number of applications and 
petitions received, delays in securing funding and positions to process 
this increasing number of applications, the lengthy 2 amount of time it 
takes to recruit, hire and train adjudicators, and the lack of a 
comprehensive approach to monitoring, supporting and maintaining timely 
processing.
    Beginning in fiscal year 2002, the President pledged, and the 
Congress supported, a multi-year $500 million initiative to attain a 
universal 6-month processing time standard for all immigration benefit 
applications while providing quality service to all customers. We 
developed a comprehensive Backlog Elimination Plan prior to September 
11, 2001 to achieve this goal. The Plan called for improvements to 
processes and expanded quality assurance efforts designed to achieve a 
high level of performance. We initially realized significant 
improvements. In fiscal year 2002, processing times for applications 
averaged, by type, between 3 and 72 months. By the end of the year, 
these same averages were reduced to between one and 26 months.
    However, September 11, 2001 profoundly affected our business 
operations, employees, and stakeholders. New guidance was issued, 
security background checks were enhanced, and new processes were 
implemented, including conducting interviews for the National Security 
Entry Exit Registration System (NSEERS) Program.\1\ Additionally, since 
July 2002, we formally enhanced our security background checks on the 
processing of all immigration benefit applications to ensure that those 
who receive immigration benefits have come to join the people of the 
United States in building a better society and not to do us harm.
---------------------------------------------------------------------------
    \1\ Program transferred to BTS in November of 2003.
---------------------------------------------------------------------------
    The process of performing enhanced security checks has been 
designed to compare information on applicants, and other beneficiaries 
as appropriate, who apply for an immigration benefit against various 
Federal lookout systems. The enhanced check instituted in July 2002 
represents an additional set of name checks against a variety of 
lookout databases housed in the Interagency Border Inspection System 
(IBIS). Already, many applications were subject to fingerprint and 
background checks.
    The purpose of conducting security checks is to help law 
enforcement agencies identify risks to the community and/or to national 
security and to prevent ineligible individuals from obtaining 
immigration benefits. On the vast majority of applications, we perform 
two checks; one when the application is initially received, and one at 
the time of adjudication. Approximately 35 million security checks are 
performed annually.
    In most of these cases (some 97 percent), the checks take only a 
few minutes. In the event of a ``hit'', however, we must hold that 
application without resolution until the security issue at hand is 
resolved. Last fiscal year, we processed a little over six million 
immigration benefit applications. Approximately 7 percent of the 
applications processed resulted in an initial security hit, and after 
further scrutiny, 2 percent resulted in confirmed security or criminal 
threat matches.
    This change in the way we process immigration benefit applications 
has meant higher processing costs for USCIS because the costs of 
performing these checks were not factored into the existing fee 
schedule. As a result, existing resources have been diverted to perform 
the additional security checks until the fees could be adjusted to 
cover these costs. Although the security enhancements have meant longer 
processing times in some categories and a significant growth in the 
application backlog, USCIS has taken the position that security 
absolutely will not be sacrificed in our search for increased 
efficiency. USCIS will continue to coordinate and identify suspected 
benefit fraud cases and refer them to ICE for enforcement action.
    Our intra-government coordination demonstrates that our approach 
realizes the intended results. By way of example, within the last month 
our background check procedures identified individuals wanted for 
murder in Portland and sexual assault in Miami. We are making America 
safer against security and criminal threats, one background check at a 
time.
    I believe that the President's fiscal year 2005 budget will set us 
on the right path toward enhancing immigration services. The budget 
includes a total for USCIS of $1.711 billion, $140 million in 
discretionary appropriated funds and $1.571 billion in fees, and seeks 
an additional $60 million to boost the total dedicated to backlog 
reduction efforts to $160 million. Our overall goal is to achieve a 6-
month processing time standard for all immigration benefit applications 
by fiscal year 2006.
    To ensure that our backlog does not increase further, we are 
currently seeking to adjust our fee schedule through the regulatory 
process by recovering costs associated with comprehensive security 
enhancements instituted after September 11, 2001. The annual cost of 
these security enhancements are about $140 million or about $21 per 
application.
    The fee adjustments will also support new activities such as 
establishing a refugee corps to improve the quality of refugee 
adjudications and establishing the new Office of Citizenship \2\ to 
promote instruction and training on citizenship responsibilities to 
both immigrants and U.S. citizens. The Office of Citizenship is 
developing initiatives to target immigrants at two critical points on 
their journey toward citizenship: when they obtain permanent resident 
status and as they begin the formal naturalization process. In the 
past, the Federal government provided few orientation materials for new 
immigrants. In contrast, CIS will reach out to new immigrants at the 
earliest opportunity to provide them with information and tools they 
need to begin the process of civic integration. In addition, CIS will 
develop study materials and teaching guides to ensure that the process 
of preparing for naturalization is meaningful, so that immigrants who 
choose to become U.S. citizens have a real understanding of the 
commitment they are making when they take the Oath of Allegiance to the 
United States. The establishment of a Refugee Corps will provide a 
strong and effective overseas refugee processing program able to 
fulfill the U.S. Refugee Program's humanitarian objectives and more 
efficiently identify inadmissible persons and those who are of national 
security interest.
---------------------------------------------------------------------------
    \2\ As required by the Homeland Security Act of 2002.
---------------------------------------------------------------------------
    We fully realize that increased funding alone will not enable us to 
realize our goals. We are taking a hard look at the way we currently 
conduct our business. We are aggressively working to modernize our 
systems and increase our capacity through the reengineering of 
processes, the development and implementation of new information 
technology systems, and the development of mechanisms to interact with 
customers in a more forward-reaching manner. For example, USCIS has 
recently eliminated the backlog of applications for the Certificate of 
Citizenship on Behalf of an Adopted Child with a program that 
proactively provides parents the certificate.
    We are now in the process of finalizing a new Backlog Elimination 
Plan that will outline changes to our business processes, and which 
will set forth our revitalized vision of delivering immigration 
services in the future.
    Additionally, we are examining the standard of knowledge in the 
current citizenship test to ensure that prospective and new citizens 
know not only the facts of our Nation's history, but also the ideals 
that have shaped that history.
    The project management team for this initiative recently met with 
over a dozen historians, civics experts, and adult educators to discuss 
the redesign of the U.S. history portion of the naturalization test 
with the goal of making the test more meaningful, substantive, and 
fair. This group is examining the meaning of significant events that 
occurred in our Nation's history, and is exploring ways in which 
naturalization candidates may better retain the significance of these 
events. Recognizing that many Americans have strong beliefs about what 
our new citizens should know about our country, we plan to publish the 
proposed test content in the Federal Register and ask for public 
comment. We believe that many Americans would like to have a say in 
what we are asking our new citizens to learn, and we are eager to hear 
from them. We look forward to briefing you and other Members of 
Congress on our proposed new citizenship test content and receiving 
your feedback, as well.
    In a related effort, this same team is working to redesign the 
current citizenship testing methodology in an effort to ensure more 
uniform results. Currently, a candidate in Los Angeles is, in all 
likelihood, not tested the same way or asked the same questions as a 
candidate taking the same exam on the same day in Boston. Therefore, we 
are developing standardized testing procedures so that applicants can 
be assured that they are experiencing an equitable testing process.
    We do not want to make the test more difficult. We do not want to 
make it less difficult. We want to make it more meaningful in a way 
that does not have an adverse impact on any particular group of 
applicants. Therefore, we will carefully pilot test the revised 
English, history, and government tests before implementing them. And, 
we will continue to consult with our stakeholders to solicit their 
input.
    Our plan is to implement the new test and testing process in 2006. 
Given the importance of the ultimate benefit for those tested--U.S. 
citizenship--this process is not one that can or should be rushed. We 
are committed to improving the current process and to improving it in 
the right way.
    As we celebrate our institutional 1-year anniversary, USCIS has 
stood up an organization of which we are very proud. We have 
established a leadership team, improved many of our operational 
processes, and continue to strive to make further improvements. The 
funding requested in the President's fiscal year 2005 budget request is 
an important factor in continuing to improve the service we can offer 
our customers.
    This concludes my prepared remarks. I thank you for the invitation 
to testify before this committee and I would be happy to answer any 
questions.

    Senator Cochran. Thank you, Mr. Aguirre.
    Mr. Bonner, we will be glad to hear from you now.

               STATEMENT OF COMMISSIONER ROBERT C. BONNER

    Mr. Bonner. Yes, Mr. Chairman. Thank you. Senator Byrd, 
other members of the subcommittee, I am pleased to be here to 
discuss the Customs and Border Protection, or CBP, 2005 budget 
request. Let me just make a couple of observations. First of 
all, one of the most important ideas of the reorganization into 
the Department of Homeland Security was to do, as Secretary 
Ridge put it, create one face at the border, one agency for our 
borders to manage and secure the borders of our country. And 
that started on March 1, 2003, just over a year ago.
    When all of the immigration inspectors of the former INS, 
all the agriculture border inspectors from the Department of 
Agriculture, all of the border patrol agents merged with the 
bulk of the U.S. Customs Service to form the Bureau of Customs 
and Border Protection, an agency within the Department of 
Homeland Security, responsible for managing and securing our 
Nation's borders.
    CBP is the largest and perhaps one of the most profound 
actual mergers of people and functions taking place as a result 
of the Department of Homeland Security reorganization. The 
number of employees in CBP equals about one-fourth of all the 
employees of the Department of Homeland Security. And that is 
not particularly surprising when one considers the importance 
of the security of our borders to the security of our homeland.
    By unifying the border agencies we are, and we will be, 
more effective and more efficient than we were when border 
responsibilities were literally fragmented among four different 
entities or agencies of our government, reporting to three 
different departments of our government, which is the way we 
were organized before March 1, 2003, before the creation of the 
Department of Homeland Security.
    And I will also report to this subcommittee that we have 
made great progress towards successfully completing this 
historic merger.
    In the last year alone, I have selected one port director 
for each and every one of the 300 plus ports of entry to the 
United States. We no longer have two or three different port 
directors for agriculture, immigration, and customs. We have 
one port director at all ports-of-entry into this country.

                             CBP INSPECTORS

    We have provided antiterrorism training for all CBP 
inspectors and equipped all front line inspectors with 
radiation detection devices. We have implemented unified 
primary inspections at our international airports. So for the 
first time, we are performing a primary inspection, not just 
for immigration, but for all purposes, immigration, customs, 
and agriculture purposes. No more running the gauntlet of three 
different agencies when you enter the United States at one of 
our international airports.

INTEGRATION OF PASSENGER ANALYSIS UNITS AND CONSOLIDATED ANTITERRORISM 
                         SECONDARY EXAMINATIONS

    We have integrated our passenger analysis units and 
consolidated our anti-terrorism secondary examinations, so that 
all of our customs and immigration expertise and authorities 
are brought to bear, and are used in identification, 
questioning, and searching of potential terrorists arriving at 
our borders.

  NEW CBP UNIFORM FOR ALL CBP INSPECTORS AND CREATED AN OFFICE OF THE 
                             BORDER PATROL

    We have rolled out a new CBP uniform for all of CBP 
inspectors at our ports of entry. All 19,000 CBP inspectors 
will be in this new uniform by July of this year. And many of 
them already are. And we have integrated the border patrol in 
CBP by creating an Office of the Border Patrol. We have revised 
the border patrol's national strategy to reflect the priority 
mission of CBP and the Department of Homeland Security. And we 
have implemented portions of that by stationing now over 1,000 
border patrol agents at our northern border sectors.

                        PRIORITY MISSION OF CBP

    The priority mission of CBP is preventing terrorists and 
terrorist weapons from entering our country, but we recognize 
that to do that mission we need to carry it out without 
stifling the flow of legitimate trade and travel that is so 
vital to our country's economy and to our way of life. Those do 
not have to be mutually exclusive and we are pursuing smart 
border initiatives to make them mutually reinforcing.
    For example, rather than physically inspecting the 
approximately 23 million containers that arrive by sea, rail, 
and truck into the United States yearly, which would be 
tantamount to closing our borders down and shutting down our 
economy, we have taken measures to identify the high-risk 
containers and inspect them rapidly, using state-of-the-art 
technology when they arrive at our seaports or our land 
borders.
    We are obtaining electronic data on virtually all shipments 
that are coming to the United States. And we are using that 
data in our automated targeting system to identify all 
potentially high-risk containers, particularly for the 
terrorist threat. And we are inspecting all high-risk 
containers for terrorist weapons using our non-intrusive 
inspection technology and our radiation detection technology.

                     CONTAINER SECURITY INITIATIVE

    We are also, though, employing a layer defense which is an 
extended border strategy. And that is through the Container 
Security Initiative. We are pushing our zone of security beyond 
our physical borders by placing our personnel overseas to work 
with other governments to target, identify, and inspect their 
high-risk containers destined for the United States, and 
destined for our seaports before they are loaded aboard vessels 
at foreign seaports.
    I am not going to discuss this chart I put up here but that 
chart indicates in a nutshell that already countries, 38 
foreign ports, have agreed with us to deploy and implement the 
Container Security Initiative. And we have already moved out 
rapidly and have implemented, by stationing our personnel 
overseas as CSI targeters at 18 foreign seaports. And, of 
course, we are not stopping there. We are going to continue to 
expand the container security initiative.

              CUSTOMS TRADE PARTNERSHIP AGAINST TERRORISM

    We also, under the Customs Trade Partnership Against 
Terrorism, we are working with the private sector to increase 
the security of their supply chains, literally from the foreign 
loading docks to our ports of entry into the United States.

                    FISCAL YEAR 2005 BUDGET REQUEST

    Our budget request, Mr. Chairman, for 2005 for program 
increase is $190 million. That includes funding for the 
container security initiative to continue its expansion, 
funding to expand the Customs Trade Partnership Against 
Terrorism. There is some significant funding for radiation 
detection equipment to further expand our portal radiation 
monitors and other detection equipment at our ports of entry 
into the United States to better detect against radiological 
and even nuclear weapons.

                           prepared statement

    There is funding for the enhancements of our automated 
targeting system, as well as for surveillance and sensoring 
technology for the border patrol, and some funding for UAVs to 
deploy and operate Unmanned Aerial Vehicles to better detect 
illegal crossings at our borders.
    So I want to thank you, Mr. Chairman and members of this 
committee, for the support you have given already to Customs 
and Border Protection. And in working together, I am confident 
that we will succeed in better securing our borders against the 
terrorist threat.
    That concludes my statement, Mr. Chairman. And I will 
answer any questions at the appropriate time that you or this 
subcommittee may have.
    [The statement follows:]

                 Prepared Statement of Robert C. Bonner

                       INTRODUCTION AND OVERVIEW

    Chairman Cochran, Ranking Member Byrd, Members of the Subcommittee, 
it is a privilege and an honor to appear before you today to discuss 
Customs and Border Protection's (CBP) fiscal year 2005 budget request.
    I want to begin by expressing my gratitude to the Committee on 
Appropriations for the support it provided for important initiatives 
implemented by CBP last year. That support enabled CBP to make 
significant progress in protecting our country against the terrorist 
threat. I also want to thank Congress for the support it provided in 
creating the new Department of Homeland Security, and the new Customs 
and Border Protection agency within that Department. As the head of 
CBP, I look forward to working with you to build on these successes.
    The priority mission of CBP is to prevent terrorists and terrorist 
weapons from entering the United States. That extraordinarily important 
priority mission means improving security at our physical borders and 
ports of entry, but it also means extending our zone of security beyond 
our physical borders--so that American borders are not the first line 
of defense.
    And we must do this while continuing to perform our traditional 
missions well. These missions include apprehending individuals 
attempting to enter the United States illegally, stemming the flow of 
illegal drugs and other contraband, protecting our agricultural and 
economic interests from harmful pests and diseases, protecting American 
businesses from theft of their intellectual property, regulating and 
facilitating international trade, collecting import duties, and 
enforcing U.S. trade laws. In fiscal year 2003, CBP processed 26.1 
million trade entries, collected $24.7 billion in import duties, seized 
2.2 million pounds of narcotics, and processed 412.8 million 
pedestrians and passengers and 132.2 million conveyances.
    We must perform all of this important security and border-related 
work without stifling the flow of legitimate trade and travel that is 
so important to our nation's economy. In other words, we have ``twin 
goals'': Building more secure and more efficient borders.
    Our total program increase request for fiscal year 2005 is $223 
million. These funds will help CBP fulfill its priority mission of 
preventing terrorists and terrorist weapons from entering the United 
States. As Commissioner, I will also devote needed funds to support the 
automation and information technology programs that will improve 
overall operations of the agency, and I will devote funds to support 
the traditional missions for which CBP is responsible.
    Mr. Chairman, although I will touch on each of these areas in my 
statement, and outline the actions CBP has taken or is planning to take 
in each, I want to point out that in many cases, funds spent in one 
area have a direct and positive impact on other areas. For example, 
funds spent on automation and information technology provide invaluable 
assistance to our priority mission of preventing terrorists and 
terrorist weapons from entering the United States. Also, funds spent on 
our priority mission often result in improvements in our effectiveness 
and efficiency in carrying out our traditional missions, such as 
interdicting narcotics, and vice versa.
    By way of summary of the fiscal year 2005 budget for CBP, I can 
tell you that the program increases we are requesting include:
  --$25 million for the Container Security Initiative, which will 
        support the continued expansion of the program, including the 
        stationing of CBP personnel in additional key international 
        seaports to examine high-risk cargo before it is placed on 
        ships bound for the United States;
  --$15 million for the Customs-Trade Partnership Against Terrorism to 
        increase supply chain security and expedite the clearance of 
        legitimate trade;
  --$50 million for Radiation Detection and Non-Intrusive Inspection 
        Technology to detect weapons of mass destruction;
  --$21 million for Targeting Systems Enhancements to identify high-
        risk travelers and goods for inspection while allowing the vast 
        majority of law abiding travelers and commerce to continue 
        unimpeded;
  --$64 million for Border Patrol Surveillance and Sensor Technology 
        for the expansion of the remote video system along the southern 
        and northern borders to detect illegal crossings and to 
        increase the effectiveness of agents responding to such 
        crossings;
  --$10 million for Unmanned Aerial Vehicles to develop, procure, 
        deploy, and operate a system of unmanned aerial vehicles to 
        support the Border Patrol by detecting and monitoring illegal 
        border crossings; and
  --$5 million to support the International Trade Data System (ITDS) to 
        revolutionize the way international trade data is collected, 
        disseminated, and used.
    In my statement, I will discuss these programs and others that CBP 
has been working on during the past year. I would like to begin, 
though, with a brief update for the Subcommittee on the status of CBP 
after 1 year.

                CUSTOMS AND BORDER PROTECTION AT 1 YEAR

    On March 1st, the Department of Homeland Security celebrated its 1 
year anniversary as a Department. The anniversary marked the successful 
transfer of approximately 42,000 employees from the U.S. Customs 
Service, the Immigration and Naturalization Service, and the Animal and 
Plant Health Inspection Service (APHIS) to the new Customs and Border 
Protection agency in the Department of Homeland Security. CBP is the 
largest actual merger of people and functions within the Department of 
Homeland Security. Indeed, about one-fourth of the personnel of DHS are 
housed within CBP. That is not surprising considering how important the 
security of our borders is to the security of our homeland.
One Face at the Border
    To create CBP, on March 1, we took a substantial portion of U.S. 
Customs and merged that with all of the immigration inspectors and 
Border Patrol from the former INS, and inspectors from the Department 
of Agriculture's APHIS. This means that for the first time in our 
country's history, all agencies of the United States Government with 
significant border responsibilities have been integrated and unified 
into a single Federal agency responsible for managing, controlling and 
securing our Nation's borders.
    At CBP, we are creating, as Secretary Ridge has called it, ``One 
Face at the Border''--one border agency for our country. In the year 
following its creation, CBP has made significant strides toward 
unification. And America is safer and its border are more secure than 
they were when border responsibilities were fragmented in three 
different departments of government, as they were before March 1, 
2003--before the creation of the Department of Homeland Security.
    On March 1, 2003, CBP designated one Port Director at each port of 
entry and put in place a single, unified chain of command. This was the 
first time there has ever been one person at each of our nation's ports 
of entry in charge of all Federal Inspection Services. And in terms of 
an immediate increase in antiterrorism security, on Day One, all 
frontline, primary inspectors at all ports of entry into the United 
States were equipped with radiation detection devices. Since March 1, 
2003, all inspectors have also received antiterrorism training.
    Last year, we began rolling out unified CBP primary inspections at 
international airports around the country, starting with U.S. citizens 
and Lawful Permanent Residents. Unified primary means that the CBP 
inspector in the booth will conduct the primary inspection for all 
purposes--immigration, customs, and agriculture. Launched at Dulles, 
Houston, JFK, Newark, LAX, Atlanta, Miami, San Francisco, unified 
primary is now operational at all major international airports. This is 
a major step forward in eliminating the process of travelers 
potentially having to ``run the gauntlet'' through three separate 
inspection agencies. Although legacy customs and immigration inspectors 
have assumed interchangeable roles at the land border ports of entry 
for years, this is the first time unified primary has been done on a 
national scale at our country's airports.
    Along with unified primary, we have also developed and are 
implementing combined anti-terrorism secondary which leverages the 
expertise and authorities of both legacy customs and immigration to 
conduct a joint secondary inspection of passengers deemed high-risk for 
terrorism. CBP has also begun to coordinate and consolidate our 
passenger analytical units--the units that identify potential high-risk 
travelers for inspection. Again, this brings together the customs and 
immigration experience and authority to more effectively and 
efficiently identify and interdict individuals who pose a possible 
terrorist risk.

Unifying Symbols and the CBP Officer Position
    Since July 2003, we have begun rolling out a new CBP uniform and 
patch for all CBP inspectors at our Nation's ports of entry. It will 
replace the three different customs, agriculture, and immigration 
inspectional uniforms and patches. The new uniform and patch represent 
our most visible unifying symbols to the American public. The new 
uniform is being implemented in four phases. In the first phase, 
completed as of October 1, 2003, all CBP managers and supervisors 
converted to the new uniform. Other CBP uniformed personnel will be 
phased in at various points with implementation scheduled to be 
complete by July of this year.
    All of these actions are helping us unify and become more effective 
as an agency. Perhaps our most significant step toward achieving ``One 
Face at the Border,'' though, was announced by Secretary Ridge on 
September 2, 2003: the rollout of the new ``CBP Officer'' position. As 
of October, 2003, we stopped hiring and training legacy ``immigration'' 
or ``customs'' inspectors and began hiring and training a new group of 
``CBP Officers,'' who will be equipped to handle all CBP primary and 
many of the secondary inspection functions, in both the passenger and 
cargo environments. We are also deploying CBP Agriculture Specialists 
to perform more specialized agricultural inspection functions in both 
these environments.

Integrated Training
    Training is a very important component to the roll out of the CBP 
Officer. We have created a new 14 week, 71-day basic course that 
provides the training necessary to conduct primary processing and to be 
familiar with secondary processing of passengers, merchandise, and 
conveyances in all modes of transport--air, sea, and land. The new CBP 
Officer course was built from the 53-day basic Customs inspector course 
and the 57-day basic Immigration inspector course, with redundancies 
removed, and with additions to address anti-terrorism and CBP's role in 
agriculture inspection. The training also supports the traditional 
missions of the legacy agencies integrated in CBP. Our first CBP 
Officers were hired on September 22, 2003, and they immediately started 
training at the Federal Law Enforcement Training Center (FLETC).

Enhanced Security Between Ports of Entry
    We have also worked very hard to integrate the Border Patrol into 
CBP and simultaneously to improve the security of our country between 
the ports of entry. We have revised and refocused the Border Patrol's 
National Strategy, which had previously been focused on preventing the 
flow of illegal aliens and drugs between ports of entry on our border 
with Mexico. It now includes an aggressive strategy for protecting 
against terrorist penetration, at both our northern and southern 
borders.
    And we have started implementing this Strategy. On 9-11, there were 
only 368 authorized positions for Border Patrol agents for the entire 
northern border. In the last year, we have added almost 500 agents to 
the northern border, giving us more than 1,000 total--exceeding the 
goal I set soon after March 1, 2003. This staffing increase will better 
secure our border against terrorist penetration.
    But we are doing more than just adding staffing. We are adding 
sensors and other technology that assist in detecting illegal crossings 
along both our northern and southern borders, including Remote Video 
Surveillance (RVS) systems. These RVS systems are real-time remotely 
controlled force enhancement camera systems, which provide coverage 
along the northern and southern land borders of the United States, 24 
hours per day, 7 days a week. The RVS system significantly enhances the 
Border Patrol's ability to detect, identify, and respond to border 
intrusions, and it has a deterrent value as well.
    And we have seen gains in security by integrating the Border Patrol 
into CBP. For example, the Office of Field Operations and the Office of 
the Border Patrol are now able to quickly and easily share equipment 
and information to support one another, and have done so on many 
occasions, whether it be the use of radiation detection equipment at 
higher threat conditions, or the use of truck imaging equipment to 
detect and deter human smuggling.

MEETING OUR TWIN GOALS: BUILDING MORE SECURE AND MORE EFFICIENT BORDERS

    As the single, unified border agency of the United States, CBP's 
mission is vitally important to the protection of America and the 
American people. In the aftermath of the terrorist attacks of September 
11th, we have developed numerous initiatives to meet our twin goals of 
improving security and facilitating the flow of legitimate trade and 
travel. Funds from the fiscal year 2005 budget will help us expand 
those initiatives and to begin new ones to ensure further protection of 
both the American people and the American economy. Our strategy in 
implementing these initiatives involves a number of factors, including: 
(A) constantly improving and expanding our targeting systems to better 
screen more people and goods entering and departing the United States; 
(B) pushing our ``zone of security outward'' by partnering with other 
countries; (C) pushing our ``zone of security outward'' by partnering 
with the private sector; (D) deploying advanced inspection technology 
and equipment at our ports of entry to detect weapons of mass 
destruction; and (E) deploying advanced detection and monitoring 
equipment between our ports of entry to detect illegal crossings.

Enhancing our ability to identify high-risk people and cargo
    Information is one of the most important keys to our ability to 
increase security without stifling legitimate trade and travel. Good 
information enables us to more accurately identify--or target--what is 
``high risk,'' defined as a potential threat, and what is low risk or 
absolutely no risk whatsoever. The separation of high risk from no risk 
is critical because searching 100 percent of the cargo and people that 
enter the United States would unnecessarily cripple the flow of 
legitimate trade and travel to the United States. What is necessary and 
advisable is searching 100 percent of the highrisk cargo and people 
that enter our country. To do this, we need to be able to identify what 
is high risk, and do so as early in the process as possible. CBP has 
several programs and initiatives that help us accomplish that task.

            Advance Electronic Information
    Since September 11th, CBP has taken numerous steps to ensure that 
it has the information it needs, at the right time, to identify all 
high-risk people and shipments destined for the United States. As a 
result of these efforts, and the strong support of the Congress, CBP 
now has, among other authorities, the statutory authority to require 
Advance Passenger Information and Passenger Name Record data on all 
people flying into and out of the United States, as well as advanced, 
electronic manifest data on cargo destined for or departing the United 
States. CBP has worked aggressively to promulgate and implement 
regulations pursuant to these enabling statutes. For example, we are 
currently implementing regulations requiring advance, electronic 
manifest (or similar) data on virtually all cargo coming into the 
United States by any mode (rail, truck, aircraft, vessel), whereas this 
data was previously provided on a voluntary, and very limited basis. 
These requirements should be fully implemented by early fiscal year 
2005.

            National Targeting Center (NTC)
    The NTC began around the clock operations on November 10, 2001, 
with a priority mission of providing tactical targeting and analytical 
research support for Customs' anti-terrorism efforts. As personnel from 
Customs, the INS, and the USDA came together on March 1, 2003, under 
the umbrella of CBP, the NTC mission broadened commensurately with the 
CBP role in support of Homeland Security.
    The NTC is primarily staffed by CBP Officers and analysts that are 
experts in passenger and cargo targeting for air, sea, and land 
operations in the inbound and outbound environments. The NTC develops 
tactical targets--potentially high-risk people and shipments that 
should be subject to a CBP inspection--from raw intelligence, trade, 
travel, and law enforcement data. NTC also supports CBP field elements, 
including Container Security Initiative (CSI) personnel stationed in 
countries throughout the world, with additional research assets for 
passenger and cargo examinations.
    In January 2003, the NTC staff relocated to a state-of-the-art 
facility. The new facility is designed to accommodate representatives 
from all CBP disciplines, including representatives from the Office of 
Border Patrol, the Office of Intelligence, and the Office of 
Information and Technology, as well as liaison staff from the law 
enforcement and intelligence communities. The NTC has developed liaison 
with the Office of Naval Intelligence and the U.S. Coast Guard via an 
exchange of personnel with the National Marine Intelligence Center. NTC 
has also exchanged personnel with the Transportation Security 
Administration, the Department of Energy, and provided targeting 
expertise to the DHS Operations Center.
    The funding sought in fiscal year 2005 will enable the NTC to 
continue to expand its infrastructure and personnel to meet the needs 
of CBP as we see continued increases in passengers and commercial 
shipments coming to the United States. It will also enable the NTC to 
continue to play a central role in interagency activities related to 
identifying highrisk people and cargo.

            Automated Targeting System
    The Automated Targeting System (ATS), which is used by NTC and 
field targeting units in the United States and overseas, is essential 
to our ability to target high-risk cargo and passengers entering the 
United States. ATS is the system through which we process advance 
manifest and passenger information to pick up anomalies and ``red 
flags'' and determine what cargo is ``high risk,'' and therefore will 
be scrutinized at the port of entry or, in some cases, overseas.
    The funding increases sought for ATS in the fiscal year 2005 budget 
will allow for the continued improvement of the system as well as 
provide it with the capacity to process the electronic data related to 
the ever-increasing number of people and goods entering the United 
States. For example, the funding will allow us to develop and implement 
a version of ATS that, for the first time, will be able to identify 
potentially high-risk travelers in passenger vehicles. It will also be 
used to upgrade our passenger targeting system by improving the amount 
of government data that the system can access and analyze as well as 
provide us with the capacity to train more people on the use of the 
system. On the cargo side, the funding will permit ATS to increase its 
capacity and upgrade its capabilities by utilizing cutting edge 
information analysis technologies developed by CBP and the private 
sector.

Pushing our Zone of Security Outward--Partnering with Other Countries
            Container Security Initiative (CSI)
    To meet our priority mission of preventing terrorists and terrorist 
weapons from entering the United States, I believe CBP must ``push our 
zone of security outward''--so that our borders are not the first line 
of defense to keep terrorists and terrorist weapons out of the United 
States. We have done this by partnering with other countries on our 
Container Security Initiative (CSI), one of the most significant and 
successful homeland security initiatives developed and implemented 
after 9-11.
    Almost 9 million cargo containers arrive at U.S. seaports annually. 
Because of the sheer volume of sea container traffic and the 
opportunities it presents for terrorists, containerized shipping is 
uniquely vulnerable to terrorist attack. Under CSI, which is the first 
program of its kind, we are partnering with foreign governments to 
identify and inspect high-risk cargo containers at foreign ports, 
before they are shipped to our ports and pose a threat to the United 
States and to global trade.
    The four core elements of CSI are:
  --First, identifying ``high-risk'' containers, using ATS and the 24-
        hour rule, before they set sail for the United States.
  --Second, pre-screening the ``high-risk'' containers at the foreign 
        CSI port before they are shipped to the United States.
  --Third, using technology to pre-screen the high-risk containers, 
        including both radiation detectors and large-scale imaging 
        machines to detect potential terrorist weapons.
  --Fourth, using smarter, ``tamper-evident'' containers--containers 
        that indicate to CBP officers at the port of arrival whether 
        they have been tampered with after the security screening.
    CSI continues to generate exceptional participation and support. 
The goal for the first phase of CSI was to implement the program at as 
many of the top 20 foreign container ports--in terms of volume of cargo 
containers shipped to United States seaports--as possible. Those ports 
account for nearly 70 percent of all cargo containers arriving at U.S. 
seaports. Today, the governments representing 19 of the top 20 ports 
have agreed to implement CSI, and I am confident that we will reach 
agreement with the 20th port very soon.
    We announced the second phase of CSI in June 2003. Under CSI Phase 
II, we will implement CSI at other foreign ports that ship a 
significant volume of cargo to the United States, and that have the 
infrastructure and technology in place to support the program. We have 
already signed CSI agreements with Malaysia, Sweden, South Africa, and 
Sri Lanka. Once we have Phase II implemented, we anticipate that CSI 
will cover approximately 80 percent of the containers coming to the 
United States.
    Right now, CSI is operational in the following locations: 
Rotterdam, the Netherlands; Le Havre, France; Bremerhaven and Hamburg, 
Germany; Antwerp, Belgium; Singapore; Yokohama, Japan; Hong Kong; 
Gothenburg, Sweden; Felixstowe, United Kingdom; Genoa and La Spezia, 
Italy; Busan, Korea; Durban, South Africa; and Port Kelang, Malaysia. 
These locations account for nearly 70 percent of all cargo containers 
destined for the United States.
    I want to express my gratitude to the Committee members for their 
support of CSI in fiscal year 2004. With the $25 million increase in 
funding that we are requesting for CSI in fiscal year 2005, we will 
have CSI in place and operational at as many as 40 seaports around the 
world.

            Immigration Control Officers (ICOs)
    Over the last few years, we have also started applying the concept 
underlying CSI, i.e., pushing our zone of security beyond our borders, 
to the movement of people. This effort originated with the INS and its 
Immigration Control Officer (ICO) program. Through CBP, this effort is 
continuing, and being refined to better address the terrorist threat.
    The roles and responsibilities of the ICOs are to: (1) seek to 
prevent the onward movement of people positively identified as 
presenting a security threat to the carrier or passengers on 
international flights destined to the United States; (2) disrupt and 
deter the smuggling of special interest aliens, or fraudulently 
documented and otherwise inadmissible aliens destined to the United 
States; (3) provide advance notice of passengers on onward transit 
airports and destination airports whose true identity and purposes 
warrant closer inspection; (4) collect law enforcement intelligence on 
known and suspected smugglers and smuggling facilitators; (5) seek, 
through cooperation with host government law enforcement agencies and 
U.S. law enforcement agencies, the apprehension and prosecution of 
smugglers, facilitators and other identified criminal aliens; and (6) 
provide training in fraudulent detection, migration trends, passenger 
assessment and related topics to United States and host government law 
enforcement, immigration and carrier personnel. The ICOs carry out 
their responsibilities in accordance with the Code of Conduct for 
Immigration Liaison Officers of the International Air Transport 
Association.
    Canada, Australia, the United Kingdom and the Netherlands have ICOs 
stationed around the world. In concert with our international partners, 
the INS launched Operation Global Shield in October 2002 with the 
deployment of officers to more than a dozen locations, including major 
transit hubs in Central and South America, Europe and the Far East. 
This was a very successful effort. Operation Global Shield resulted in 
2,971 interceptions in a 5 month period.
    CBP is now building on the lessons learned from Operation Global 
Shield as well as the experiences of our international partners to 
refine the ICO concept to better respond to the threat of international 
terrorism. The United States currently has over 70 legacy immigration 
personnel overseas, many of whom are engaged in ICO activities, but not 
on a full time basis. At CBP, we will be working with these personnel 
to refine their ICO work to ensure that we prevent potential terrorists 
from boarding aircraft destined for the United States. We will also be 
putting in place a new, refined ICO program in Warsaw, Poland in the 
near term to test and refine our antiterrorist measures before 
expanding the program to other locations.

Pushing our Zone of Security Outward--Partnering with the Trade
            Customs-Trade Partnership Against Terrorism (C-TPAT)
    The Customs-Trade Partnership Against Terrorism (C-TPAT) is a 
voluntary partnership between CBP and industry to secure international 
supply chains from end to-end. Through C-TPAT, participants develop and 
maintain secure supply chains from the foreign factory floor to the 
ultimate destination in the U.S. CBP, in return, offers C-TPAT 
shipments expedited processing and provides C-TPAT participants with 
other benefits.
    The program is rigorous. In order to join C-TPAT, a company must 
conduct a self-assessment of its current supply chain security 
procedures using C-TPAT security guidelines developed in partnership 
with logistics and security experts from the trade. A participant must 
also commit to increasing its supply chain security by addressing any 
vulnerabilities that exist. Perhaps most importantly, participants also 
make a commitment to work with their business partners and customers 
throughout their supply chains to ensure that those businesses also 
increase their supply chain security. By leveraging the influence of 
importers and others on different participants in the supply chain, C-
TPAT is able to increase security of U.S. bound goods at the time of 
container stuffing. This reach--to the foreign loading dock--is 
critical to the goal of increasing supply chain security.
    Although C-TPAT is a partnership, we are not simply taking the 
participants at their word when it comes to their supply chain 
security. As a former President once said: ``Trust, but verify.'' 
Applying this lesson, we have created a cadre of specially trained 
supply chain security specialists to validate the commitments made by 
C-TPAT participants--to ensure that they are increasing supply chain 
security as they have promised CBP. These specialists meet with 
personnel from C-TPAT participants and their business partners and 
observe the security of their supply chains, including security at 
overseas loading docks and manufacturing plants. Through this process, 
we work with C-TPAT participants to identify ways that they can further 
increase their supply chain security and we ensure that companies that 
are not honoring their commitments lose their C-TPAT privileges.
    C-TPAT is currently open to all importers, cross-border air, sea, 
truck, and rail carriers, brokers, freight forwarders, consolidators, 
non-vessel operating common carriers (NVOCCs), and U.S. Marine and 
Terminal operators. We are currently enrolling certain foreign 
manufacturers in the C-TPAT program as well, and we will continue to 
develop ways to include this important element of the supply chain in 
the program. The intent is to construct a supply chain characterized by 
active C-TPAT links at each point in the logistics process.
    As of March 12, 2004, the C-TPAT participation and validation 
numbers are as follows:

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                      Oldest
                                                                Security    Certified   Insufficient   Responses     Security   Validations  Validations
                                                   Partners     Profile      Partners     Security        Sent     Profile Not   Initiated    Completed
                                                                Received                  Profiles                   Reviewed
--------------------------------------------------------------------------------------------------------------------------------------------------------
Importers......................................        3,519        2,434        1,580           277        1,857           41          305           65
Carriers.......................................          998          803          519            90          609           34          183           40
Brokers/Forwarders.............................        1,205          934          759           109          868           31          208          106
Foreign Manufacturers..........................          118           58           45             1           46           21            0            0
Marine Port Auth. & Terminal Op................           41           32           23             4           27           36           22           10
                                                --------------------------------------------------------------------------------------------------------
      Total....................................        5,881        4,261        2,926           481        3,407          N/A          718          221
--------------------------------------------------------------------------------------------------------------------------------------------------------

            Free and Secure Trade (FAST)
    Building on C-TPAT, we have created the Free and Secure Trade 
(FAST) program with Canada and Mexico. This program increases the 
supply chain security of goods moving across our land borders and also 
facilitates the movement of legitimate commerce by aligning customs 
processes on both sides of the border and offering the most expedited 
customs processing available on the land border. To be eligible for 
FAST processing, importers, carriers, and manufacturers (on the 
southern border) must participate in C-TPAT and must use a FAST-
registered driver. Because each participant must meet C-TPAT supply 
chain criteria and the driver must be vetted by CBP (including 
exhaustive database checks and a personal interview), the FAST program 
substantially increases the security of supply chains across our 
northern and southern borders. And because FAST relies on advanced 
electronic data transmissions and transponder technology, CBP can offer 
FAST shipments the most expedited clearance procedures available today. 
With these procedures in place, CBP can focus its security efforts and 
inspections where they are needed most--on high-risk commerce.
    FAST is currently operational at 11 major northern border crossings 
and 2 major southern border crossings. The program will expand to 
additional locations in fiscal year 2005.
    I would like to thank the Committee for its consistently strong 
support for C-TPAT and FAST. The $15 million funding increase we have 
sought for C-TPAT in fiscal year 2005 will enable us to continue to 
expand both programs by enrolling additional participants. It will also 
allow us to add a substantial number of supply chain security 
specialists to our ranks, thereby ensuring that as the program grows, 
we will be able to conduct an appropriate number of validations. As a 
result, we will substantially increase the security of our 
international supply chains.

Using Technology to Detect Weapons of Mass Destruction at our Ports of 
        Entry
    As trade increases, CBP's reliance on Non-Intrusive Inspection 
(NII) technology to secure the borders becomes more and more critical. 
Only by using NII technology to speed the inspections process for 
weapons of mass destruction and contraband can CBP meet its twin goals 
of increasing security and at the same time facilitating trade.
    CBP uses various technologies in different combinations to 
substantially increase the likelihood that a nuclear or radiological 
weapon or weapons grade material will be detected. In addition, CBP 
uses NII technology to detect and interdict narcotics, currency and 
other contraband secreted in large containers and commercial shipments. 
Technologies deployed to our nation's land, sea and air ports of entry 
include largescale X-ray and gamma-imaging systems--systems that can 
image the contents of an entire container in seconds. These systems 
include the Vehicle and Cargo Inspection System (VACIS), Mobile VACIS, 
Truck X-ray, Mobile Truck X-ray, Rail VACIS, Mobile Sea Container 
Examinations Systems and the Pallet Gamma-ray System. In September 
1996, our first large-scale NII system, a Truck X-ray, became 
operational in Otay Mesa, California. Today, we have 145 large-scale 
NII systems deployed.
    In addition, we have developed and begun implementing a national 
radiation detection strategy. Pursuant to that Strategy, we are 
deploying nuclear and radiological detection equipment to include 
personal radiation detectors (PRDs), radiation portal monitors (RPMs) 
and next generation radiation isotope identifier devices (RIIDs). In 
combination with our layered enforcement strategy--working overseas to 
prevent the proliferation of nuclear materials and to detect them 
before they are shipped to the United States--and our use of multiple 
inspection technologies, these tools currently provide CBP with 
significant capacity to detect nuclear or radiological materials. Our 
fiscal year 2005 request for $50 million would provide CBP with the 
funding to continue to purchase and deploy the technologies needed to 
implement its national radiation detection strategy.

Using Technology to Detect and Monitor Illegal Crossings Between our 
        Ports of Entry
            Integrated Surveillance Intelligence System (ISIS)
    ISIS is a critical part of CBP's strategy to build smarter borders. 
By using remotely monitored night-day camera and sensing systems, the 
Border Patrol can better detect, monitor, and respond to illegal 
crossings. This, in turn, is critical to the Border Patrol's ability to 
increase its apprehension capabilities, particularly along our northern 
border. As a result, the deployment of ISIS is a critical component of 
the Border Patrol's revised National Strategy to prevent terrorists 
from entering the United States and to gain control of our nation's 
borders.
    ISIS consists of three independent components: (1) the remote video 
surveillance (RVS) camera system; (2) sensors; (3) the Integrated 
Computer Assisted Detection (ICAD) database. The RVS system integrates 
multiple color, thermal and infrared cameras, which are mounted on 
various structures, into a single remote controlled system. The network 
of sensors consists of seismic, magnetic and thermal devices used to 
detect and track intrusions. ICAD software components assist in the 
coordination and data collection of agent deployment in response to 
sensor alarms.
    The $64.1 million in ISIS funding sought in 2005 would enable CBP 
to broaden substantially its ISIS coverage of the northern and southern 
borders--to deploy the system where no ISIS coverage currently exists. 
This is important because Border Patrol experience has shown that in 
locations where ISIS is deployed, fewer agents can do a better job of 
securing the border. ISIS acts as an important force-multiplier that 
allows Border Patrol agents to remotely monitor the border and respond 
to specific illegal border crossings rather than having to exhaustively 
patrol an area adjacent to the border. By contrast, Border Patrol 
operations without ISIS support are not only less effective, they are 
more resource-intensive and less safe for Agents.

            Unmanned Aerial Vehicles (UAVs)
    Like ISIS, Unmanned Aerial Vehicles (UAVs) are both an important 
part of the smarter border strategy and an essential element of the 
Border Patrol's revised National Strategy. UAVs equipped with 
sophisticated on-board sensors have the potential to provide 
unparalleled surveillance capability. UAVs provide long-range 
surveillance. As a result, they are especially effective force-
multipliers because they have the capacity to remain on station much 
longer than other airborne assets, and are particularly useful for 
monitoring remote land border areas where patrols cannot easily travel 
and infrastructure is difficult or impossible to build.
    UAVs will perform missions involving gathering intelligence on 
border activities was well as conducting surveillance over open water 
along the Gulf Coast, the Florida peninsula and the Great Lakes region 
on the northern border. The high endurance of the larger classes of 
UAVs permits uninterrupted overnight or around-the-clock coverage, and 
the size and operating altitudes can make UAVs effectively undetectable 
by unaided human senses. UAVs will also contribute to enforcement 
effectiveness and officer safety by providing communications links for 
coordinating multiple units on the ground is important in remote border 
operating areas.
    The $10 million in funding sought for UAVs will enable CBP to 
capitalize more fully on the UAV research that has taken place in a 
military context, and to apply UAVs in support of the Homeland Security 
mission. The funding would allow CBP to deploy and operate a system of 
unmanned aerial vehicles in support of the Border Patrol and other 
components of Customs and Border Protection. The use of UAVs will 
complement the other intrusion detection and intelligence gathering 
components of the border surveillance network to meet the mission of 
stopping the illegal entry of terrorists, smugglers and others into the 
United States.

                   AUTOMATION/INFORMATION TECHNOLOGY

    Mr. Chairman, no discussion of a successful strategy to protect the 
American people and the American economy in the 21st century would be 
complete without consideration of the central importance of automation 
and information technology to CBP's mission.
Automated Commercial Environment
    The Automated Commercial Environment (ACE) is an important project 
for CBP, for the business community, for our country, and for the 
future of global trade. If done properly, it will reform the way we do 
business with the trade community. It will also greatly assist CBP in 
the advance collection of information for targeting high-risk cargo to 
better address the terrorist threat. And in doing so, it will help us 
expedite the vast majority of low-risk trade.
    The successful implementation of ACE has been and continues to be 
one of my top priorities as Commissioner. Increasing support from 
Congress and the Administration for ACE has been essential to the 
development of the new system. Funding of $319 million in fiscal year 
2004 has enabled us to continue development and begin to deliver on the 
first installment of ACE benefits to the trade community. Indeed, since 
my testimony last year, I can tell you that the development of ACE and 
the efforts to put its capabilities to work on America's borders have 
continued full throttle while CBP works with the Homeland Security 
Investment Review Group to analyze the existing IT systems being used 
by DHS agencies, identify redundant technology investments, and plan 
for the DHS's IT architecture. Among many other accomplishments, this 
past year brought ACE release to the public for the first time. 
Currently, 50 importer accounts and related CBP personnel have access 
to the ACE Secure Data Portal to conduct their CBP business 
transactions on-line. This portal provides reliable, secure, highspeed 
access to critical information. When fully deployed, this will be the 
basic tool by which all users within the trade community and government 
access ACE.
    I want to thank Congress again for its past support of ACE. The 
continued support of ACE with $322 million in funding for fiscal year 
2005 will enable us to keep pace with our schedule for ACE releases in 
2004 and 2005. Those include:
  --Summer 2004.--Release 3 (Account Revenue: Periodic Statements and 
        Payments): Initial account revenue will be enabled, allowing 
        accounts to centralize payment processing and utilize periodic 
        statement and payment capabilities as well as ACH Credit and 
        Debit.
  --Winter 2005.--Release 4 (Truck Manifest and e-Release): Cargo 
        Processing will be introduced with the implementation of 
        Automated Truck Manifest and Preferred & eRelease for trucks. 
        This will allow for quicker entry for pre-filed and pre-
        approved cargo.

            International Trade Data System (ITDS)
    One important, fully integrated component of ACE is the 
International Trade Data System (ITDS). The ITDS initiative is an e-
Government strategy being designed developed, and deployed jointly with 
ACE that will implement an integrated, government-wide system for the 
electronic collection, use, and dissemination of the international 
trade transaction data required by the various trade-related Federal 
agencies.
    ITDS will simplify and streamline the regulation, promotion, and 
analysis of international trade. It will also assist importers, 
exporters, carriers, and brokers in complying with Federal trade, 
transportation, and other regulations by streamlining business 
processes. ITDS is customer focused and will serve as the government's 
``single window'' into international trade data collection and 
distribution.
    In conjunction with ACE, ITDS will also improve risk assessment. By 
centralizing and integrating the collection and analysis of 
information, ACE will enhance CBP's ability to target cargo, persons, 
and conveyances. The trade data will allow for advanced inter-agency 
assessment of risks and threats to determine which goods and people 
must be scrutinized. In addition, Through ACE, the ITDS will be capable 
of linking the government's law enforcement and other databases into 
one large-scale relational database that tracks all commerce crossing 
our borders. ITDS thus extends the functionality of ACE by bringing 
together critical security, public health, public safety, and 
environmental protection agencies under a common platform.
    The $5 million increase we are requesting in the fiscal year 2005 
budget for ITDS will allow us to ensure integration of ITDS with key 
Federal agencies, and keep us on schedule to have full functionality 
rolled out by winter 2006-2007.

                       OTHER TRADITIONAL MISSIONS

    Although CBP's priority mission is preventing terrorists and 
terrorist weapons from entering the United States, we know that we 
must--and will--accomplish that priority mission while continuing to 
perform our traditional missions well. Included among those missions 
are our responsibilities for interdicting drugs, apprehending 16 
individuals who enter the United States illegally, regulating and 
facilitating international trade, and protecting U.S. agricultural and 
economic interests from harmful pests and diseases.

            Drug Interdiction
    Our counterterrorism and counternarcotics missions are not mutually 
exclusive, and one does not necessarily come at the expense of the 
other. The initiatives we have put in place to prevent terrorists and 
terrorist weapons from entering the United States have enabled us to be 
more effective in seizing other illegal contraband, including illegal 
drugs. Indeed, one of the first results we saw after implementing ATS 
for commercial trucks on the land border was a large narcotics seizure 
from a targeted shipment. And, it is worth noting that the lessons we 
have learned in our battle against international drug trafficking will 
help us in the fight against international terrorism.
    It would be a grave mistake for drug traffickers and other 
criminals to misinterpret our focus on terrorism as a weakening of 
resolve on other fronts. If anything, we have made life even more 
miserable for drug smugglers as we have intensified our overall 
presence along America's borders. Our heightened state of security 
along America's borders has strengthened, not weakened, our 
counternarcotics mission. As we have added staffing for both inspectors 
at the ports of entry and Border Patrol Agents between the ports of 
entry, acquired more inspection technology, conducted more questioning 
of travelers, and carried out more inspections of passengers and goods 
in response to the terrorist threat, we have seized greater amounts of 
narcotics. In fiscal year 2003, for example, we seized more than 2.2 
million pounds of illegal drugs, and made some of the largest 
individual seizures ever recorded by officers safeguarding our borders.
    Effective coordination between inspectors at the ports of entry and 
agents who carry out investigative activities is essential to the 
success of our counternarcotics mission. For that reason, CBP will 
continue to cooperate closely with special agents from U.S. Immigration 
and Customs Enforcement to carry out this mission.
Apprehending individuals entering illegally between the ports of entry
    The Office of the Border Patrol is specifically responsible for 
patrolling the 6,000 miles of Mexican and Canadian international land 
borders and 2,000 miles of coastal waters surrounding the Florida 
Peninsula and the island of Puerto Rico. Its primary task is securing 
America's borders between official ports of entry by preventing the 
illegal entry of people, goods, and contraband across our borders.
    The Border Patrol relies on agents, enforcement equipment (such as 
a fleet of specialized aircraft and vehicles of various types), 
technology (such as sensors and night vision cameras), tactical 
infrastructure (such as roads and vehicle barriers), and intelligence 
to carry out its mission. Applied in the correct combination, these 
resources can effectively deter, detect, monitor, and respond to 
illegal border crossings, as we have seen in locations such as the San 
Diego Sector and during operations such as Desert Safeguard.
    In fiscal year 2003, the Border Patrol played a key role in 
safeguarding the United States from the entry of terrorists, criminals, 
and illegal immigrants. Among the 931,557 people apprehended by the 
Border Patrol in fiscal year 2003 were:
  --Two Indian aliens illegally in the United States who were wanted in 
        Canada for attempted murder after they allegedly tied-up, 
        tortured, doused in gasoline, and lit a person on fire;
  --One of the ten most wanted criminals in Texas;
  --An Iranian citizen illegally in the United States with an extensive 
        criminal history and who may have been involved in bomb making 
        and other serious illegal activity at the time of his arrest at 
        the San Clemente checkpoint;
  --A Turkish citizen illegally in the United States who may have been 
        involved in serious illegal activity at the time of his arrest 
        at McAllen International Airport; and
  --An alleged resident of the United Arab Emirates illegally in the 
        United States who may have been involved in serious illegal 
        activity at the time of his arrest in Louisiana.
    Building on these gains, and drawing on the lessons we learned 
during Desert Safeguard, CBP is working with other agencies and the 
Mexican Government to implement the Arizona Border Control Initiative 
this year. Under this initiative, CBP will substantially reduce the 
number of illegal entries that occur in Arizona this year and, as a 
result, will reduce the number of deaths that occur as aliens try to 
cross the Arizona desert during the warmest months of the year.
Preventing individuals from entering illegally at the ports of entry
    With respect to preventing individuals from entering the country 
illegally at the ports of entry, CBP continues to stop hundreds of 
thousands of people a year who are inadmissible into the United States 
for a variety of reasons, including prior immigration violations, 
criminal history, or the possession of false or fraudulent documents.
    We are helped in this effort by our close work with the Department 
of State to ensure CBP inspectors have the tools they need to verify 
the identity of visa holders and the authenticity of visas issued by 
the Department of State. Data on holders of immigrant visas is 
transferred electronically to ports of entry. When the electronic 
record is updated to reflect an immigrant's admission at a port of 
entry, that data is transferred electronically to the Bureau of 
Citizenship and Immigration Services (CIS) for production of a 
permanent resident card and creation of the immigrant file.
    More importantly, with the successful implementation of US VISIT at 
our international airports earlier this year, CBP officers now have 
access to photographs and data transmitted electronically by the 
Department of State relating to holders of nonimmigrant visas. This 
permits officers on the primary line to review visa application data 
and verify the identity of the holder. This has virtually eliminated 
the possibility that a traveler could use a false or fraudulent visa to 
enter the United States.

Regulating and facilitating international trade
    CBP maintains responsibility for regulating and facilitating 
legitimate international trade. As I mentioned earlier, many of the 
initiatives CBP implements serve the twin goals of increasing security 
and facilitating trade. With the right level of industry partnership 
and the right combination of resources, we can succeed not only in 
protecting legitimate trade from being used by terrorists, we can 
actually build a better, faster, more productive system of trade 
facilitation for the U.S. economy.
    We have continued to work with the trade on these matters over the 
past year, and we will continue to do so in the year ahead. For 
example, we worked with all segments of the maritime trade to make 
changes to the 24-hour rule and our computer systems to better 
facilitate the movement of sea containers in our domestic seaports and 
to inland destinations. We also worked very closely with the trade to 
craft and implement our Trade Act regulations, and we will continue 
this process during the rest of this year. Finally, we have partnered 
with the trade and technology companies to design and test a smarter, 
more secure sea container. More importantly, members of the trade are 
using this container. Through C-TPAT, we have partnered with several 
large importers to begin using these containers, and we expect to see 
their use rise substantially in the months ahead.

Protecting U.S. agricultural and economic interests and the food supply
    CBP now overseas the enforcement of the laws and regulations 
pertaining to the safe importation and entry of agricultural food 
commodities into the United States. The traditional goals of the 
Agriculture Inspections (AI) program have been to reduce the risk of 
introduction of invasive species into the United States, protect U.S. 
agricultural resources, maintain the marketability of agricultural 
products, and facilitate the movement of lawabiding people and 
commodities across the borders. Accordingly, inspecting potentially 
high-risk travelers and cargo is critical to keeping the prohibited 
items out of the United States, monitoring for significant agricultural 
health threats, encouraging compliance with regulations, and educating 
the public and importers about agricultural quarantine regulations.
    With the creation of CBP, the AI program has expanded its focus to 
include a new priority mission of preventing potential terrorist 
threats involving agriculture. Indeed, the threat of intentional 
introductions of pests or pathogens as a means of biological warfare or 
terrorism is an emerging concern. To address this threat and to enhance 
its traditional AI missions, CBP has already begun using the Automated 
Targeting System, and its collective expertise regarding terrorism and 
agriculture, to strengthen our ability to identify shipments that may 
pose a potential risk to our agricultural interests.
    In addition, CBP has worked closely with the Food and Drug 
Administration (FDA) to implement the Public Health Security and 
Bioterrorism Preparedness and Response Act of 2002 to guard against 
threats to the food supply. In the last several months, we have 
modified our electronic data collection systems to collect data from 
the trade required under the Bioterrorism Act, implemented a joint 
risk-management system for food shipments with FDA that builds off or 
Automated Targeting System, and commissioned CBP officers to utilize 
FDA authorities in certain circumstances at the ports of entry. These 
efforts have built on our priority and traditional missions to make the 
food supply more secure, and will be supported in part by the targeting 
funding sought in the fiscal year 2005 budget.

                               CONCLUSION

    Mr. Chairman, Members of the Subcommittee, I have outlined a broad 
array of initiatives today that, with your assistance, will help CBP 
continue to protect America from the terrorist threat while fulfilling 
our other traditional missions. Because of your support, and because of 
the creation of DHS and CBP, we are far safer today than we were on 
September 11th. But our work is not complete. With the continued 
support of the President, DHS, and the Congress, CBP will succeed in 
meeting the challenges posed by the ongoing terrorist threat and the 
need to facilitate ever-increasing numbers of legitimate shipments and 
travelers.
    Thank you again for this opportunity to testify. I would be happy 
to answer any of your questions.

    Senator Cochran. Thank you, Mr. Bonner.
    Mr. Garcia, you may proceed.

                     STATEMENT OF MICHAEL J. GARCIA

    Mr. Garcia. Thank you, Mr. Chairman. Good morning. Good 
morning, Senator Byrd, distinguished members of the 
subcommittee. It is a pleasure to be with you today to discuss 
the President's fiscal year 2005 budget request for the 
Department of Homeland Security's U.S. Immigration and Customs 
Enforcement. The request of just over $4 billion reflects the 
vital role ICE plays in the Department's overall mission of 
ensuring the security of the American people.
    A little more than 1 year ago, ICE was formed by combining 
the investigative and intelligence arms of the former INS and 
the U.S. Customs Service, including Air and Marine operations, 
as well as the Federal Protective Service and more recently the 
Federal Air Marshal Service. By integrating these once-
fragmented resources, the Department of Homeland Security not 
only created the second largest investigative agency in the 
Federal Government, but it also created a dynamic and 
innovative new law enforcement organization focused on homeland 
security, specifically border security, air security, and 
economic security.
    Senator Byrd mentioned that we are looking at the 
vulnerabilities facing this. And the primary mission of ICE and 
the Department of Homeland Security is to detect and address 
those vulnerabilities in our national security, whether those 
vulnerabilities expose our financial systems to exploitation or 
our borders to infiltration.

                  ACCOMPLISHMENTS WITHIN THE PAST YEAR

    Earlier this month, the dedicated men and women of ICE 
joined me in celebrating our 1-year anniversary and our many 
accomplishments within the past year. I will highlight only a 
few.
    ICE is protecting U.S. economic security. And since last 
March, ICE financial investigations have yielded more than 
1,300 arrests and seized more than $150 million in assets.
    In July, ICE launched Cornerstone, a comprehensive 
initiative that forms a new partnership with the financial, 
commercial, and trade sectors to identify and mitigate U.S. 
economic vulnerabilities.
    Last fall, ICE launched Ice Storm, a comprehensive 
initiative to combat violent human smuggling organizations 
along the southwest border, with particular focus on Arizona. 
Ice Storm has resulted in more than 2,000 administrative and 
criminal arrests, 170 indictments, and the seizure of more than 
80 weapons and $2 million. Local police credit Ice Storm with 
the more than 30-percent drop in homicides in the Phoenix area 
in the last quarter of 2003 compared to the same period of a 
year ago.

                           OPERATION PREDATOR

    Senator Shelby mentioned Operation Predator. That is an 
operation we launched last July with the secretary. We targeted 
child sex predators worldwide under this operation, which fuses 
the authorities and resources of virtually every ICE component 
into a comprehensive campaign against child sex predators. To 
date, Operation Predator has produced unprecedented results 
with the arrest of more than 2,000 child sex predators 
nationwide.

                      FEDERAL AIR MARSHALS SERVICE

    The ICE Federal Air Marshals Service became a distinct ICE 
division in November of 2003. ICE agents are being cross-
trained as Federal air marshals, giving ICE FAMS a cadre of 
trained agents for use when needed. Since September 11, ICE 
FAMS have provided security on hundreds of thousands of 
flights, protected millions of passengers, flown millions of 
miles. Their efforts have helped keep the U.S. civil aviation 
sector free of terrorism since September 11, 2001.

                    FISCAL YEAR 2005 BUDGET REQUEST

    The President's fiscal year 2005 budget will continue to 
strengthen ICE's efforts to protect the homeland through the 
unique investigative and enforcement tools of this agency. The 
proposed 2005 budget and plan to enhance the department's 
commitment to securing the homeland is designed to build upon 
the strong foundation I have just described. The President's 
2005 budget request seeks over $4 billion for ICE, $320 million 
more than 2004, an increase of 8 percent.
    The requested increases include $186 million for ICE to 
fund improvements in immigration enforcement both domestically 
and overseas, including the more than doubling of current 
worksite enforcement efforts, increased resources to combat 
benefits fraud and investigate violations of the SEVIS and US 
VISIT systems, and approximately $100 million increase for the 
detention and removal of illegal aliens. Detention or removal 
illegal aliens present in the United States is critical to the 
enforcement of our immigration laws. And the requested funding 
will expand ongoing fugitive apprehension efforts, the removal 
from the United States of jailed illegal aliens, and additional 
detention and removal capacity.
    Critical to the removal process is ICE's ability to 
effectively litigate cases before the immigration court. The 
budget includes our request for $6 million enhancement to 
provide additional attorneys to keep pace with an increasing 
caseload. Our budget also seeks $14 million to support our 
international enforcement efforts related to immigration, 
including enabling ICE to provide visa security by working 
cooperatively with U.S. consular offices to review these 
applications.
    The budget request also seeks $40 million in total 
enhancement for Air and Marine operations, for long-range 
radar, and increased P-3 flight hours.

             RECONCILIATION OF THE FISCAL YEAR 2004 BUDGET

    Many challenges lie ahead, including reconciliation of the 
2004 budget, as was mentioned earlier today, and the mapping 
issues that go with that. These are serious issues, and this is 
a serious undertaking. I very much appreciate the support of 
the subcommittee members. It is a great responsibility. We are 
committed to protecting the homeland with new approaches to old 
problems and new approaches to the new challenges we face after 
September 11.

                           PREPARED STATEMENT

    We are committed to managing the transition, as 
Commissioner Bonner mentioned, of the INS distribution of 
assets, as well as the Customs breakup. This is a very complex 
reorganization. And in it we are also committed to being 
fiscally responsible.
    I look forward to working with you, Mr. Chairman and 
members of this subcommittee. This concludes my prepared 
statement. I would be happy to answer any questions you might 
have at this time.
    Senator Cochran. Thank you, Mr. Garcia.
    [The statement follows:]

                Prepared Statement of Michael J. Garcia

Introduction
    Good morning Chairman Cochran, Senator Byrd, and distinguished 
Members of the Subcommittee. It is a pleasure to be with you today to 
discuss the President's fiscal year 2005 budget request for the 
Department of Homeland Security's (DHS) U.S. Immigration and Customs 
Enforcement (ICE). This $4.011 billion request reflects the vital role 
ICE plays in the Department's overall mission of ensuring the security 
of the American people and our way of life.
    A little more than one year ago ICE was formed by combining the 
investigative and intelligence arms of the former Immigration and 
Naturalization Service (INS) and the U.S. Customs Service, including 
Air and Marine Operations, as well as the Federal Protective Service 
and the Federal Air Marshal Service. By integrating these once 
fragmented resources, the Department of Homeland Security not only 
created the second largest investigative agency in the Federal 
government, but it also created a dynamic and innovative new law 
enforcement organization uniquely and exclusively focused on homeland 
security--specifically border security, air security, and economic 
security.
    The primary mission of ICE and the Department of Homeland Security 
is to detect and address vulnerabilities in our national security--
whether those vulnerabilities expose our financial systems to 
exploitation or our borders to infiltration. With its enhanced ability 
to investigate immigration and customs violation--for example our 
ability to target human smuggling alongside of narcotics, weapons, and 
other forms of smuggling and follow the illicit money trail wherever it 
may lead--ICE is in a unique position to enforce our homeland security 
missions in ways never before possible.
    Earlier this month the dedicated men and women of ICE joined me in 
celebration of our one-year anniversary and our many accomplishments 
within the past year. This, of course, could not have been accomplished 
without the support of Congress and the fiscal year 2004 
Appropriations. Our accomplishments this year are many but I will only 
highlight a few:
    Targeting Child Sex Predators Worldwide.--Operation Predator fuses 
the authorities and resources of virtually every ICE component into a 
comprehensive campaign against child sex offenders. To date, Operation 
Predator has produced unprecedented results with the arrest of more 
than 2,057 child sex predators nationwide.
    Protecting U.S. Economic Security.--Since last March, ICE financial 
investigations have yielded more than 1,330 arrests and seized $154 
million in assets. In July, ICE launched Cornerstone, a comprehensive 
initiative that forms a new partnership with the financial, commercial 
and trade sectors to identify and mitigate U.S. economic 
vulnerabilities.
    Tracking down Arms, Money, and Artifacts in Iraq.--ICE deployed the 
first-ever civilian team of agents to Iraq in support of Operation 
Iraqi Freedom. The agents secured 75 silkworm missiles in Iraq that 
could have been used against coalition forces. They recovered $32 
million in cash withdrawn by Saddam Hussein's son just before the war 
and recovered 39,400 manuscripts and more than 1,000 treasures looted 
from the Iraqi National Museum.
    Dismantling Violent Human Smuggling Organizations.--Last fall, we 
launched ICE Storm, a comprehensive initiative to combat violent human 
smuggling organizations along the Southwest border--with a particular 
focus on Arizona. In its first 180 days, ICE Storm resulted in more 
than 700 criminal and administrative arrests, 90 indictments and the 
seizure of 46 assault weapons and nearly $2 million. Local police 
credited ICE Storm with a more than 30 percent drop in homicides in the 
Phoenix area in the last quarter of 2003, compared to the same period 
the previous year.
    Enhancing Civil Aviation Security.--The ICE Federal Air Marshal 
Service (FAMS) became a distinct ICE division in November 2003. ICE 
agents are being crosstrained as air marshals, giving ICE FAMS a cadre 
of trained agents in times of need. ICE also signed an agreement with 
the U.S. Secret Service that increases flight coverage. Since 9/11, ICE 
FAMS have provided security on hundreds of thousands of flights, 
protected millions of passengers and flown millions of miles. Their 
efforts have helped keep the U.S. civil aviation sector free of 
terrorism since 9/11.
    Apprehending and Removing Criminal Aliens from the United States.--
Since March 1, 2003, ICE's Detention and Removal Office (DRO) has 
removed more than 52,684 criminal aliens and 40,802 non-criminal 
aliens. DRO detains more than 230,000 aliens each year. ICE's DRO has 
more than 18 fugitive absconder teams across the Nation and created a 
``Most Wanted'' list of the most dangerous criminal aliens. In the 
first 2 weeks, ICE captured or confirmed the removal of all 10 of the 
original 10 ``Most Wanted.''
    Improving Security at U.S. Federal Facilities.--The transfer of the 
Federal Protective Service to ICE has provided FPS with access to 
information never before at its disposal, enabling it to perform its 
mission more effectively. ICE FPS secures more than 8,800 federally 
owned and leased facilities. In fiscal year 2003, ICE FPS seized or 
stopped the entry of more than 108,800 weapons and other items. During 
the same period, ICE FPS officers made more than 2,800 arrests and 
covered more than 2,100 demonstrations.
    Securing Critical Airspace in the U.S., While Protecting Land and 
Sea Borders.--ICE's Air and Marine Operations (AMO) division has 
dramatically increased its role in homeland security missions while 
maintaining its traditional drug interdiction and law enforcement 
efforts. AMO created a permanent National Capital Region branch that 
provides 24/7 airspace security coverage over the Washington, DC area. 
AMO provided airspace security coverage during ``Orange Alert'' threats 
and events like the State of the Union address and Super Bowl. All the 
while, AMO assets were involved in drug and alien smuggling operations 
that seized more than 76,000 pounds of cocaine, 335,000 pounds of 
marijuana, and arrested more than 980 individuals.
    Harnessing Intelligence to Further Enforcement Efforts.--ICE's 
Intelligence Division integrated the intelligence components of the 
former Immigration and Naturalization Service and the U.S. Customs 
Service into a robust force that supports the enforcement needs of all 
ICE operational divisions. ICE Intelligence vetted roughly 60,000 
commercial airline passengers and crewmembers through a multi-stage 
process during the ``Orange Alert'' terror threat level during December 
2003 and January 2004 period.
    ICE continues to pursue its homeland security mission by building 
upon the traditional missions, resources, authorities and expertise of 
the legacy agencies it inherited. ICE is bringing new approaches to 
traditional areas of law enforcement and creating enforcement programs 
in response to its homeland security mission. The President's fiscal 
year 2005 Budget will continue to strengthen ICE's efforts to protect 
the homeland through its unique investigative and enforcement tools.

Budget Request for fiscal year 2005
    The proposed fiscal year 2005 budget--a plan to enhance the 
Department's commitment to securing the homeland--is designed to build 
upon the strong foundation I have described. The President's fiscal 
year 2005 Budget request seeks $4.011 billion for ICE, $302 million 
more than fiscal year 2004, which represents an increase of 8 percent. 
This request for ICE includes resources to support border, air and 
economic security activities. These funds will also reduce 
infrastructure vulnerability, promoting safe and secure Federal 
properties for both employees and visitors. The remaining budget 
discussion will cover the major program areas: Investigations, 
Detention and Removal Operations, Air and Marine Operations, Federal 
Protective Service and the Federal Air Marshal Service, as well as our 
requested fiscal year 2005 budget enhancements.
    The Office of Investigations.--Budget request includes $1.046 
billion for the investigations and intelligence programs. These 
resources will advance national security and homeland defense against 
terrorist cells and their supporters in the United States through 
enhanced cooperation and integration with other Federal law enforcement 
agencies and the intelligence community. The Investigations program 
protects our homeland by, among other things, dismantling terrorist 
financing networks, by identifying and remediating vulnerabilities in 
the financial system that could be exploited by terrorist 
organizations, preventing the importation of weapons of mass 
destruction and other instruments of terror into the United States, 
disrupting narcotics smuggling and money laundering organizations, 
enforcing embargoes, trade agreements, and sanctions imposed by the 
U.S. government against foreign countries, and safeguarding children 
against exploitation through crimes involving pornography, sex tourism, 
and forced child labor.
    The President's fiscal year 2005 Budget request seeks $78 million 
in total enhancements for the Investigations Program. This includes:
  --$23 million/200 FTE for Worksite Enforcement. Consistent with the 
        goals of the President's proposed new temporary worker program 
        to match willing foreign working workers with willing U.S. 
        employers, enforcement of immigration laws against companies 
        that break the law and hire illegal workers will increase. This 
        increase will more than double the level of resources devoted 
        to traditional worksite enforcement.
  --$16 million/65 FTE for Compliance Teams. As part of its overall 
        immigration enforcement strategy, ICE will continue to analyze 
        data generated through the Student and Exchange Visitor 
        Information System and US VISIT program in an effort to detect 
        individuals who are in violation of the Nation's immigration 
        laws. This enhancement will increase funding for ICE's SEVIS 
        and US VISIT compliance efforts by over 150 percent.
  --$14 million/90 FTE for International Affairs. Pursuant to Section 
        428 of the Homeland Security Act of 2002 and the Memorandum of 
        Understanding between the Departments of Homeland Security and 
        State, ICE's fiscal year 2005 budget includes an increase of 
        $10 million to support a new Visa Security Unit (VSU). The VSU 
        and DHS staff stationed at overseas posts, including Saudi 
        Arabia, will work cooperatively with U.S. Consular Officials to 
        promote homeland security in the Visa process. In addition, an 
        increase of $4 million is requested to replace funding 
        previously provided through the Immigration Examinations Fee 
        Account.
  --$25 million to support Benefit Fraud. Immigration fraud poses a 
        threat to national security and public safety because it 
        enables terrorists, criminals, and illegal aliens to gain entry 
        and remain in the United States and diverts resources and 
        benefits from legitimate claimants. In cooperation with the 
        U.S. Citizenship and Immigration Service (USCIS), ICE's goal is 
        to detect, combat, and deter immigration fraud through 
        aggressive, focused, and comprehensive investigations. This 
        enhancement will provide stable funding to ICE's benefits fraud 
        program by replacing funding previously provided through the 
        Immigration Examinations Fee Account.
    The President's fiscal year 2005 budget requests $1.209 billion for 
detention and removal activities, which represents an increase of $125 
million from fiscal year 2004. Although this is an increase for the 
detention and removal program, we project a decrease in revenue 
collected in the Breached Bond/Detention Fund. Consistent with ICE's 
10-year Detention and Removal Strategic Plan, these resources will be 
used to enhance public safety and national security by ensuring the 
departure from the United States of removable aliens.
    The funding will also help ICE meet its detention needs. Since 
1994, the average daily population of detainees has grown to more than 
20,000, from less than 6,000. This rapid growth was a result of 
expanded enforcement capabilities and changes in detention requirements 
resulting from the Illegal Immigration Reform and Immigrant 
Responsibility Act of 1996. The fiscal year 2005 budget request will 
support the use of state and local detention facilities, the eight 
Service Processing Centers, the seven contract detention facilities, 
and joint DHS/Bureau of Prison facilities to detain those aliens 
subject to removal.
    Our overall objective, however, is the removal of aliens unlawfully 
present in the United States, not their detention. In fiscal year 2003, 
ICE removed more than 140,000 individuals including 76,000 criminal 
aliens.
    ICE is also committed to aggressively tracking, apprehending, and 
removing fugitive aliens, those who have violated U.S. immigration law, 
been ordered deported by an immigration judge, then fled before the 
order could be carried out. This budget request will allow ICE to 
continue its efforts to fulfill that commitment through the Fugitive 
Operations Initiative.
    The President's fiscal year 2005 Budget request seeks $108.2 
million in total enhancements for the Detention and Removals Program. 
This includes:
  --$30 million/140 FTE for the Institutional Removal Program (IRP). 
        The IRP is designed to ensure that aliens convicted of crimes 
        in the United States are identified, processed, and, where 
        possible, removed prior to their release from a correctional 
        institution. This enhancement will further ICE's plans to 
        expand the program nationally to all Federal, State, and local 
        institutions that house criminal aliens, while ensuring more 
        efficient processing and case management.
  --$50 million/118 FTE for Fugitive Operations. The resources 
        requested are to continue the implementation of the National 
        Fugitive Operations Program (NFOP), established in 2002, which 
        seeks to eliminate the existing backlog and growth of the 
        fugitive alien population over the next six years.
  --$11 million/30 FTE for Alternatives to Detention. This initiative 
        provides the resources to establish additional non-traditional 
        family and female detention settings and establish community 
        supervision operations. This will provide effective supervision 
        of persons released into the community during immigration 
        proceedings or while awaiting removal in certain circumstances 
        while reducing costs and ensuring compliance.
  --$5 million/14 FTE for detention bed space. An increase in bed space 
        to accommodate the higher volume of apprehended criminal 
        aliens. With this additional funding, ICE will enhance its 
        ability to remove illegal alien--particularly those convicted 
        of crimes while in the United States.
  --$6.2 million for Caribbean Region Interdiction. Pursuant to 
        Executive Order, the Department of Defense, Homeland Security 
        and State share responsibility for responding to the migration 
        of undocumented aliens in this region. The resources requested 
        will support the Department's share of the cost of housing 
        migrants as they await determination of any immigration claims.
  --$6 million/40 FTE for the Legal Program Backlog Elimination. During 
        fiscal year 2001 and fiscal year 2002, the Legal Program saw an 
        average increase of 19,200 cases in the backlog of matters in 
        Immigration Court. To keep pace with the increased number of 
        cases, additional attorneys and support staff are required. 
        This enhancement will provide a funding increase of more than 
        20 percent to ICE's backlog elimination program.
    The fiscal year 2005 President's budget also seeks $373 million in 
Air and Marine Operations (AMO) appropriations. AMO maintains a fleet 
of 133 aircraft and 82 vessels to protect the Nation and the American 
people against the terrorist threat and the smuggling of narcotics and 
other contraband. Aircraft are also used in support of ICE's combined 
investigation work.
    An essential element of these deployments is the work carried out 
by the Air and Marine Operation Center (AMOC), located in Riverside, 
California. This state-of-the-art center is linked to a wide array of 
civilian and military radar sites, aerostats, airborne reconnaissance 
aircraft and other detection assets, which provide 24-hour, seamless 
radar surveillance throughout the continental United States, Puerto 
Rico, the Caribbean, and beyond. AMOC allows ICE to identify, track, 
and support the interdiction and apprehension of those who attempt to 
enter U.S. airspace with illegal drugs or terrorist objectives.
    The President's fiscal year 2005 Budget request seeks $40.5 million 
in total enhancements for Air and Marine Operations. This includes:
  --$28 million for Increased P-3 Flight Hours. P-3 aircraft are 
        critical to interdiction operations in the source and transit 
        zones as they provide vital radar coverage in regions where 
        mountainous terrain, expansive jungles and large bodies of 
        water limit the effectiveness of ground-based radar. This 
        request will increase P-3 flight hours from 200 to 600 per 
        month.
  --$12.5 million for Long Range Radar. Primary Long Range Radar 
        provides position information (geographic/altitude) of airborne 
        objects and flight data information to civil aviation, defense, 
        and law enforcement agencies. ICE uses the radar to receive 
        data for drug interdiction efforts along the southern border.
    The fiscal year 2005 budget request includes $478 million in 
reimbursable authority for the activities of the Federal Protective 
Service (FPS). The FPS provides for the security and related law-
enforcement functions at more than 8,800 Federal facilities/buildings 
across the Nation. These funds will support several initiatives 
designed to protect Federal facilities from terrorist attacks, 
including a nationwide K-9 bomb detection program and another aimed at 
improving our capability to respond to weapons of mass destruction. FPS 
will also be able to improve its communication capabilities and enhance 
its intelligence sharing processes.
    The fiscal year 2005 budget request includes $613 million in 
Federal Air Marshals Service appropriations.\1\  The FAMS transferred 
from the Transportation Security Administration (TSA) to ICE in 
November 2003. This movement of the FAMS to ICE will significantly 
increase the number of Federal law enforcement agents to deploy during 
times of increased threats to aircraft ultimately providing a surge 
capacity during increased threat periods or in the event of terrorist 
attack. To date, 176 ICE agents have gone through FAMS training and we 
anticipate training up to 800 by the end of the fiscal year. This 
cross-training creates a ``surge capacity'' to effectively deal with 
specific threats related to aviation security. And, on February 25, 
2004, ICE and the U.S. Secret Service entered into an agreement that 
will bolster U.S. aviation security by providing a ``force multiplier'' 
to ICE's FAMS. Under the terms of the agreement, the Secret Service 
will provide the ICE FAMS with travel information for armed personnel 
traveling on U.S. commercial flights during their normal course of 
business and will enable the ICE FAMS the flexibility to deploy their 
Federal Air Marshals to a wider range of flights, while providing 
greater flexibility to conduct FAMS missions at maximum levels based on 
its concept of operations.
---------------------------------------------------------------------------
    \1\ The President's Budget reflects a transfer of $10 million from 
the Federal Air Marshals Service (FAMS) program to Science and 
Technology (S&T) for research and development. This consolidation of 
research and development funding in S&T will provide for greater 
oversight of research and development activities in the Department and 
enhance service to FAMS. This funding will be devoted to FAMS air-to-
ground Communications project.
---------------------------------------------------------------------------
Conclusion
    The fiscal year 2005 budget request for the ICE supports the 
President's National Strategy for Homeland Security, the framework for 
accomplishing our complex mission to protect the homeland, and ICE's 
mission to enforce immigration and customs law, locate and remove 
aliens unlawfully present in the United States, protect jobs for those 
who are legally eligible to work, maintain a nationwide anti-smuggling 
program, enforce laws against money-laundering and child pornography, 
and protect Federal property and air security.
    While many challenges lie ahead, we continue to build and foster a 
premier law enforcement agency from the powerful tools and authorities 
we have been given. The men and women of ICE stand ready to continue to 
build a successful organization for the present and future. The fiscal 
year 2005 budget request provides the resources to enable ICE to manage 
its responsibilities and continue its work to secure the homeland to 
protect and serve the American people.
    I look forward to continuing to work with you to accomplish these 
objectives while continuing to manage a world class law enforcement 
organization to protect this Nation against anyone who would do it 
harm. We are committed to preventing terrorist attacks and reducing 
systemic vulnerabilities that threaten the security of the country.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared statement. I would be happy to answer any questions you may 
have at this time.

                          SHORTFALL IN FUNDING

    Senator Cochran. I hope that during the first round of 
questions we will be able to limit our time to 5 minutes each. 
And that will give us all an opportunity to ask a second round 
of questions, if that is the wish and pleasure of the senators 
on the subcommittee.
    Let me start by bringing up this issue of the shortfall in 
funding. In the Congressional Quarterly yesterday, Monday, 
March 29, there is an article that discusses this and carries 
some quotations from administration officials, a spokesman from 
the Border and Transportation Security Directorate, which 
suggested that there is not an actual shortfall in the funding. 
And the official, Dennis Murphy, is quoted as saying, ``We're 
projecting that the spending rate may need to be slowed down. 
And we just need to take the foot off the accelerator a bit.''
    My question is: Is that an appropriate assessment in the 
judgment of this panel? I notice that it may be that not all of 
your agencies are affected by this. But I think Mr. Bonner's 
and Mr. Garcia's are.
    Mr. Bonner, what is your reaction to that?
    Mr. Bonner. First of all, I do not want to parse words 
here, but, I mean, there is not an actual shortfall, but there 
is a potential shortfall. Let me just say from the----
    Senator Cochran. Press the button on your mike.
    Mr. Bonner. Maybe it is just not close enough, Senator. Is 
that better?
    Senator Cochran. Yes.
    Mr. Bonner. Okay. I was just saying that without trying to 
parse words too carefully here, I think it is more appropriate 
to characterize this as a potential shortfall, not an actual 
shortfall. And the reason I say that is, I am going to speak 
just from the perspective of Customs and Border Protection 
here. And that is that as part of what I do as a manager of the 
agency every year is to, at the end of the first quarter, I 
take stock, I get a report from my budget office as to where we 
stand. And I was concerned after the end of the first quarter 
review that with the rate of spending as to whether or not we 
were going to be within budget at the end of the year and not 
be deficient.
    And secondly, the possible impact of the reconciliation of 
budget allocations between, potentially between, CBP and ICE, 
which is something, by the way, I believe that will be 
completed by the Department in the next several weeks. But I 
was concerned about that. And as a prudent manager of Customs 
and Border Protection, I directed that we curtail 
nonoperational travel, that we curtail nonoperational overtime, 
not overtime that is related to mission performance here. And I 
also believe that we should have a temporary suspension of 
hiring, except for Border Patrol agents at Customs and Border 
Protection, so we could get a clear picture of our spending 
rate and our budget.
    And when I say temporary, I mean temporary. And that is 
that we would suspend--and we are just starting this. It would 
be a short suspension that could literally be several weeks. 
And then I would be hopeful that we would be able to resume 
hiring. I do not know. I mean, this will depend upon what our 
budget picture looks like when we take stock in 3 or 4 weeks.
    But on the positive side, I do want to tell this 
Subcommittee that we did move out at the beginning of the year 
aggressively in terms of hiring new employees at Customs and 
Border Protection. And we have already hired, so any suspension 
here does not affect what we have already hired. We have 
already hired 2,700 employees. And these include 1,500 
Inspectors, CBP Inspectors, 800 Border Patrol agents, and some 
other personnel.
    And we are also looking very closely at the attrition rate 
here in terms of--right now, that looks pretty encouraging in 
terms of both the Border Patrol agents and CBP Inspectors. The 
attrition rates right now, if this holds up, are lower than 
projected. They are as low, by the way, this year as 5.5 
percent right now for Border Patrol agents. And I think some of 
you know that the attrition at the Border Patrol was close to 
20 percent just 2 years ago, when it was part of the INS.
    So again, all that we are doing here is we are looking at 
this very, very closely. And we are making some temporary 
adjustments. And we will then have to make some decisions as to 
whether or not we can resume hiring or whether we have to 
suspend it further. But that would be my overall assessment, 
Mr. Chairman.

                              ICE RESPONSE

    Senator Cochran. Thank you.
    Mr. Garcia, what about the Bureau of Immigration and 
Customs Enforcement that you are responsible for? What is the 
effect of this on your agency?
    Mr. Garcia. Yes, Mr. Chairman. A similar effect to what 
Commissioner Bonner was describing. We have imposed a temporary 
hiring freeze. There is no category within ICE that is exempt 
from that at the moment. We have been hiring up to the point of 
the end of the first quarter and imposed this, again looking 
down the road, looking at the spending rate.
    But from the perspective of my agency, we are very much 
concerned with mapping issues, distribution issues, 
particularly in the IT context, services being provided, and 
mapping funding to the provision of those services are very 
complicated issues, if you look at the size of the legacy 
agencies that were involved, the services that were provided, 
and the split that we have accomplished very successfully. You 
can appreciate the complexity of those issues.
    We are very much watching that process, optimistic that we 
will, working together, have firmer numbers within the next 
several weeks, that we can then reassess, as Commissioner 
Bonner said, again look at spending rates, look at the harder 
numbers, and see what are the steps that we need to take to be 
fiscally responsible, which may not, and we all hope will not, 
include a hiring freeze.

           POSTPONING OR DEFERRING OF ANY PROGRAM INITIATIVES

    Senator Cochran. Have either one of you had to postpone or 
defer any program initiatives, any activities that would defer 
initiatives that you had already planned or put in place? Have 
you postponed doing anything that you intended to do?
    Mr. Bonner. We have not at CBP. And I hope we do not have 
to. But we have not at this point.
    Senator Cochran. Mr. Garcia, what about you?
    Mr. Garcia. None of the new programs or operations. We have 
not gone forward with the 2004 enhancements as of yet.

                           IMMIGRATION SYSTEM

    Senator Cochran. Thank you.
    Senator Byrd. Our immigration system is underfunded and 
understaffed. The Bureau of Immigration and Customs Enforcement 
has just over 13,000 criminal investigators to locate and 
remove 8 million to 11 million illegal aliens. This is one 
among many responsibilities. Following the passage of the 1986 
amnesty for 2.7 million illegal aliens, the INS had to open 
temporary offices, hire new workers, and divert resources from 
enforcement areas in order to process amnesty applicants. The 
result was chaos that produced rampant fraud.
    The backlog of immigrant applications is larger today, 6 
million and rising. The President's amnesty proposal would dump 
another 8 million immigrant applications onto an already 
beleaguered immigration system. It took only 19 temporary visa 
holders to slip through the system to unleash the horror of the 
September 11 attacks. The President's amnesty would shove 8 
million illegal aliens through our security system, many of 
whom have never gone through any background check.
    If there are no new resources in the budget to implement 
the President's amnesty proposal, implementation of the reform 
proposal would create incredible stresses on an already 
stressed border security system. It is a recipe for disaster.

                   FUNDING FOR ENFORCEMENT ACTIVITIES

    While I note that your budget has several modest proposals 
to deal with the existing enforcement shortcomings, would you 
inform the subcommittee how much additional money is included 
in the President's budget to implement your enforcement 
activities in support of the President's amnesty proposal?
    This question is for Mr. Garcia.
    Mr. Garcia. Thank you, Senator Byrd. As a starting point, 
looking at the 2005 enhancements, we do have $23 million for 
worksite enforcement related to the possibility of a temporary 
worker program. But I think there is a much more complex 
approach to whatever legislation, if any, is ultimately passed, 
which would be, one, we have split the INS apart and now have a 
mission focus on enforcement both at the border and in the 
interior, and a separate services bureau focused on providing 
that service.
    We have made tremendous strides in that reorganization, 
focusing a very powerful enforcement tool on the enforcement 
mission within ICE and within CBP. We have reorganized within 
ICE. We have moved, are in the process of moving, excuse me, 
the Institutional Removal Program out of investigations and 
into Detention and Removal, which will free up additional 
investigative resources within that division.
    All of these pieces moving forward look at how do we place 
integrity within our immigration system? How do we enforce visa 
security, US VISIT, our compliance enforcement operation, which 
we have again asked for an enhancement for in 2005. This is a 
complex, comprehensive approach to the shortcomings that you 
have described, Senator. So I cannot point to you one place in 
our budget where we would address any proposed legislation or 
where we would address specific shortcomings of the past. We 
are taking a comprehensive approach to those problems.
    I would also add that we are very much alert to the 
possibility of fraud within the immigration system. I have 
taken steps to address that already. And we will very much look 
to participate in the process of crafting legislation that can 
ensure that whatever benefits or whatever program is designed 
gets to the people it was intended to get to.
    I was a prosecutor in the Nineties. I prosecuted cases 
involving benefits fraud in some very unfortunate context. I 
know the risks firsthand. And I would very much feel the 
responsibility to participate in that process, to look at how 
that program is crafted and what steps we can build into it to 
make it less susceptible to fraud.
    Mr. Aguirre. Senator, may I tag along to that, if I could?
    Senator Byrd. Please.

                                BACKLOG

    Mr. Aguirre. Just a couple of comments. One, the backlog, 
Senator, is not 6 million. We have 6 million pending cases. But 
of those, 3.6 are backlog. In other words, they are behind our 
normal processing time. Now, that is plenty, but it is not 6 
million.

                        TEMPORARY WORKER PROGRAM

    You mentioned the President's proposal as an amnesty. I do 
not consider it so. In fact, I think it is not an amnesty. I 
think it is a temporary worker program that would identify 
these 8 million individuals and would put them within a legal 
program where we would be allowed to do background checks. 
Indeed, these individuals are not within our radar scope today, 
but would be once they apply.
    And there is mention about the fact that there is no 
provision in our Bureau for the President's proposal. Of 
course, there is not, because we are waiting for the Congress 
to flesh out, if you will, the details of the proposed 
legislation so that we can then put a fee that would be matched 
against the cost of processing these applicants. So in other 
words, once the Congress acts, and we certainly hope the action 
will come forth, we will match whatever work is required behind 
that legislation to charge the applicants for the cost of 
processing that application.
    Senator Byrd. I appreciate your comments. I am of the 
opinion that the President's new alien amnesty program is quite 
ill-advised. If you are requesting any new resources, how much 
extra would be needed to implement this sweeping amnesty?
    Mr. Aguirre. Senator, are you finished with your question?
    Senator Byrd. Yes. Anyone.
    Mr. Aguirre. I am sorry. I did not want to interrupt.
    We are requesting additional resources, but not in relation 
to the President's initiative on the temporary worker program. 
The temporary worker program awaits congressional action. And 
until such time as the Congress tells us exactly what the 
Congress wants us to do, we really cannot build a program to 
suit it. Once that program is identified, we will cost it out. 
And there will be a fee associated with that. I expect that the 
fee will be 100 percent covering the cost of the program.
    Senator Byrd. Mr. Garcia.
    Mr. Garcia. Yes, Senator Byrd. As I mentioned earlier, we 
have asked for $23 million in worksite enforcement really to 
position ourselves, one, in an important area of enforcement 
for us, but to also set the stage, so to speak, for working 
with Congress on whatever legislation is passed and looking at, 
again, that integrity of the system, the counter-fraud efforts, 
that will match up with an effective temporary worker program, 
whatever the scope of that program is ultimately decided upon.
    Senator Byrd. My time is up.
    Senator Cochran. Yes, sir.
    Senator Leahy.

                 LAW ENFORCEMENT SUPPORT CENTER BUDGET

    Senator Leahy. Thank you, Mr. Chairman.
    Mr. Garcia, to go back to the Law Enforcement Support 
Center, and as I said, I am very happy with those areas, 
especially Operation Predator among others, when I heard from 
law enforcement agencies and others around the country of the 
support they have gotten from that and how helpful it is to 
them, I want to keep it helpful. Having begun my public career 
in law enforcement, I am very sensitive to what their needs 
are.
    The President's budget proposal did not include a specific 
budget for the LESC. I would assume that the base budget from 
this year will be continued the upcoming year. But the demand 
increases all the time. How do you make sure that--I mean, the 
demand--the more--the LESC, success breeds success. The more 
they accomplish, they more they are heard about from other law 
enforcement, the more they get called upon, I think--I do not 
have the exact figures here, but I know you would find that the 
requirements and the requests continue to go up.
    How are you going to do that? How are you--if the budget is 
the same, how are you going to keep up with the requests?
    Mr. Garcia. Thank you, Senator Leahy. A number of points. 
First, the obvious point is the LESC really is the crown jewel 
of our State and local cooperation efforts, tremendous 
facility, has seen an increase in responsibility, increase in 
workload, and an increase in the incredibly important 
information it puts out to the field.
    You mentioned an increase in inquiries. They were up about 
175,000 this year over the year before, an incredible number 
showing, I think, the realization on the part particularly of 
State and local officials of what a service the LESC can 
provide. We are committed to continuing to provide that service 
and enhancing our capability to do that.
    You are right, the LESC budget is built into the base 
budget for the Office of Investigations. We have also set aside 
money, and I believe we have briefed some of your staff members 
on enhancements for the facility itself of up to, I believe, $5 
million for enhancements to that facility. We are also putting 
new programs within LESC. We recently moved the Central States 
Command Center from Chicago to Vermont, recognizing how 
efficient it is to have that all under one roof.
    As we move programs, we move money with them. We mentioned 
Predator. We have set up the 800 hotline there in Vermont, 
incredibly successful. And I will give one example. We got a 
call into that hotline in Vermont, a citizen call, saying they 
believed that somebody was abusing minors in a house and that 
that person may have had AIDS. We responded with the local 
officials--it was in Massachusetts--out of Vermont to the local 
officials with our ICA agents, arrested the individual, charged 
him with sexual offenses against minors. And we launched an 
immigration detainer, because in fact he was an illegal alien. 
An example of the capability of the LESC, the response 
capability, and then the actual public safety benefit of that 
response. We are committed to expanding upon that capability. 
And I think the LESC is going to grow in importance.
    And as you mentioned, Senator, as it does, we will look at 
the OI budget, we will look at resources we have allocated for 
these programs, and we will look at our ability to do that out 
of the LESC in more effective ways.
    The example I give of the LESC benefit all the time is, a 
State trooper pulls somebody down, flags someone down on the 
side of a road. He is by himself. He is approaching that car. 
That trooper can call the LESC 24 hours a day, 7 days a week, 
and find out if that person in the car is a reentering felon. 
Is that not information that trooper would want to know as they 
approach a car in the middle of the night on the side of a 
highway?
    That is the type of service the LESC can provide. And 
again, Senator, we are committed to working with you, with 
Congress, to ensure that that center maintains a central role 
in supporting our colleagues and in supporting those new 
programs like Operation Predator.
    Senator Leahy. Well, I appreciate that. It is a sad story 
you tell of the situation in Massachusetts. Unfortunately, as 
you know and I know, it occurs in too many places. We all wish 
it did not occur at all. But to the extent it occurs, let us be 
thankful we can move quickly to stop it from continuing.

                     GUEST WORKER PROGRAM CONCERNS

    Mr. Aguirre, I heard your answer to the question--I am 
still a little bit concerned--on this guest worker program of 
the President. You said if we passed this, we will assume that 
there will then be a request for funds to do it. But it is--I 
think we are getting kind of the cart before the horse. We are 
still waiting for the President's proposal. I mean, it is the 
President's proposal. It is not a congressional proposal. The 
President is the one who made the speech. It was done with a 
great deal of fanfare.
    Are we going to get a proposal from the White House? I 
mean, I and others have asked for this for several months now. 
Are we going to get a request for a proposed legislation, or 
has the White House shelved this proposal?
    Mr. Aguirre. Well, no, Senator, I think the White House has 
not shelved this proposal. I think the White House was very 
serious on January 7, when the President issued his call to the 
Congress to act. Subsequent to that, during the State of the 
Union and probably at least a dozen times that I can count, the 
President has mentioned again and again that he expects the 
Congress to act on his initiative.
    Now the way I understand government, of course, I am coming 
from the private sector only 3 years ago, I see the Congress as 
enacting the legislation and I see the Administration as 
administering the legislative----
    Senator Leahy. Well, usually when the President has a 
proposal, especially one that they announce with such great 
fanfare, they actually send it up here. Other than the speech 
and the press releases and the handouts at selected fund 
raisers, we have not seen any legislation. Are we going to get 
legislation?
    Mr. Aguirre. Well, Senator, the legislation that I have 
seen has been a number of bills that have been introduced by 
various members of the Congress. My understanding is that the 
legislation was expected to come from within the Congress, not 
from the White House. But the point is, Senator, I guess if you 
are looking to the substance----

                        BACKLOG REDUCTION ISSUE

    Senator Leahy. If that is the case and the President has 
also promised to reduce the average wait time for applicants 
for immigration benefits to 6 months, if you have these two 
goals, I mean, this is an enormous, enormous increase in work. 
Why is there not any money being requested for either one of 
these things, either to get rid of the backlog or for this 
guest worker program of the President's?
    Mr. Aguirre. Well, yes, Senator. If I may take them one at 
a time, I think the backlog is one that we have finally begun 
to get some traction on it. There will be a backlog reduction/
elimination plan that will be coming to the Congress in the 
coming weeks. We expect to fulfill the President's commitment 
that I have inherited to eliminate the backlog by September of 
2006.
    As you very well know, after 9/11, that took a serious 
setback. And we are correcting that. And with the reallocation 
or repatriation, if you will, of many of the adjudicators that 
were sent on to do something else, I think we are going to get 
some traction here. We have already found some of our district 
offices meeting the backlog reduction. And we are continuing on 
as well.
    I separate the backlog reduction initiative from the 
President's temporary worker proposal because I think they are 
apples and apples. I think we will be able to implement the 
program based on the Congress legislation that will be 
innovative, that will be technologically efficient, that will 
allow us to process people----
    Senator Leahy. But you need more funds.
    Mr. Aguirre. I think we will need more funds through the 
fees that will be joining the application.
    Senator Cochran. Senator, your time has expired.
    Senator Leahy. Thank you.
    Senator Cochran. Senator Shelby.
    Senator Leahy. I have some other questions for the next 
round.
    Senator Cochran. Absolutely. Sure.
    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.

         NUMBER OF ILLEGAL ALIENS RESIDING IN THE UNITED STATES

    Secretary Garcia and gentlemen, I asked this other in my 
opening statement. What is your best estimate, Mr. Secretary, 
of the number of illegal aliens currently residing in the 
United States of America?
    Mr. Garcia. Senator, you mentioned some of the numbers 
earlier. The number, I think, that is posted on the website is 
7 million. I have the 8 million number as well. I think it 
again reinforces----
    Senator Shelby. You do not really know, do you, honestly?
    Mr. Garcia. I think, Senator, it again reinforces your 
point that it is a very difficult number to identify because of 
what you are trying to quantify.
    Senator Shelby. Is that an increase or a decrease, say, 
from the previous year?
    Mr. Garcia. I could not give you that answer, Senator. I do 
not mean to be evasive. I do not know. I think it would be 
difficult to answer.
    Senator Shelby. Mr. Bonner, do you have a judgment on that?
    Mr. Bonner. My judgment is that the numbers of illegal 
aliens that are successfully entering the United States has 
marginally decreased.
    Senator Shelby. And what do you base that on?
    Mr. Bonner. I base that on the fact that the Border Patrol 
apprehensions--most, of course, the illegal migration, the 
spigot, if you will, is the southern border. The Border Patrol 
apprehensions last year were 931,000 illegal aliens 
apprehended. The vast, vast majority of that was at our border 
with Mexico. I believe that that number is to some extent a 
surrogate for the number of people that have successfully and 
illegally crossed our border. And that apprehension number, has 
been steadily declining for several years.
    Now by the way----
    Senator Shelby. How do you get to the high number of 7, 8, 
perhaps 10 million? You know, we do not know the exact number.
    Mr. Bonner. Yes. It is estimated between----
    Senator Shelby. If you are stopping everybody at the 
border, how are they getting in?
    Mr. Bonner. We are certainly not stopping everybody at the 
border.
    Senator Shelby. I know that.
    Mr. Bonner. No question about it. I mean, right now we have 
the Arizona border, which is substantially where there is mass 
migration taking place virtually every day. That is why we have 
instituted the Arizona Border Control Initiative, to get 
control of that.
    But I would say this. If you look over the past number of 
years, we have, through Border Patrol increases, Border Patrol 
sensoring technology, I believe with the adding of UAVs and 
some sensoring technology in this budget, we are getting 
marginally better control over our border in terms of illegal 
migration. Now does that mean nobody is getting through?
    Senator Shelby. You used the word ``marginally.''
    Mr. Bonner. Well, we need to do a lot better.
    Senator Shelby. Okay.
    Mr. Bonner. And it is very difficult to estimate the 
numbers of illegal aliens that have gotten through and that are 
adding to that base of illegal aliens that are residing 
illegally in the United States. But I would say that there is 
some reason to believe that we have gotten somewhat better 
control of the border. And I say this anecdotally.
    Senator Shelby. Sure, you do.
    Mr. Bonner. Let me just tell you that I know that if you 
take significant parts, of the California border and the Texas 
border, where there have been substantial increases in Border 
Patrol staffing, improvements in the sensoring and technology 
that is being used to detect illegal crossings, that we have 
better control over a lot of the segments of our southern 
borders than we did going back, say, 5 to 10 years ago.
    We have to, by the way, we have to get better. I do not 
mean to say this nirvana here.
    Senator Shelby. I know that. I know that.
    Mr. Bonner. So it is very hard to say. Probably 60 percent, 
by the way, is the estimate of the----

                         ADEQUACY OF RESOURCES

    Senator Shelby. Do you have enough resources? This was 
asked by Senator Byrd and others. Do you have enough resources 
to do the job to protect our borders considering that there are 
probably 7 to 10 million illegal aliens in this country?
    Mr. Bonner. If we cannot--do we have enough resources? We 
have, by the way, through this subcommittee and through the 
Congress and the President's request, we have been adding 
resources. We have a request here for a very significant amount 
of funding for better sensoring technology to control better 
parts of our border.
    I am very sanguine about the prospects through the use of 
unmanned aerial vehicles. For the first time, the Border Patrol 
is pioneering the use of UAVs. We will start that later this 
year, I believe, at the Southwest border. But it will give us 
much better detection capability against illegal migration 
across our Southern border. Potentially, as you know, because 
of the terrorist threat, we also need to be concerned about the 
Northern border, as well.
    Senator Shelby. Absolutely both.

                      IS THE CHALLENGE TOO GREAT?

    Mr. Bonner. So we are moving in the right direction. But it 
is an extremely difficult thing. I actually think, by the way, 
if I could add, I think the President's temporary worker----
    Senator Shelby. It is the challenge. I respect all three of 
you. And I know you are dedicated here.
    Mr. Bonner. Yes, sir.
    Senator Shelby. But is the challenge too great to win?
    Mr. Bonner. No.
    Senator Shelby. In other words, we are losing. We are 
losing the war on illegal aliens now, if there are 7 to 10 
million people here illegally that never had a background 
check, you do not know anything about them. And they are coming 
here. They are staying here. They are working here. And what 
does that say to the people who come here legally and go 
through the hoops?
    Mr. Bonner. Well, I think----
    Senator Shelby. Like you did, sir.
    Mr. Bonner. Well, perhaps Dr. Aguirre can respond to that. 
But I just want to say, Senator, that we can do this. We are, I 
believe, getting greater control over the border. We need to do 
that. If we cannot cut off the spigot for illegal migration 
coming in, well, we cannot ever address this problem seriously. 
Then we have to figure out what to do with the 7, 8, or 10 
million illegals that are here in this country and figure out 
what is the best, from a point of view of practicality, 
realism, and policy, what is the best approach to that problem.

                           OVERSTAYS ON VISAS

    Senator Shelby. And what about--before my time expires, 
maybe you can answer afterward. What about the overstay on 
visas? People come here legally, millions of people come to 
this country legally. What do you do to track those people once 
they are here? How do you know they have gone back unless there 
is a central system checking?
    Mr. Bonner. Customs and Border Protection is to prevent 
them from entering. And ICE has the responsibility----
    Senator Shelby. Mr. Garcia.
    Mr. Bonner [continuing]. To remove them, if we have failed.
    Mr. Garcia. Thank you, Senator. We have the enforcement 
side of US VISIT that has been mentioned earlier. Last year, 
when we stood up ICE, we created a compliance enforcement unit, 
basically to put that integrity in the system. It looks at US 
VISIT. It looks at SEVIS, where we have had problems with 
students coming in, students not going to school, not 
attending, dropping out.
    Senator Shelby. Sure.
    Mr. Garcia. We have made tremendous progress on that.
    Senator Shelby. That is how a lot of the terrorists got 
here. They came here legally, did they not?
    Mr. Garcia. One of the Trade Center----
    Senator Shelby. Some of them overstayed their visas.
    Mr. Garcia. The driver of the World Trade Center bombing of 
the van in 1993 was a student who had come here on a student 
visa, had never gone to school. We take that very seriously. We 
have prioritized the leads using intelligence, using other 
information. We vet those at Headquarters, and we send those 
out into the field. We have been doing that for some time now. 
We are seeking additional funding in 2005 for that program.
    Asa Hutchinson and I both believe that it is incredibly 
important in maintaining that integrity in the system, in 
addition to its national security implications.
    Senator Shelby. Thank you, Mr. Chairman.
    Senator Cochran. Senator Murray.

              LESSONS LEARNED FROM OPERATION SAFE COMMERCE

    Senator Murray. Mr. Bonner, at the 2002 Western Cargo 
Conference, you said, and I quote, ``The American people on the 
global trading system are more secure, if we screen cargo 
containers that present a high risk for terrorism as early as 
possible and certainly before they reach U.S. shores.''
    I really agree with that. And I am pleased that the two 
most prominent cargo security programs within Customs, C-TPAT 
and CSI, seek to push out our borders to foreign ports. Those 
programs will eventually help expand our various cargo security 
programs into a standard system for sending goods throughout 
the world. But they are not going to get the job done alone. We 
have now spent $58 million on a program called Operation Safe 
Commerce, which is working to test the security of 19 different 
supply chains running through 5 different ports, which 
compromise the 3 largest load centers in the country. In fact, 
more than 80 percent of our cargo goes through those ports.
    I think it is really imperative that we are able to learn 
from all of our port security programs. And we need to tie them 
together and rapidly instituted a large-scale operationally 
cargo security program in the United States.
    Commissioner Bonner, would you tell the committee how you 
are planning to implement the lessons that we have learned from 
Operation Safe Commerce into an overall cargo security 
standard?
    Mr. Bonner. I would be happy to do that, Senator. You and I 
have worked a lot on this issue. But first of all, Operation 
Safe Commerce has been a very valuable test bed for different 
kinds of technologies that would be useful in better securing 
the movement of particularly ocean-going cargo containers from 
various places in the world to the United States. And as you 
indicated I think earlier, 8 to 9 million ocean-going cargo 
containers arrive at our U.S. seaports annually, including some 
of our major ports on the West Coast like Seattle and Tacoma.
    But the approaches to take the lessons there to develop and 
essentially to improve even more the supply chain security 
regimen. And there are two key elements to that. One is, and I 
believe we can do this through the Customs Trade Partnership 
Against Terrorism, leveraging U.S. importers and foreign 
suppliers to increase essentially the point of loading security 
to meet best practices and standards at the point that the 
containers are actually loaded at foreign manufacturers' 
facilities, whether that is in Asia or Europe or elsewhere.
    And secondly, using the lessons from Operation Safe 
Commerce to develop best practices and minimal standards, if 
you will, for a smarter, more secure container to be used in 
terms of the movement of those goods to the U.S. seaports. And 
when I say a smarter container, I mean one that, at the 
minimum, can be read by U.S. Customs and Border Protection 
Inspectors either upon arrival or at the CSI ports, as we 
expand those to more and more ports overseas, to determine 
whether it has been tampered with enroute.
    So those are at least a couple of the things that we are 
looking at to see if we cannot implement to improve the overall 
security of global trade and movement of cargo to the United 
States.

                REPORT DUE AT THE END OF THE FISCAL YEAR

    Senator Murray. So we expect a report from them by the end 
of this fiscal year. And you are going to be using the 
information that they have learned from that to get to some 
kind of security standard.
    Mr. Bonner. It is still being evaluated. But I certainly 
intend to. I believe, based upon the preliminary reports I have 
obtained, that there are some very useful things that have been 
done that are going to inform us and help guide us to an 
improved security of the movement of cargo.
    Senator Murray. Okay. Well, I do want to work with you on 
that. There is still $17 million to go out. They have spent a 
great deal of time, our taxpayers dollars and money on this. 
And I think we can learn a lot from them. We want to make sure 
it is used and used wisely.

       INSTALLATION OF RADIATION PORTAL DEVICES AT PORTS OF ENTRY

    Commissioner, let me also ask you, Customs is beginning the 
process of installing these radiation portal devices at ports 
of entry throughout the Nation. It seems to me it is a little 
bit late to check for radiation. Both the ports of Seattle and 
Tacoma are located right next to our downtown businesses and 
residential areas. And a ship bound for these ports travels 
through the Puget Sound before they get there. They pass by a 
major refinery compound, three Navy bases that each home port 
nuclear powered vessels, and a major petroleum tank farm.
    Why have you decided, at least initially, not to push out 
the borders when it comes to this kind of technology? And can 
you tell us if you plan on deploying these monitors to foreign 
ports that are participating in C-TPAT?
    Mr. Bonner. I think our objective and our intention is to 
do both. In other words, we are talking about a layered defense 
in-depth strategy. But we do want to do everything we can, 
particularly given the catastrophic consequences of 
radiological weapons, to improve our ability to detect them 
when they are arriving at our borders. And this is, of course, 
our land borders. We have already deployed now almost 250 
radiation portal monitors, very sensitive radiation detection 
equipment, along many places on our land border, particularly 
Canada. We are now expanding to seaports and so forth.
    But at the same time, we want to make sure that containers, 
through the Container Security Initiative, as part of the 
security screening of those containers that are identified as 
posing potential risk for terrorist threat; and that is, 
potentially risk that a terrorist organization like the al-
Qaeda could have concealed a weapon in those containers, that 
they are not only run through the large-scale X-ray scanning 
equipment, which is important to detect weapons, and 
potentially weapons of mass destruction, but they are also run 
through radiation detection. And that is part of CSI.
    Now, part of radiation detection is radiation isotope 
identifiers, handheld devices, and the like. We have at one 
foreign port, working with the Department of Energy, we are 
doing what I call ``CSI plus'', which is to deploy radiation 
portal detection systems that have the capacity for being not 
only very sensitive, but detecting potentially every container 
moving into that foreign port, including all containers that 
are ultimately outbound to the United States. And we have done 
that, working with the Department of Energy. And I give the 
Department of Energy much credit here but working in tandem 
with our U.S. Department of Energy, we have done that at the 
first CSI port, which is the Port of Rotterdam.
    And I do not know that that has been implemented yet, but I 
expect that it is going to be implemented within the next month 
or so. And so we do see that is what we want to do. If we can 
get these foreign seaports to install more sophisticated 
radiation detection equipment, it is something we want to do. 
We have started that. We have a long way to go.

                 PACIFIC NORTHWEST NATIONAL LABORATORY

    Senator Murray. Okay. As you know, the Pacific Northwest 
National Laboratory is the contracting authority for installing 
those devices. Can you give us a quick update of their 
performance and how the project is progressing?
    Mr. Bonner. Well, my assessment is that they have been 
very, very helpful to us in terms of helping Customs and Border 
Protection select the most appropriate and best radiation 
detection equipment that makes sense for a port environment. In 
the port environments, there are several port environments. 
There is the land border port environment and there is the 
seaport and the like.
    So, they have been very helpful with us in terms of 
assisting us in terms of the testing and the selection and the 
actual installation of this equipment to make sure that we have 
the kinds of protocols that resolve when you do get a radiation 
hit. And we do get hits on these things, that we can determine 
quickly whether it is an innocent radiation-emitting source or 
whether it is something that we need to be concerned about.
    Senator Murray. Well, that goes to another question I had.
    Senator Cochran. Senator, your time has expired.

                                 PORTS

    Senator Murray. Could I just follow up on his last comment? 
Because we have heard from a number of people in the ports that 
they want to know what happens when there is a positive reading 
from these devices and what the protocol is, you know, whether 
the facilities shut down and who is in charge of making those 
decisions. And if you could share with us what that is?
    Mr. Bonner. There is a protocol and I will make sure that 
all of our CBP port directors make sure they have had that 
discussion within the context of the port security committees 
that exist at each port with the Coast Guard.
    Senator Murray. Good. Thank you.
    Senator Cochran. Thank you, Senator.

                   REQUEST FOR DETENTION AND REMOVAL

    Mr. Garcia, one of the largest increases requested by your 
bureau is for detention and removal of people who are illegally 
in the country. It is an increase of $108 million, just about 
10 percent for this activity. Could you tell us what the 
specific needs are here and how you will use those additional 
funds?
    Mr. Garcia. Certainly, Senator. Detention and Removal is a 
very important program, a very important tool in enforcing 
immigration laws and maintaining the integrity of that 
immigration system that we were talking about earlier. A number 
of programs, I believe, were neglected in the past, 
particularly the Institutional Removal Program and the Alien 
Absconder Program.
    If you look at the funding enhancements for 2005, that is 
about $80 million of the dollar amount that you were speaking 
about. Institutional removal goes into the prison facilities, 
Federal, State, and also local facilities, and makes sure that 
we process illegal aliens or aliens subject to removal who are 
in those facilities. They could be very violent inmates, 
inmates with a history of violent criminal activity, predators, 
child sex predators.
    We have done a good job in the past of reaching the Federal 
facilities, according to a GAO report, a fairly good job at the 
State level, and a not very good job, and one we need to make 
much improvement on, on a local level. We are looking to 
transfer that program out of Investigations into the Detention 
and Removal Division, where I strongly believe it belongs, and 
increase our capability to place those inmates into the system 
at an earlier time period so that we streamline the process and 
make it more efficient, so we are holding those inmates for 
less time before they are ultimately removed from the United 
States.
    In fiscal year 2003, ICE removed 140,000 people from the 
United States. That is a very large number. It is a very large 
system. It needs improvement. The money in this request for 
enhancements will go towards that and making it more efficient.
    Fugitive Operations. The number of fugitives estimated in 
the country range up to 400,000. Those are people with final 
orders of deportation who have not complied. A subset of that, 
about 40,000, again an estimate, criminal aliens who have not 
complied with final orders of removal.
    We are very aggressively using fugitive alien teams to go 
after those absconders. We are prioritizing again, looking at 
the public safety value, going after those with a criminal 
record. Again, the biggest public safety value, we have a top 
ten list. We have been very successful advertising.
    This money will go to increasing those Fugitive Operations 
Teams, we call them, 30 additional teams across the United 
States. So it is really again that comprehensive approach to 
looking at integrity of the system and recognizing that an 
important part of that is the detention removal system.

        COOPERATION OF LOCAL AND STATE LAW ENFORCEMENT OFFICIALS

    Senator Cochran. Are you successful in getting the 
cooperation of local and State law enforcement officials in 
helping you achieve your goals?
    Mr. Garcia. Yes, Senator. Again, you have to look at the 
are. And there is a wide range of options available. At one 
side of the spectrum is States that want to actively 
participate in enforcement. And there is a provision, 287G it 
is called, for doing that, where we provide training to local 
officials. And we did it in Senator Shelby's State most 
recently.
    The LESC that I spoke about earlier provides another 
opportunity for cooperation. Anti-gang work, we have been very 
successful working in Chicago, L.A., Charlotte in anti-gang 
work, working with State and local officials. So there is a 
very wide spectrum to that cooperation.
    I believe that the Institutional Removal context is an area 
where we can do more working with the States. It is a benefit 
to both. It makes our work more efficient, where the States 
will flag or bring to our attention inmates who should be in 
our system. And we can remove those criminal aliens from 
probation or parole systems that cost the State money in terms 
of supervisory dollars. So I think that is an area where we are 
going to move much more aggressively in the State and local 
cooperation area.

                ACKNOWLEDGEMENT OF HARD WORK AND SUCCESS

    Senator Cochran. Well, I want to commend you for the hard 
work and the good job you are doing, your bureau is doing. I 
think we have seen a lot of new initiatives developed and a lot 
of success stories that have not gotten the attention they 
probably should have.
    Mr. Garcia. Thank you, Senator.

UPDATING CITIZENSHIP PROCESSES AND LOOKING AT THE TEST THAT IS GIVEN TO 
             THOSE SEEKING CITIZENSHIP IN THE UNITED STATES

    Senator Cochran. Mr. Aguirre, I know that you are in the 
process of updating citizenship processes and looking at the 
test that is given those who are seeking to obtain citizenship 
in our country. Could you tell us a little about what you are 
doing in that area and whether there are any additional funds 
requested to support those activities?
    Mr. Aguirre. Well, yes, Senator. Thank you. As mandated by 
Congress, we have instituted an Office of Citizenship, which is 
actually responsible for the citizenship aspect of immigration 
or, if you will, the naturalization aspect of immigration. That 
office is looking at various aspects. One, we are trying to 
make the test of citizenship a better process. It is a good 
process now, but I think it can be improved.
    We have gone through a pilot project last year to look at 
better ways to deal with the English portion of the test and 
see how we can have a more meaningful process. That pilot is 
now back. We have had some very good reports from some of the 
NGOs. And we are trying to fine tune and see how we can make it 
better.
    Additionally, there is a provision for history and civics, 
which is also part of the test that an applicant must go 
through before they are granted naturalization. We are looking 
at ways to see if we can make it a more meaningful approach 
where the questions are not the end, but the end is the 
learning and the question is part of the component. And to that 
end, sir, we are working with academicians. We are working with 
historians. We are working with the Department of Education to 
see how we can do the learning a more meaningful aspect, 
particularly since many of these applicants are slow in their 
English knowledge. We want to see how we can improve their 
understanding of what it is to be an American, not only from an 
historical standpoint, but also the civic responsibilities that 
one assumes when they become a citizen. That is all part of the 
element. And yes, sir, we do have an inclusion in our budget to 
accommodate that.
    Senator Cochran. Thank you very much.

      REQUEST FOR THE CUSTOMS TRADE PARTNERSHIP AGAINST TERRORISM

    Mr. Bonner, there is a request for an additional $15 
million to expand the Customs Trade Partnership Against 
Terrorism. Could you tell us how these resources are going to 
be used and what the purpose of that program is?
    Mr. Bonner. Yes, Senator, Mr. Chairman. It is essentially 
twofold. One is to be able to expand the validation of the C-
TPAT partners. In other words, they enter into a commitment 
with U.S. Customs and Border Protection to take certain mission 
measures, best practices, to improve their supply chain 
security literally from their foreign vendors to our ports of 
entry. And we want to, as the old saying of some former 
President was ``trust, but verify.'' So we are expanding our 
validation capability, so we are doing more validation.
    And as we validate, more people understand that this is not 
window dressing. This is serious stuff. If you are going to get 
expedited treatment upon arrival, you need to take these 
measures that you have committed to take. So part of it is for 
that. Part of it is to further expand the base of C-TPAT 
partners. We already have 5,900 companies, including many of 
the major U.S. importers that are part of C-TPAT. In fact, the 
importers alone are about 3,500. These are major importers that 
account for over 40 percent or more of the all of the incoming 
cargo coming into the United States. So it also will be funding 
to expand and administer the program.
    Senator Cochran. Thank you.
    Senator Byrd.
    Senator Byrd. I believe, Mr. Chairman, that this will 
complete our series of hearings, will it not?

                       KUDOS FOR CHAIRMAN COCHRAN

    I want to thank you Mr. Chairman for conducting these 
hearings as you have. It should also be noted that the chairman 
always calls on the other members of the committee to ask 
questions, and then he allows a second go-around. He does not 
ask his questions until the other members have asked their 
questions, and sometimes it is 2 hours before he asks his 
questions. So, that courtesy should not be overlooked. I have 
observed it, and I thank the chairman for the courtesies that 
he continually extends to the other members of the committee. 
He is a good chairman. He is not only fair to his colleagues on 
the committee, but he is also very fair and considerate of the 
witnesses.

 IS THERE MONEY IN THE PRESIDENT'S BUDGET TO IMPLEMENT THE PRESIDENT'S 
                           AMNESTY PROPOSAL?

    Earlier, Senator Shelby asked whether there is money in the 
President's budget to implement the President's amnesty 
proposal. I do not believe that we got a complete answer, and 
this is nobody's fault. Mr. Aguirre said that immigration 
services would be paid for with the new fees. I accept that. 
But we did not hear, I do not believe, from Mr. Garcia or Mr. 
Bonner.
    Certainly there would be higher costs for security 
background checks, for guest worker enforcement, for removal of 
aliens, for workplace enforcement, and for increased travel 
across the borders. The modest increases in the budget will 
barely keep up with current needs. What will the increased 
costs be, if the President's amnesty program is approved? And 
why are these funds not in the budget?
    Mr. Bonner, do you want to take a shot at that question?
    Mr. Bonner. Well, first of all, you are right, Senator 
Byrd. There are no funds, per se, in the CBP budget for the 
Temporary Worker Program that has been proposed. And I would 
make the comment that from a CBP perspective, and as the 
President has indicated, that if there were to be a Temporary 
Worker Program enacted, it would have to have a very strong 
border enforcement for a security aspect to it.
    And right now, we, of course, have a sizable Border Patrol. 
I discussed with Senator Shelby that we have a ways to go here. 
But I do think one thing that has been lost is that in the 
Temporary Worker Program proposal, that it does hold the 
promise, I think, as outlined, if you had a Temporary Worker 
Program, it potentially could relieve some of the pressure at 
the border in terms of illegal migration and give us a better 
ability to control the border, Senator Byrd. And that has 
always been important as a national objective of the United 
States.
    But let me tell you right now it is absolutely essential, 
because we need to reduce the flow of mass migrations at our 
Southern border in order to increase our prospects for 
identifying and apprehending terrorists who may be attempting 
to illegally enter our country. So I do think that there is a 
policy aspect to this that could help us get a better and 
firmer control of the border, which we need for homeland 
security purposes.
    But once if there were a bill that took final shape, 
obviously I would like to have an opportunity to discuss 
initially within the Administration what I think would be 
needed to better control the intake spigot, because we ought 
not to have a Temporary Worker Program and still have, whatever 
it is, 300,000 or 400,000 illegal aliens entering our country 
to both seek jobs or for other purposes.
    Senator Byrd. Are you in a position at this moment to 
submit an estimate as to the resources that would be needed?
    Mr. Bonner. I certainly do not have it at my fingertips, 
but I would certainly, if you requested it, I would take under 
advisement as to how we might be able to get that information 
to you.
    Senator Byrd. Would you do that for the subcommittee?
    Mr. Bonner. I will make every effort to do it. Obviously, 
Senator, I will also have to work this through the Department 
and through the Administration. But I will make every effort to 
get you that information.
    Senator Byrd. Very well. If you would, please.

                              ICE RESPONSE

    Mr. Garcia, would you make an effort along those lines?
    Mr. Garcia. Just to clarify, Senator, looking for a number 
in terms of enforcement on the President's Temporary Worker 
proposal? I would echo what Director Aguirre said in terms of 
without the outline and without the participation and 
structuring how that is enacted and how it rolls out, it would 
be very difficult to speculate as to the resources needed to 
enforce it. I think the most productive area to go here, again, 
is to lend our expertise to the process.
    And again, looking at the lessons learned, and I think you 
mentioned a few in your earlier remarks, of other legislation 
in the past to see how we can build in provisions that will 
limit the amount of fraud, anti-fraud work investment we need 
to make, and then again to look at what is the scope of the 
legislation, how will that affect the population that is in the 
United States in our ongoing enforcement efforts, and then to 
calculate what do we need to ensure the integrity of the system 
that we have all been talking about.
    I think without concrete provisions or at least an outline 
of where that legislation is going when enacted, it would be a 
very difficult exercise to calculate the amount of money we 
would need on the enforcement side.
    Senator Byrd. Well, it sounds to me as if the President was 
just posturing when he proposed an amnesty program. Nobody 
seems to have in mind a figure as to what this is going to 
cost. Certainly Congress is going to need to know more than you 
are able to tell us. You do not seem to have the slightest idea 
as to what this is going to cost. We are going to need to know 
these things.

              BUDGET REQUEST FOR THE FEDERAL AIR MARSHALS

    All right. The budget request for the Federal Air Marshals 
is essentially a flat-line request similar to last year's 
funding level. Yet, on two occasions in less than a year, late 
last summer and again over the recent winter holidays, the 
threat level was raised to Code Orange, in large part because 
intelligence and other indicators led the department to believe 
that there were enhanced threats to the United States via 
airplanes flying into or over this country.
    However, based on budget briefings with my staff, I 
understand that the resources directed to this program are not 
sufficient to hire the number of air marshals needed to 
maintain a more robust presence on targeted flights. On March 
9, I wrote to Secretary Ridge expressing my concerns about the 
potential that we may not have sufficient personnel to cover a 
significant percentage of targeted flights this year, and that 
this problem will only be compounded given the inadequate 
funding requested in the fiscal year 2005 budget.
    While we are unable to talk in specifics, I am concerned 
about the inability of your agency to, at a minimum, replace 
retiring air marshals. Are you aware, Mr. Garcia, of my letter 
to Secretary Ridge?
    Mr. Garcia. I became aware of it in preparation for this 
hearing, Senator.
    Senator Byrd. Do you know when I will get a response to my 
letter, ensuring me that the Department will maintain a robust 
staffing level of air marshals?
    Mr. Garcia. I will follow up with that, Senator, and get 
back to you. Obviously, you share, as the Department, your 
concern, the importance you place on the air marshal program.
    Senator Byrd. If my understanding of the Air Marshal budget 
and the status of the Air Marshal program is even close to 
being accurate, why are you not requesting more funding for 
hiring additional Air Marshals, ensuring that they receive 
advanced training, and increasing the tools at their disposal 
for the protection of airplanes and their passengers?
    Mr. Garcia. Senator, I think, as I mentioned earlier, the 
Air Marshals are our newest division within ICE. They came to 
ICE, I believe, in early November this past year. We are in the 
process of looking at the Federal Air Marshal Service as a law 
enforcement division within ICE, seeing how we can support 
their mission and how they support the broader ICE goals.
    We are looking at a number of different things. You 
mentioned code orange. During the most recent threat level, the 
raising of the threat level most recently, we in fact were able 
to deploy ICE agents who had been trained as Air Marshals to 
fly, I believe, more than 300 missions with the Air Marshals 
and increase their capacity. So we are looking at a number of 
different things.
    One of the things we are looking at very closely, as you 
know, and I believe you have been briefed, are our budget 
issues and our future looking down the road at the FAMS and 
what their capabilities are. That is an incredibly important 
mission, as I mentioned earlier, in ensuring civil aviation 
security. I look forward to working with this Subcommittee on 
the very important issues facing the Air Marshals and 
continuing to support that vital mission.
    Senator Byrd. How is my time running?
    Senator Cochran. Your time has expired.
    Senator Byrd. All right. Thank you. I am glad I didn't ask 
the question earlier.
    Senator Cochran. Thank you very much, Senator.
    Senator Shelby.

                             VISA OVERSTAYS

    Senator Shelby. Thank you. I want to go back on the visa 
overstays. How many people come into this country legally each 
year? That is, as a student, business, vacationing, so forth. 
It has to be in the millions.
    Mr. Bonner. Tens of millions.
    Senator Shelby. Tens of millions. So they get a visa to 
come to this country most of the time, do they not?
    Mr. Bonner. Yes, Senator. They get a visa unless they are 
traveling into the United States from a visa waiver country, in 
which case they would not require a visa.
    Senator Shelby. And how many countries do we have visa 
waiver agreements with?
    Mr. Bonner. The last time I checked it was about 16 or 17. 
Do not hold me to the exact number, but in that ballpark.
    Senator Shelby. Do any of those countries come out of the 
Middle East?
    Mr. Bonner. No, I do not believe there are any countries on 
the Middle East that are visa waiver countries anymore.
    Senator Shelby. Okay. Now how many--how do you keep up 
with--let us say there are tens of millions. Is ten million too 
few people?
    Mr. Bonner. Oh, on an annual basis, there are more than 
that that come in under visa----
    Senator Shelby. Twenty million? Twenty-five million? Just 
give your best shot.
    Mr. Bonner. I think it is probably around 30 million.
    Senator Shelby. Thirty million people.
    Mr. Bonner. Let me do it this way: It is 30 million through 
our international airports, more or less.
    Senator Shelby. Thirty million people.
    Mr. Bonner. When you talk about our land borders, you are 
talking about even more gigantic numbers of people that are 
coming in with temporary worker cards or with visas.
    Senator Shelby. Okay. Now how do you keep up with this huge 
number of people? Do you have the resources, one, to keep up 
with it? Let us say I came in, and had a visa. How would you 
keep up with me? And let us say I came from a country that did 
not require a visa, and I come in and they stamp my passport. 
How do you know if I ever leave, is what I am getting at.
    Mr. Bonner. One of the great accomplishments of the 
Department of Homeland Security has been that at our 
international airports we have instituted the US VISIT program 
and technology. And so we know everybody that is coming in with 
a visa at the time they are presenting themselves to a CBP 
inspector at our international airports. One, whether they have 
been issued a visa. We actually have on the screen the visa 
with their photographs. We take a biometric, which are the two 
fingerprint scans. And we can determine with virtual certainty 
that the person presenting themselves to us is the person who 
was issued the visa in the first instance by the State 
Department.
    Now we did not have that capability before.
    Senator Shelby. Sure. I know.
    Mr. Bonner. By the way, we also have a 994 form, that has 
some information in it that is not fully automated about the 
person.
    Senator Shelby. You are talking about tools. You are 
getting better tools, I understand, to deal with.
    Mr. Bonner. Yes, sir.
    Senator Shelby. And that is good. And you are probably 
going to need more. But my real thrust here is, if you have and 
I will just use 30 million people coming to the United States, 
and you have an entry stamp for them, you know that they come 
in, do you have a correlation to when they leave? And is that 
closed, in other words?
    Mr. Bonner. Well, we have some correlation there, because 
if they----

             WHO IS IN THE COUNTRY LEGALLY AND OVERSTAYED?

    Senator Shelby. You see what I am getting at. In other 
words, do you really know who is in this country legally, that 
come legally and over stay?
    Mr. Bonner. Well, the answer to that one is that we do not 
know everybody that has overstayed visas that has come into the 
United States, because there is not a fully perfected automated 
exit system at this point.
    Senator Shelby. Sure.
    Mr. Bonner. We are starting the prototype of that through 
the Border and Transportation Security Directorate of the 
Department by trying to model that at airports. And then to 
have a complete system, we will obviously have to include the 
land borders. So the answer is--you know, by the way, 
ultimately----
    Senator Shelby. The answer is no, you do not have it.
    Mr. Bonner [continuing]. If they get into the country----
    Senator Shelby. Is that fair?
    Mr. Bonner. If they get into the country----
    Senator Shelby. Mr. Bonner.
    Mr. Bonner. Yes. Yes, sir.
    Senator Shelby. Is the answer, as we speak today, as you 
speak today, the answer is no, you do not have the system in 
place to really keep up with it.
    Mr. Bonner. Not a foolproof system. We have a system.
    Senator Shelby. Sure. We know you have a system.
    Mr. Bonner. But it is not a system that tells us that 
everybody that has entered on a visa for a period of time has 
not overstayed that visa. And if they have overstayed, then we 
have issues of identifying who they are, where they are. And 
then, as Assistant Secretary Garcia was saying, ICE then has 
the responsibility for essentially locating and removing. And 
there are huge numbers we are talking about.
    Senator Shelby. And how many? Let us assume of the 30 
million that come in, that there are a lot of people that do 
not go back. I do not know how many, but it has to be heavy.
    Mr. Bonner. That overstay their visa.
    Senator Shelby. Sure, overstaying their visa. What do you 
do about it? And how many have you found and deported that have 
overstayed their visa?
    Mr. Bonner. I will give you a way of looking at that. And 
that is and again, these are estimates.
    Senator Shelby. No. I do not want to just look at it. We 
want to know. Go ahead.
    Mr. Bonner. Yes. But let us start with what are some 
estimates.
    Senator Shelby. Sure.
    Mr. Bonner. And that is, if you estimate that there are 8 
million people that are illegally residing in the United 
States, and the figure might be higher, but if it is 8 million, 
the estimates are that about 40 percent of those are visa 
overstays.
    Senator Shelby. Okay.
    Mr. Bonner. So 3 million plus. And then the question is, 
well, how do you prioritize that, particularly in light of the 
terrorist threat, criminal aliens and the like, to devote 
resources to go after them. And I do not think the resources 
are necessarily sufficient to do that. But ICE is the one that 
has the resources and the responsibility. And I do not mean to 
pass the buck here in any sense, but it is an issue then as 
to----
    Senator Byrd. We do need to talk about the bucks. That is 
what the senator is trying to find out.
    Senator Shelby. We are trying to get to the bottom of this. 
What are the real numbers? What are you doing about it? And if 
you are not doing a lot about it, and obviously you are not 
doing what you could, what do you need? Do you need resources 
to do it?
    Senator Cochran. Do you want to answer that?

                   ICE RESPONSE TO OVERSTAY QUESTION

    Mr. Garcia. Yes. Thank you, Senator. To pick up, I guess, 
where Rob left me, since the initiation of NCR or SEVIS, a 
tremendous amount of information has been generated. You hit on 
it, Senator, when you say our exit controls. And Commissioner 
Bonner was talking about it. We get these leads in. We have had 
20,000 NCR US VISIT now, SEVIS leads, resolved at headquarters. 
Out of that group, we have sent 1,200 leads out into the field 
to be resolved in our field offices.
    We have to take the indications of overstay and violations. 
And then we have to check the systems. We have to look at the 
exit data. And we have to do follow-up. And we have to 
prioritize.
    Senator Shelby. Excuse me. If it is 40 percent of the 
illegal aliens, just use that for an example, of 8 million, 
that is 3 million, a little more than 3 million, if it was 8 
million, 40 percent of that, 3 million overstays. It seems that 
you are just overwhelmed. If there are 3 million illegal aliens 
here because they overstayed their visas and you do not know 
where they are--maybe you know who they are, because there is 
no exit, or maybe you do not know that.
    I am not here to call you down on it, because I know you 
are sincere and you are competent. But I think you have a 
tremendous problem, or we do in this country.
    Mr. Garcia. A long time to get to that population, looking 
at the past and the future. I had one particularly egregious 
case last week where someone was in overstay from 1986, 
committed a horrendous act against a 3-year-old child in 
Maryland. So that shows you the scope of how far back we are 
looking.
    Going forward, which is a little bit different conversation 
that we have been talking about here with the new US VISIT, the 
new SEVIS system--I know, Senator, you are familiar with the 
old systems and how much of an improvement this has been. We 
are working with that prospectively to look at these 20,000 
leads and the 1,200 we have sent out to put deterrence into the 
system, which was not there before, I believe.
    Then you look at the past. And you say: How do we 
prioritize that child sex predator that has been here since 
1986 and the other ones that pose a public safety risk? How do 
we work with whatever legislations? How do we address that all 
in a meaningful way? And I think that is what we are all 
working towards here at the table.

           DOES ICE HAVE ENOUGH RESOURCES TO HANDLE OVERSTAY?

    Senator Shelby. But my real question, do you have enough 
resources to do that?
    Mr. Garcia. Yes, in where we are going. And if you look at 
the initiatives we have asked for, there is compliance 
enforcement enhancement there. We have been doing that, 
building that out of base up till now. We are asking for $16 
million coming here to look at processing more leads and 
building a targeting system that is even more meaningful. 
Because again, enforcement is partly deterrence. And we have to 
send that message out.
    Senator Shelby. Thank you for your indulgence, Mr. 
Chairman.
    Senator Cochran. Senator, thank you.
    I have two final questions and other senators may have 
other questions. We are going to have a vote, I think, at about 
12:15 on the Senate floor. So we are about through, if that is 
any consolation to you.

       $64 MILLION REQUEST FOR SENSOR AND SURVEILLANCE TECHNOLOGY

    I notice in the budget request there is $64 million being 
requested for sensor and surveillance technology. There is 
technology currently deployed between the land ports of entry, 
but you are developing a project plan for the $64 million 
request, as I understand it. Do you have any idea what the 
total cost of finishing the installation of sensor technology 
is going to be? Mr. Bonner, I guess that is a question you 
should answer.
    Mr. Bonner. It is, because this is sensoring technology for 
the Border Patrol to better control and detect against illegal 
crossings by illegal migrants, drug smugglers, potential 
terrorists. And the $64 million is going to help us immensely 
in terms of expanding the things like the remote video system 
and the ISIS system and the ground sensors that we use at 
strategic places along the Southwest border. And of course, 
unfortunately since 9/11, we have had to give more attention to 
our Northern border with Canada, too, in terms of understanding 
who and what may be crossing that border, so that the Border 
Patrol is then able to respond and apprehend those that 
illegally cross our borders.
    But you are asking me what the total is. I do not have the 
number. I mean, the goal is to have sensoring technology, which 
could include ground sensors, the sophisticated camera 
sensoring systems, plus UAVs, and we have funding for that. To 
give us a more comprehensive picture, that is the goal, of 
illegal penetration of our borders at the most vulnerable 
areas. I mean, there are some areas of our border that are, for 
example, I mean, in the Rocky Mountains on the Canadian border 
during the winter it is virtually impassable. So we are looking 
at it in terms of where the vulnerabilities are. The goal is to 
expand the sensoring system to give us sufficient visibility 
that we have substantial control over and detection 
capabilities for people moving across the border.
    Mr. Chairman, what the total number is, I do not have it 
right now. It would be more than the $64 million that is being 
requested in the 2005 budget request.

            $10 MILLION REQUEST FOR UNMANNED AERIAL VEHICLES

    Senator Cochran. There is also an indication that you need 
funding up to $10 million to develop a system of unmanned 
aerial vehicles to support the Border Patrol and other 
components of Customs and Border Protection. Are you proceeding 
now to use funds from other sources under your control in order 
to get moving on this program in connection with the Arizona 
Border Control Initiative, for example?
    Mr. Bonner. Yes, we are. And even in 2004 we are proceeding 
to develop and actually deploy an unmanned aerial vehicle in 
support of the Arizona Border Control Initiative to better 
control the Arizona border. And I believe that we are going to 
be able to do that sometime by the May/June time frame, 
actually deploy a UAV that will cover and detect along a 
significant portion of the Arizona border. The funding for this 
is not in our budget. But we have identified funding through 
Under Secretary Hutchinson and the Department of Homeland 
Security through the Science and Technology area to essentially 
pilot and determine how effective a UAV is in terms of 
detecting. So that in 2005, we should be able to have a good 
understanding of what we need to actually deploy on a more 
permanent basis on the Southwest border at particular critical 
segments, as well as on our Northern border with Canada.
    Senator Cochran. Mr. Garcia, I think the Coast Guard and 
Air Marine Program within your bureau have tested the concept 
of unmanned aerial vehicles in their operations. Is your 
experience going to be shared, or will this be communicated to 
the other agencies so they will have the benefit of your 
understanding and your experience?
    Mr. Garcia. Absolutely, as far as the Air and Marine goes. 
We are working down in Arizona. And I am working very closely 
with Commissioner Bonner.
    Senator Cochran. Senator Byrd, those are my last two 
questions.
    Senator Byrd. Thank you.
    Senator Cochran. I yield to you for whatever time you need.
    Senator Byrd. Thank you, Mr. Chairman. I will submit most 
of my remaining questions for the record. I do have two that I 
will ask at this time. Then we will go to the floor for our 
vote.

           CONTINUED DUMPING AND SUBSIDY OFFSET ACT TRADEOFF

    On March 19, Commissioner Bonner, CBP issued its annual 
report for 2003 on the Continued Dumping and Subsidy Offset Act 
Trade law. This is a law that I helped to enact that allows 
Customs and Border Protection to reimburse U.S. companies that 
have been injured by unfair trade practices with funds that are 
collected as import duties on unfairly traded imports. CBP's 
report states that, while CBP should have distributed at least 
$320 million in collected duties to eligible U.S. companies and 
workers in 2003, it was able to distribute only $190 million.
    CBP failed to collect $130 million from unfair traders. 
Most of the uncollected $130 million consists of import duties 
not collected by CBP on goods from China in particular. While 
part of the problem is that Chinese companies are refusing to 
pay these duties, it also appears that CBP is failing to 
enforce the U.S. trade laws, because it is not diligently 
pursuing the parties who are refusing to pay these duties. Why 
is CBP not collecting millions of dollars in duties on unfairly 
traded imports as required by U.S. law?
    Mr. Bonner. First of all, we take very seriously at Customs 
and Border Protection, Senator Byrd, our responsibilities under 
the Byrd amendment. And I believe that the answer to that lies 
in essentially three factors, most of which are beyond the 
control of Customs and Border Protection. The first factor is 
that when there is a preliminary proceeding against a Chinese 
company, and these are mainly agricultural products, and it is 
the then Commerce Department that determines what the 
preliminary antidumping duty rate is going to be. And in many 
instances, as I think you know, it has turned out that when 
there is a final order, the antidumping duty rate is much 
higher than the Commerce Department originally set.
    So that means that the bonds, the Custom bonds, that were 
to secure the payment of the antidumping and/or countervailing 
duties in many instances were not adequate.
    Secondly, the Chinese companies in many instances have 
essentially not come in and defended the antidumping charges. 
And therefore, that has resulted in punitive antidumping duties 
being levied at a much higher rate.
    The second factor is that once the antidumping duty final 
order is entered by the Commerce Department, we have found that 
the companies that were in China that were shipping the garlic, 
the mushrooms, or the other agriculture products, those 
companies simply fade into the woodwork and new companies 
appear. So they are changing, essentially, new shippers. And 
under the Commerce Department rules, unless you can show that 
the new shipping company is, in fact, an alter ego of, owned or 
controlled by the shipping companies that are subject to the 
antidumping duty, they are not viewed as having to pay the 
antidumping duty.
    And the third thing, unbelievably, is that for the 
inability to collect this $130 million more or less that you 
have talked about is the fact that surety companies that have 
been approved by Treasury Department, a number of them, 
including one large one in Los Angeles, have essentially 
defaulted. In other words, they were standing behind bonding 
these shipments. And they are not in a position to pay.
    So the long and short of it is, we clearly need to do 
better. We are engaged with the Commerce Department to address 
those two issues, and with the Treasury Department to address 
the issue of the adequacy of the surety, to have a better 
chance of recovering more of the antidumping duties.
    That said, by the way, I still think, given the system, no 
matter how hard we try to approach this issue, it is very 
difficult for me to sit here and say that we are going to be 
able to collect 100 percent of anti-dumping duties that are 
ultimately assessed in final orders by the Commerce Department. 
We are going to do our best, and we are doing our best to do 
that.

                    WHY IS CHINA MORE OF A PROBLEM?

    Senator Byrd. Why does the problem seem to involve more 
imports from China than from any other country?
    Mr. Bonner. Well, first of all, I mean in one sense, 
leaving aside Canada, more goods are imported from China than 
any other country of the world to the United States. China went 
into second place behind Canada in terms of volume of imports 
into the United States last year, according to Customs and 
Border Protection data. It surpassed Mexico, which had 
surpassed Japan. So more of our imports are coming from China.
    Secondly, we are concerned from an enforcement point of 
view that, particularly in this area that you are describing, 
at least some companies, particularly with agriculture 
products--and we have also seen illegal trans-shipments of 
textiles and that sort of thing through essentially other 
countries from China. We are concerned that it probably is the 
number one enforcement issues for both antidumping duties and 
for evasion of U.S. trade laws that relate to textiles.
    But part of it is, they are a major exporter. And part of 
it is that we need to enforce the antidumping duty laws, which 
ultimately under the Byrd amendment result in funds to the 
injured U.S. industry. So we are committed to working on this. 
And we clearly have some work to do to make sure that our rate 
of recovery is higher than it is right now of the antidumping 
duties.
    Senator Byrd. All right. I hope that you will carry out 
that commitment vigorously.
    Mr. Bonner. Yes, sir.

                   INTEGRATED FINGERPRINT DATA BASES

    Senator Byrd. I have one final question now, Mr. Chairman.
    During our March 9 hearing with Secretary Hutchinson, the 
issue of integrating fingerprint databases was raised by 
subcommittee members of both parties. The ability of illegal 
aliens and criminals to slip through our inspection and 
investigation webs and do harm to U.S. citizens has been amply 
documented. It is of the greatest concern to me and should be 
one of the department's primary goals.
    At one point, Secretary Hutchinson stated that the 
fingerprint databases would be integrated by the end of the 
year. At another point, he said that the department would find 
the necessary $4 million or so to ensure that border patrol 
agents had access to this information at all of the sites.
    I want to make sure that what he said would be done can 
actually be done. Earlier this year, the Department of 
Justice's Inspector General said it would take several years to 
achieve the goal of fully integrating the Justice Department's 
two-fingerprint system, known as the Automated Biometric 
Identification System, or IDENT, with the FBI's IAFIS 
fingerprint database. But, Secretary Hutchinson said that it 
was a priority and would be done in a matter of months.
    Now who is right?
    Mr. Bonner. Well, I think Under Secretary Hutchinson is 
right here, if I understand what the issue is. And I believe 
the issue is whether and how long it will take us to integrate 
the IDENT and IAFIS system for at least our front line, which 
is our border line, and at least at some of our ports of entry 
for inspectors. And in that regard, Senator Byrd, there is an 
integrated system that essentially permits the integration of 
both IDENT and IAFIS. And that system allows, for example, at a 
Border Patrol station, allows the ten prints that are taken to 
be run against both the IDENT and the IAFIS system.
    The IAFIS, of course, as you know, is the FBI's master 
criminal fingerprint system in Clarksburg, West Virginia. And 
also at the same time run against the IDENT database. So the 
question is a deployment issue for CBP. And I am not talking 
about State and local law enforcement here. I am just talking 
about Customs and Border Protection.
    And I believe right now, we have deployed some of these 
integrated systems to Border Patrol stations. We have deployed 
about 96 integrated systems to 31 border patrol stations. The 
plan is to deploy 255 of these integrated systems, which would 
be to all of the Border Patrol stations by the end of the year. 
Now that might not be this fiscal year but it may be the end of 
the calendar year.
    And then secondly, we have had IAFIS systems at 48 of the 
major ports of entry. Of those 48, 27 can do both, run against 
the IDENT and the IAFIS system. And we plan to have the 
integrated system, if you will, at all 48 of those ports also 
by the end of the year. So we do have an integrated system.
    Now the only thing I can tell you about the Justice 
Department, is that it may be that for purposes of State and 
local law enforcement having the capability of running prints 
through both IAFIS and IDENT, it may be that that is going to 
take longer. I do not know the answer to that. But perhaps that 
is going to take several years.
    But I know for CBP, which is the front line agency of the 
U.S. Government at our borders, we are making excellent 
progress in terms of rolling out that integrated system. With 
the right procedures in place, it will give you a better means 
of protecting against criminal aliens being able to get into 
the United States.
    Senator Byrd. I fully support the statement of the IG and 
the Justice Department when he states as follows, ``This 
integration is critical to identifying illegally entering 
aliens on lookout lists or with criminal histories. But 
progress has been slow.''
    Mr. Chairman, I raised my concerns with Secretary Ridge 
about fingerprint database integration in relation to his plan 
for deploying the US VISIT system. I cannot stress enough the 
importance of moving forward on this effort as expeditiously as 
possible. The lives of our citizens are at stake.
    The FBI tells us that the Hutchinson proposal does not 
provide access for State and locals. This is a weakness that 
must be met.
    I thank you, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Thank you, Senator Byrd.
    Thank you, all of our witnesses, for your cooperation with 
our subcommittee. As you know, written questions may be 
submitted to you for the record. And we ask you respond to them 
within a reasonable time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Thad Cochran

                   arizona border control initiative
    Question. Under Secretary Hutchinson recently announced the Arizona 
Border Control Initiative. The announcement mentioned 260 Border Patrol 
agents, assigning 4 additional helicopters, $1 million for new sensor 
technology, $2 million to house additional apprehended illegal aliens, 
and other unspecified resources for detention. How are CBP and ICE 
paying for the Arizona Border Control Initiative?
    Answer. CBP has identified funding within the fiscal year 2004 
appropriations for the placement of the 260 agents, new sensors 
technology and the additional helicopters for the initiative. ICE is 
funding its efforts associated with the Arizona Border Control 
Initiative from within its fiscal year 2004 appropriations.
    Question. Where are the funds coming from to pay for the permanent 
transfer of 200 border patrol agents?
    Answer. CBP and the Border Patrol will request approval of the 
appropriations committees to use supplemental funds which remain 
unspent after the completion of the relocation of the 400 agents to the 
northern border in fiscal year 2004. CBP has met the mandate to triple 
the number of agents on the northern border. Approximately $2.5 million 
is required to move the 200 agents into the Arizona border area.
    Question. What impact will these actions have on initiatives funded 
by the fiscal year 2004 Appropriations Act and on base programs and 
staffing needs?
    Answer. The Arizona Border Control Initiative is a high priority 
border enforcement operation to control illegal entry in these areas. 
The impact of ABC on lower priority base programs will be minimal and 
no changes in current border operations are anticipated. In addition, 
there will be little or no staffing impacts along the other border 
sectors due to the Arizona Border Control Initiative other than the 
relocation of the 200 agents.
    Question. Which border patrol sectors are losing agents and 
helicopters to Tucson?
    Answer. Four helicopters were transferred to Tucson from the San 
Diego Sector. The transfer of 200 agents is pending receipt of a 
selection list of qualified applicants. Applicants will in all 
likelihood come from across the entire United States.
    Question. Will this initiative need to be pulled back in light of 
the funding problems within CBP and ICE which have initiated a hiring 
freeze and other actions to slow down or stop spending? If not, why?
    Answer. Securing our Nation's borders is a top priority of CBP. The 
current emphasis of our enforcement strategy is gaining control of the 
illegal traffic entering through the State of Arizona. It is 
anticipated the ABC Initiative will continue as planned. This 
initiative will not be affected by the temporary suspension of hiring 
or by other steps being undertaken to address the budget issues to 
which you refer. This initiative is a high-priority for the Department, 
CBP, and ICE.

                           OVERSEAS STAFFING

    Question. CIS, CBP and ICE each have overseas responsibilities, 
some inherited from legacy agencies and some stemming from new 
initiatives. The President's budget requests increased resources for 
overseas staffing for CBP and ICE, while CIS has plans for a formal 
Refugee Corps overseas. How will your organizations cooperate overseas?
    Answer. The Office of the Secretary is conducting a detailed review 
of the role of DHS overseas, including the management structure that 
best advances the full range of the international liaison, enforcement, 
inspection and services missions of the Department.
    Question. Will each organization have separate overseas management 
structures? If not, how will these resources be managed?
    Answer. The Office of the Secretary is conducting a detailed review 
of the role of DHS overseas, including the management structure that 
best advances the full range of the international liaison, enforcement, 
inspection and services missions of the Department.

               Citizenship and Immigration Services (CIS)

                         BACKLOG REDUCTION PLAN

    Question. What is the current size of the application backlog?
    Answer. Information on the current backlog and USCIS plans to 
eliminate it will be provided to Congress in the coming months in a 
revised Backlog Elimination Plan.
    Question. How does CIS define and determine the size of the backlog 
of applications?
    Answer. In developing the revised Backlog Elimination Plan, USCIS 
is reviewing how it defines and thus quantifies the backlog. 
Information on the current backlog and USCIS plans to eliminate it will 
be provided to Congress in the coming months in a revised Backlog 
Elimination Plan.
    Question. What impact is the reduction in fee receipts currently 
being experienced by CIS having on your ability to reduce the 
application processing backlog? Answer. While it is true that overall 
fee revenues are lower so far this fiscal year, this is due to a 
decrease in new applications received. Thus, even though fee revenue 
thus far this year is lower, it is important to note that workload is 
lower, too--thus enabling us to better focus on backlog cases.
    Question. Last week the Department announced the settlement of the 
Catholic Social Services and Newman Legalization cases. What is the 
estimate of the potential number of applications that will be filed as 
a result of these settlements, and will those applications have any 
impact on CIS's ability to reduce the backlog?
    Answer. There is no way of predicting exactly how many people will 
be able to apply during this new application period. However, many of 
the possibly impacted individuals were also eligible to apply for two 
previous programs set up by the legacy INS--the Questionnaire Program 
and the LIFE Legalization program.
    It is expected that many applicants who may be eligible to apply 
for this new proposed settlement program did actually apply under the 
other programs and may have applications already being processed.
    So, since the total number who applied under those two programs 
COMBINED is approximately 70,000--there is a good possibility that the 
number of applicants who come forward with this latest program will be 
less than 70,000.

                          GUEST WORKER PROGRAM

    Question. While it is difficult to answer this question so early in 
the process: how long do you anticipate it will take CIS to have a 
Guest Worker program up and running after legislation is passed and 
signed into law?
    Answer. You are correct. It is difficult to answer this question. 
The complexity of the final legislation that Congress passes will, in 
turn, determine the complexity of implementing the program and any 
subsequent regulations and field guidance that will need to be written 
to support the plan. However, the key to processing temporary worker 
petitions quickly and efficiently will be simplicity in the design of 
the legislation.
    Question. What impact will the addition of a Guest Worker Program 
have on CIS's ability to reduce the application backlog? Answer. We 
will meet the President's backlog reduction goals by 2006. As stated 
above, the key to processing temporary worker petitions quickly and 
efficiently is simplicity in the design. Based upon the legislation 
that Congress passes, we will use fees to support applicant processing 
and documentation.

                            REFUGEE SERVICES

    Question. Since fiscal year 2001, we have seen a dramatic decrease 
in the number of refugee admissions. In fiscal year 2001, the U.S. 
Government admitted over 69,000 refugees from around the world, while 
last fiscal year, only 28,000 refugees were admitted to the United 
States. The ceiling was 70,000 admissions for fiscal year 2003. It is 
very important that we ensure that the employees involved with Refugee 
screening are kept safe, and that we are diligently screening those 
refugees that are eligible for admission. What is CIS doing to ensure 
that all qualified refugees are being screened and admitted to the 
United States?
    Answer. USCIS is committed to steadfast resettlement of refugees in 
need. The terrorist attacks of September 11, 2001 prompted significant 
and more time-consuming changes in U.S. Refugee Program (USRP) 
processing procedures. Increased attention is now being given to more 
carefully screening applicants and more closely scrutinizing overseas 
refugee processing sites to ensure the safety and security of our 
officers. These procedural changes have enhanced the U.S. Government's 
ability to prevent terrorists and other undesirable persons from using 
the USRP to gain entry into the United States. However, they have also 
slowed the pace of overseas processing and, in turn, contributed to the 
reduction in refugee admissions. To address this, the USCIS is working 
to improve and streamline refugee screening, security checks and 
interview methods. USCIS is also working with the other implementing 
partners to expand access to the USRP by identifying new groups 
eligible for resettlement consideration. Consequently, from a low point 
of 27,113 total admissions in fiscal year 2002, the Department of State 
projects that admissions in fiscal year 2004 will significantly surpass 
this figure.
    Finally, USCIS has recently received resources through the revised 
fee schedule to establish a Refugee Corps in fiscal year 2004. This 
cadre of refugee-dedicated adjudicators will divide their time between 
Headquarters and the various overseas processing sites. This will 
result in a stronger and more effective overseas refugee-processing 
program without compromising the USRP's humanitarian objectives. A 
Refugee Corps will also help ensure more timely and satisfactory DHS 
responsiveness to USRP commitments and admissions goals.
    Question. The submitted testimony for CIS mentioned plans for the 
formal establishment of a Refugee Corps. Please explain when you plan 
to have this accomplished, what the expected annual costs will be, how 
many people will be assigned to this Corps, and what goals and 
objectives the program will have.
    Answer. The establishment of a dedicated refugee corps is funded 
through the recently announced fee adjustments. These fee adjustments 
took effect on April 30, 2004. Implementation of the refugee corps will 
take place shortly thereafter. This new structural and functional 
arrangement will greatly improve the quality of refugee adjudications 
and oversight, provide cost-effective immigration services, and 
significantly improve the Nation's ability to secure our borders 
without compromising humanitarian objectives. USCIS anticipates fee 
revenues will fund 109 positions at an annual cost of $18.5 million.
    Question. How will the Refugee Corps work with the ICE's Overseas 
Visa Security Units and U.S. Consulates?
    Answer. The refugee-dedicated resources of the Refugee Corps, as 
supported and deployed by USCIS will work closely with Immigration and 
Customs Enforcement (ICE) overseas offices and U.S. Consulates on a 
variety of refugee application fraud and security matters. For example, 
the overseas ICE offices will assist deployed Refugee Corps 
adjudicators in developing and implementing various refugee fraud 
detection and deterrence methods. While at overseas refugee processing 
locations, the Refugee Corps will, in turn, refer emergent fraudulent 
refugee cases and cases having national security interest to ICE for 
advice and possible investigation, as appropriate. The Corps will also 
coordinate security check results such as Consular Lookout and Support 
System (CLASS) and Security Advisory Opinions (SAOs) with ICE offices 
and U.S. Consulates, as needed; and engage in mutual information-
sharing regarding refugee applicant civil registry documents and other 
documentation to insure their validity and legality. Finally, the 
Refugee Corps will work with ICE overseas offices and other U.S. 
Embassy components to investigate and approve overseas refugee 
processing sites thereby helping ensure the safety, security and health 
of Refugee Corps adjudicators.

                             BENEFIT FRAUD

    Question. The President's Budget proposes to replace the funds 
provided to ICE for benefit fraud from the Examinations Fee Account, 
with appropriated dollars. What resources does CIS plan to devote to 
benefit fraud in fiscal year 2005?
    Answer. USCIS is currently reviewing all of its business processes 
as a part of the revised backlog elimination plan. Therefore, the 
funding to support benefit fraud responsibilities in 2005 is under 
review.
    Question. What will CIS use the $25 million in Examinations Fee 
Account funds for that it will retain in fiscal year 2005?
    Answer. USCIS is currently reviewing all of its business processes 
as a part of the revised backlog elimination plan. Therefore, the 
funding to support benefit fraud responsibilities in 2005 is under 
review.
    Question. How many benefit fraud cases were investigated and 
prosecuted in each of fiscal years 1998-2003? How many defendants were 
involved in each of the cases in each year?
    Answer: Statistical Response:

----------------------------------------------------------------------------------------------------------------
                                               Cases
           Fiscal year           --------------------------------   Principals        Aliens        Defendants
                                      Opened         Completed       Involved        Involved       Prosecuted
----------------------------------------------------------------------------------------------------------------
2003............................           2,522           2,031             932           1,885             213
2002............................           1,932           1,919             258             383             994
2001............................           2,613           2,662             655             927             185
2000............................           3,140           2,965             532           3,009             189
1999............................           5,315           3,648             706           1,705             252
1998............................           4,311           3,802             639             944             283
----------------------------------------------------------------------------------------------------------------

    The table above reflects the best available benefit fraud 
statistics historically collected by the former INS. Some of the 
statistics reflecting closed cases relate to cases opened in a previous 
year.
    Question. Of the applications that you receive annually, what is 
the total estimated size of the fraud problem, by type of fraud?
    Answer. GAO's January 2002 report on immigration benefit fraud 
States that, ``Although the extent of the benefit fraud problem is not 
known, internal and external reports indicate that the problem is 
pervasive and significant.'' There is no current estimate of the fraud 
problem.

                              CITIZENSHIP

    Question. Please give the Committee a fuller understanding of why 
today there is not uniformity across the country in the administration 
of the current citizenship test.
    Answer. The lack of uniformity actually dates back to 1790, when 
the first Congress entrusted naturalization to the courts and let them 
prescribe their own rules. From 1926-1990, the courts and INS shared 
responsibility for naturalization processing. In 1936, INS directed 
examiners to use uniform procedures and to determine applicants' 
character and attitude towards the United States rather than testing 
ability to memorize facts and phrases. The Immigration Act of 1990 gave 
INS full responsibility for naturalization adjudication.
    In 2000, INS issued a policy memorandum to its field offices to 
standardize certain aspects of the testing process, such as which 
sources officers should use when selecting test questions, the length 
of the test, and passing scores. In 2001, INS awarded a contract to a 
testing development company to assist it in the overall redesign of the 
testing process. This project includes defining appropriate assessment 
content and standards for the speaking, reading, writing, and U.S. 
history and government tests; and developing a revised test process, 
including test specifications/item content, item formats, equivalent 
forms, appropriate delivery systems, scoring rules, and administration 
procedures. It's important to not rush standardization at the expense 
of creating a reliable, valid and fair test.
    We are moving forward on all of these related goals. We completed a 
pilot test of revised English test items (reading, writing and 
speaking) in 2003. This year, we plan to finalize revised U.S. history 
and government content; conduct studies including test format, and test 
administration mode; and begin a pilot test of the complete revised 
English, U.S. history and government test. We also have asked the 
National Academies of Science to provide us with advice concerning the 
reliability, validity and fairness of the proposed changes to the test. 
These steps are all vital to ensuring that our revised test will meet 
these requirements.
    Question. Please provide a more detailed explanation of what the 
Office of Citizenship is working on.
    Answer. Established by the Homeland Security Act of 2002, the 
Office of Citizenship is responsible for promoting public awareness of 
the rights and responsibilities of citizenship. Specifically, the 
mandate of this office is to promote civic integration of immigrants 
through training and development of educational materials.
    The Office of Citizenship is targeting immigrants at two critical 
points on their journey toward citizenship: upon arrival in the United 
States and as they begin the formal naturalization process. The office 
is in the process of developing a ``New Immigrant Orientation Guide'' 
which will be presented to the approximately one million immigrants 
welcomed to permanent residence every year. In addition to the guide, 
and in close coordination with community and faith-based based 
organizations, the office will also host new immigrant orientation 
sessions in communities across the country.
    In the citizenship preparation arena, the office will develop new 
educational materials that include study and teacher guides that 
promote a deeper understanding of American history and civics. The 
American history and civics content will be closely coordinated with 
the Department of Education and the ``We the People'' initiative of the 
National Endowment for the Humanities.
    Our office is currently conducting focus groups in key cities 
across the country in order to proactively identify the strengths and 
gaps associated with their immigrant integration and citizenship 
preparation initiatives. Finally, we plan to publish a report of our 
findings in September when we host our first national civic integration 
conference on the theme ``Celebrate Citizenship, Celebrate America.''
    Question. How many people do you plan to have on the staff of the 
Office of Citizenship? Will they all be located in DC or placed around 
the country?
    Answer. The Office of Citizenship is currently staffed by the Chief 
of the Office, two Deputy Chiefs responsible for Program Development 
and Outreach; eight senior Policy Analysts and Outreach Specialists 
working in its DC Headquarters; and 18 Community Liaison Officers in 
the following regional and field offices: Arlington, Atlanta, 
Burlington, Chicago, Dallas, Denver, Detroit, Houston, Los Angeles, 
Laguna Niguel, Miami, New Orleans, New York, Phoenix, Portland, San 
Antonio, San Diego and San Francisco.
    Question. Will the Office of Citizenship work with organizations 
outside of the Department to carry out its mission?
    Answer. In order to fully realize its mandate, the Office of 
Citizenship will work in partnership with Federal, State and local 
agencies, community and faith-based groups and private organizations 
that share an interest in civic engagement and involvement. Community 
Liaison Officers in regional and field offices are primarily 
responsible for establishing this important outreach portfolio and have 
conducted hundreds of community meetings and forums in an effort to 
build robust coalitions and long-term commitments around civic 
integration initiatives. We are currently researching statutory and 
legislative authorities to enhance our ability to partner with the 
private sector.

                     ON-LINE FILING OF APPLICATIONS

    Question. When is the next expansion of the on-line filing of 
benefit applications planned?
    Answer. The next group of forms that will be automated for on-line 
filing is scheduled to complete testing on April 30, 2004 and is 
planned to be available to the public during the first week of May 
2004.
    Question. Which applications do you plan to add next?
    Answer. The group of forms that is planned to be available to the 
public by the first week of May 2004 are:
    Form I-129, Petition for a Nonimmigrant Worker
    Form I-131, Application for Travel Document
    Form I-140, Immigrant Petition for Alien Worker
    Form I-539, Application to Extend/Change Nonimmigrant Status
    Form I-821, Application for Temporary Protected Status
    Form I-907, Request for Premium Processing
    Question. What impact has on-line filing of applications had on the 
processing time of applications?
    Answer. Because receiving the data comprises only a small part of 
the adjudicative process and e-filing is still in its infancy at USCIS, 
e-filing has not yet resulted in significant processing time savings. 
Results will improve as e-filing opportunities are expanded, processes 
are changed to maximize the benefits of e-filing, and USCIS develops an 
IT infrastructure capable of moving complete files electronically. At 
present, e-filing is a customer service initiative with potential for 
significant efficiency gains.
    Question. Has on-line filing helped you to reduce the backlog of 
applications?
    Answer. As indicated above, e-filing, at this time, is primarily a 
customer service initiative that provides our applicants with an 
alternative to filing by mail or filing in person. It allows customers 
to pay their fee on-line via credit card or transfer of funds; and 
provides the applicant with instant evidence of their filing. 
Electronic filing does not decrease the amount of effort or time 
necessary to review an application or render a decision. In the future, 
e-filing will be both a customer service program, as well as an 
efficiency program when USCIS deploys an IT infrastructure capable of 
moving complete files electronically.

                RELATIONSHIP WITH IMMIGRATION OMBUDSMAN

    Question. In July of 2003, Secretary Tom Ridge appointed Prakash I. 
Khatri to serve as the first Citizenship and Immigration Services 
Ombudsman for the Department of Homeland Security. What is the working 
relationship between CIS and the Ombudsman's office?
    Answer. The Director of USCIS meets periodically in common cause 
with the Ombudsman to discuss issues, his recommendations, and their 
feasibility. The Director established an Office of Customer Management 
Relations (OCRM) led by a career senior executive who reports directly 
to the Director, to provide counsel, access to USCIS operations, 
facilitate the sharing of information, and coordinate responses to 
issues raised by the Ombudsman's Office.
    In addition, numerous field visits have been arranged for the 
Ombudsman in gaining knowledge of operational challenges and in 
collecting ideas from field staff. A collegial relationship is ongoing 
between the two Offices.

                  Customs and Border Protection (CBP)

                           CONTAINER SECURITY

    Question. What achievements has the Department made in increasing 
cargo security? When will the new three-pronged strategy be completely 
implemented?
    Answer. The Department has made significant strides in improving 
cargo security through programs such as the Container Security 
Initiative (CSI), the Customs-Trade Partnership Against Terrorism (C-
TPAT), Free and Secure Trade (FAST), the National Targeting Center, the 
deployment of non-intrusive inspection technology and radiological 
detection cargo screening technology at our ports of entry. In 
addition, implementation of the 24-hour rule for the transmission of 
cargo manifests has all contributed to improved security in the cargo 
environment.
    Implementation of the three pronged strategy: pushing our borders 
outward; advanced targeting and analysis of cargo and passengers before 
arrival at our borders; and intensive inspection of cargo and 
passengers at our borders is a process. Implementation of this process 
continues through the fiscal year 2005 President's initiatives for the 
Container Security Initiative, the Customs-Trade Partnership Against 
Terrorism, Systems for Targeting, and Radiation and Nuclear Screening 
Technology. Initiatives like these can be expected in the future in 
accord with the level of threat.
    Question. The budget requests over $105 million in enhancements to 
improve the ability of inspectors to target, inspect, and screen 
passengers and cargo at land, air, and sea ports. Having radiation 
monitors and increasing our ability to use computers to target and 
screen cargo and passengers is critical. Are there a sufficient number 
of inspectors on the front lines to handle physical inspections of 
cargo and passengers?
    Answer. With the additional resources provided for in the fiscal 
year 2002 Emergency Supplemental, the fiscal year 2003 appropriation 
and Wartime Supplemental, and the fiscal year 2004 appropriation, as 
well as the joining of the three agencies to form CBP, we believe we 
have adequate staffing to handle physical inspections of current levels 
of cargo and passengers.
    Question. Are there any plans to extend a Container Security 
Initiative-like project to bulk and break-bulk shipments?
    Answer. At this time, CBP is not planning to extend a CSI-like 
project to prescreen bulk and break-bulk shipments. CBP will continue 
to collaborate with the U.S. Coast Guard on vessels of interest and 
certain dangerous cargos at both a national and field level, and 
conduct joint boardings when warranted.

              CUSTOMS-TRADE PARTNERSHIP AGAINST TERRORISM

    Question. The budget requests an additional $15 million to expand 
the Customs-Trade Partnership Against Terrorism (C-TPAT). These new 
resources will allow Customs and Border Protection to increase the 
validation process within C-TPAT. According to the submitted testimony, 
221 validations have been completed on 2,926 certified partners. How 
many more validations will CBP be able to complete each year with the 
new resources?
    Answer. To date, over 700 validations have been initiated with over 
240 completed. Our goal for the current calendar year is to have 
completed a total of 400 validations. C-TPAT will continue to increase 
the number of validations performed for calendar year 2005. The 
increase will be guided by several factors including but not limited to 
membership levels, number of supply chain specialists on board, and 
threat level.
    Question. How often does CBP plan to validate each of the 
participants in the program?
    Answer. A C-TPAT participant is selected for validation based on 
risk management principles. Validations may be initiated based on 
import volume, security related anomalies, strategic threat posed by 
geographic regions, participation in expedited release programs, a 
relative sampling of industry sectors (e.g. carriers, brokers, 
forwarders, importers), and/or other risk related information. 
Alternatively, a validation may be performed as a matter of routine 
program oversight.
    Question. None of the 188 initiated validations have been on any of 
the 45 certified foreign manufacturers enrolled. When does CBP plan to 
begin reviewing foreign manufacturers?
    Answer. Foreign manufacturers will be included in the next group of 
C-TPAT validations to be initiated in calendar year 2004.
    Question. What performance measures have been developed to gauge 
the success of the C-TPAT program?
    Answer. Internal measures include program marketing and acceptance, 
which is measured by the number of C-TPAT partners enrolled and 
certified by CBP. The impact of enrollment is measured by identifying 
the percentage of trade controlled by those C-TPAT companies. Another 
internal measure is examination risk management, which involves 
quantifying and measuring the impact C-TPAT has on cargo inspections 
performed on ``known risk'' C-TPAT partners, compared to shipments 
where the risk is unknown or targeted as high.
    External measures include the C-TPAT validation process, which is 
used to verify the participant's supply chain security processes. C-
TPAT Supply Chain Specialists identify strengths and weaknesses found 
during the validation and recommend action items in the validation 
report. The results of all validations are captured to measure the 
overall performance of validated companies.

                        UNMANNED AERIAL VEHICLES

    Question. The President's budget includes a request for $10 million 
to develop, procure, deploy, and operate a system of unmanned aerial 
vehicles to support the Border Patrol and other components of Customs 
and Border Protection. According to the information we have been given 
regarding the Arizona Border Control Initiative, this project will 
begin in June with funding from the Science and Technology Directorate. 
Are any of CBP's direct funds going to support this effort this fiscal 
year?
    Answer. No. All funding supplied for this effort has been provided 
by the DHS Office of Science and Technology.
    Question. Both the Coast Guard and the Air and Marine program 
within ICE have tested the concept of using unmanned aerial vehicles in 
their operations. Will CBP be working cooperatively with these 
organizations during fiscal year 2005 on this test?
    Answer. BTS and the Science and Technology Directorate co-chair the 
DHS UAV Working Group which meets regularly and consists of BTS 
component and U.S. Coast Guard managers responsible for aviation 
assets. The working group provides a forum for collaboration and with 
the DHS UAV Executive Steering Committee it will ensure that the needs 
of CBP, ICE, TSA and the U.S. Coast Guard are addressed and deployments 
and concepts of operations are coordinated within the DHS.
    Question. What are the long-range plans for the use of UAVs along 
the land border? Will this be a joint program with ICE's Air and Marine 
Office?
    Answer. DHS is exploring new technology to meet aerial border 
security mission requirements. UAVs hold promise in some applications. 
This mission will be supported through a variety of systems. Sensors 
such as TARS, UAVs, rotary and fixed wing aircraft, and ground-based 
equipment and personnel to operate and maintain these systems must be 
coordinated by DHS and Department of Defense components, and aligned 
against the highest critical vulnerabilities and threats. ICE AMO is an 
integral part of the team that is developing and fielding this 
capability.

                   SENSOR AND SURVEILLANCE TECHNOLOGY

    Question. Staff from CBP have informed us that they are currently 
working on a complete review of the sensor and surveillance technology 
currently deployed between the land ports of entry and are developing 
the project plan for the $64 million requested for this effort for 
fiscal year 2005. When will the plan for the fiscal year 2005 resources 
for Sensor and Surveillance Technology be made available to the 
Committee?
    Answer. The appropriations staff will receive a comprehensive 
briefing on our plans for this system and its operational goals that 
reflect the new anti-terrorism mission in the near future.
    Question. When can we expect to have all of the Northern and 
Southern border comprehensively covered by these systems? In fiscal 
year 2006, or beyond that?
    Answer. The appropriations staff will receive a comprehensive 
briefing on our plans for this system and its operational goals that 
reflect the new anti-terrorism mission in the near future.
    Question. What is the total cost of finishing the installation of 
all sensor technology?
    Answer. At this time we are formulating a new strategic plan based 
on the new anti-terrorism priority. More comprehensive information on 
future program direction and requirements will be provided in the near 
future.
    Question. The request for enhanced surveillance technology in this 
budget does not include any resources for additional law enforcement 
communications assistants. If the number of remote video surveillance 
systems is increasing, won't there be a need for more personnel to 
monitor the cameras?
    Answer. The ISIS program does not anticipate a need for additional 
law enforcement communications assistants; we expect that the 
successful integration of proven technologies will provide this real-
time intelligence directly to the agents in the field. This will reduce 
the need for law enforcement communications assistants to process this 
information.

                    AUTOMATED COMMERCIAL ENVIRONMENT

    Question. CBP has been working on modernizing the information 
technology systems that it uses for some time. The most significant 
project is the Automated Commercial Environment, known as ACE. CBP has 
been working closely to resolve problems with the prime integrator on 
ACE for the last year. Is the project back on track?
    Will the project be completed on time, or does the overall project 
timeline need to be revised and extended?
    Is the project maintaining its projected budget? Is the project 
continuing to experience cost overruns?
    Answer. CBP continues to aggressively work to put ACE capabilities 
to work on America's borders. The first deployment of ACE, completed in 
the winter 2003, focused on the technical infrastructure. It provided 
the foundation for a secure, reliable, high-speed access to critical 
CBP information. The second release of ACE, deployed in summer 2003, 
included an Enterprise Web portal that provides CBP Account Managers 
and selected importers controlled access to information such as the 
account's trade activity, and facilitates collaboration and 
communication among the various groups.
    Subsequent ACE capabilities will be fielded between June 2004 and 
the end of ACE development, which includes; Periodic Payment (Release 
3), e-Manifest Trucks (Release 4), ACE Selectivity Releases, End-to-End 
e-Processing (Release 6), and ACE Wrap-Up (Release 7).
    During the past year, U.S. Customs and Border Protection has worked 
very closely with the e-Customs Partnership (eCP) to address 
performance issues. This includes extensive analysis of the program to 
incorporate process, planning, and organizational enhancements to help 
contain costs and minimize schedule delays. The CBP efforts have also 
included frequent meetings and dialogue with senior executives from 
IBM, the leading eCP partner, to reinforce CBP high standards and 
expectations. The response from IBM leadership has been positive, and 
they have clearly indicated their commitment to the Automated 
Commercial Environment (ACE) project. Meetings with IBM executives 
continue monthly.
    Based on intensified CBP oversight, the current estimated cost 
variance for ACE is within 10 percent of the program baseline. Based on 
benchmarks for similarly complex programs, the program variances are 
within expected boundaries. The CBP continues to conduct cost 
containment activities and have made great strides in improving our 
ability to better forecast variances through Earned Value Management. 
We have incorporated lessons learned into ACE development, including 
improving the requirements definition process, and conducting more 
comprehensive system development gate reviews based on refined 
criteria.
    Though CBP is developing schedule scenarios that result in ACE 
completion dates ranging from 2009 to 2012, no formal change has been 
made to the project schedule. A revised project schedule will be 
published in the June 2004 update of the ACE Program Plan and in the 
fiscal year 2006 OMB Exhibit 300 for ACE after the results of the 
ongoing Global Business Blueprint (defining future CBP business 
processes and the technology requirements) are known.

                        AGRICULTURAL INSPECTIONS

    Question. How has CBP's ``Officer for the Future'' Plan been 
developed to include additional training for the Agriculture Quarantine 
Inspection function?
    Answer. Consistent with the Homeland Security Act and subsequent 
Memorandum of Agreement between USDA and DHS, it was agreed by both DHS 
and USDA that USDA would supervise and provide educational support and 
systems to ensure that DHS employees receive the training necessary to 
carry out the USDA functions transferred to DHS. As a result, USDA has 
linked with DHS in defining training module content specific to the 
agriculture quarantine inspection mission. More specifically:
  --The new hire CBP Officer will receive 12 hours of instruction in a 
        course titled Threat to Agriculture covering agriculture 
        fundamentals during the basic academy. This course is taught by 
        USDA instructors and covers: the importance of U.S. 
        agriculture; the impact of introduced pests; the agriculture 
        mission; statutory authorities; agricultural bioterrorism; 
        safeguarding; and agriculture secondary inspection referrals. 
        This training is mandatory.
  --Current CBP Inspectors will receive a CD-ROM version of the same 
        course, titled Agriculture Fundamentals, covering the same 
        material. This training is mandatory for CBP Inspectors and 
        when issued to the field, will be completed within 120 days.
  --A second component of mandatory agriculture quarantine inspection 
        training, titled Agriculture Procedures, will be developed over 
        the next few months by USDA and DHS. This mandatory course will 
        be taken by both the new hire CBP Officer and current CBP 
        Inspectors. USDA will direct course content and course delivery 
        will be conducted by DHS.
    Question. What specific actions are being taken to train Customs 
and Border Protection officers to detect potential illegal contraband 
that may pose a risk of introducing a foreign animal disease into the 
United States? Do you believe that this training is sufficient to 
inform officers about the threats and potential damage, economic and 
otherwise, to a huge sector of the U.S. economy that foreign animal 
diseases pose?
    Answer. All new hire CBP Officers are required to receive the USDA-
instructed course, Threats to Agriculture, while at the CBP Academy. 
Current CBP Inspectors are required to take the same course, in a CD-
ROM format. The course was designed by USDA and includes an overview of 
foreign animal diseases, including vectors, fomites, and impacts of the 
diseases. The next phase of training, yet to be developed by USDA and 
DHS, is the Agriculture Procedures course, which will provide more 
specific training in the Agriculture Quarantine Inspection arena, 
including additional training on foreign animal diseases.
    Question. How many CBP Officers have completed the 12 to 16 hours 
of Agriculture Quarantine Inspection training required to be a fully 
certified CBP officer?
    Answer. The number of hours of required (mandatory) training for 
the CBP Officers is still not determined as the second component of 
training, Agriculture Procedures, is not yet developed. The new hire 
CBP Officers receive a total of 12 hours of training conducted by USDA 
at the CBP Academy during their basic training. Current CBP Inspectors 
will receive the same course as the new hire, but it will be delivered 
in an electronic, CD-ROM format. All CBP Inspectors will be required to 
take this course within 120 days of field delivery. The intent of this 
training is to have the CBP non-agriculture workforce begin their 
agriculture curricula from the same starting point. From October 2003 
through April 13, 2004, a total of 823 CBP Officers have completed the 
12-hour portion at the CBP Academy.
    Question. What is the status of the former U.S. Department of 
Agriculture Inspectors that were transferred to the Department of 
Homeland Security in the middle of last year?
    Answer. The former USDA Agriculture Inspectors have been placed 
into a newly defined position description, the CBP Agriculture 
Specialist. This position is in the 401 series with a full performance 
level at the GS-11 level. The full performance level for the PPQ 
Officer was a GS-9. The new duties incorporated in that position 
description include:
  --serving as an expert and technical consultant in the areas of 
        inspection, intelligence, analysis, examination, and law 
        enforcement activities related to the importation of 
        agricultural/commercial commodities and conveyances;
  --applying a wide range of laws and regulations determining the 
        admissibility of agriculture commodities while preventing the 
        introduction of harmful pests, diseases, and potential agro-
        terrorism into the United States;
  --participating in special enforcement, targeting, or analysis teams 
        charged with collecting and analyzing information and 
        identifying high-risk targets;
  --conducting visual and physical inspections of cargo, conveyances, 
        or passenger baggage;
  --planning, conducting, and supervising remedial actions;
  --participating in pre-arrival risk analysis; and
  --serving as a training officer.

               Immigration and Customs Enforcement (ICE)

                          WORKSITE ENFORCEMENT

    Question. Please provide a chart with the total resources, FTE and 
dollars, devoted to worksite enforcement for each of fiscal years 1998-
2003.
    Answer. The worksite enforcement budget has always been part of the 
base budget and has not been separately tracked. The FTE are provided 
in the chart below.

----------------------------------------------------------------------------------------------------------------
           Fiscal year                 1999            2000            2001            2002            2003
----------------------------------------------------------------------------------------------------------------
FTE Source: PAS.................             278             202             134             152             105
----------------------------------------------------------------------------------------------------------------

                           VISA SECURITY UNIT

    Question. The President's budget requests an increase of $10 
million to support the Visa Security Unit. According to the budget, 
this unit was established in fiscal year 2003, but is receiving its 
current year funding from outside of ICE. Where is the funding for the 
Visa Security Unit coming from for fiscal year 2004?
    Answer. The Visa Security Program for fiscal year 2004 was an 
unfunded mandate and ICE resources were used for the current TDY 
deployment to Saudi Arabia of Visa Security Officers. The BTS 
Directorate will be seeking reprogramming authority to address funding 
requirements for sustainment of the Saudi deployment and expansion to 
four other countries in fiscal year 2004. Financial support for this 
Presidential priority will be from ICE and CBP operational funding.
    Question. How many personnel have been hired for this program to 
date?
    Answer. No staff have been hired for this program to date. The 
program has been operating with detailees at headquarters and in Saudi 
Arabia.
    Question. What is the expected staffing level for end of fiscal 
year 2004?
    Answer. The Saudi deployment would be 6 officers and ICE 
Headquarters would have 10 at the end of fiscal year 2004.
    Question. How many of the personnel in this program will be 
stationed overseas?
    Answer. As of April 30, 2004, there are 4 Visa Security Officers in 
Saudi Arabia. New rotations are planned for the departing officers.
    Question. What performance measures have been developed to gauge 
the success of this program?
    Answer. One of the key issues in the development of the Visa 
Security Program is assuring that measures can be identified that 
properly attribute the added value of DHS in the visa process. Measures 
include the following: number of visa applications reviewed by DHS 
officers; number referred for investigation and further analysis; and 
numbers approved and denied in consultation with the Department of 
State.

             REDIRECTING THE BASE--OFFICE OF INVESTIGATIONS

    Question. The President's Budget proposes important changes to the 
funding of the Office of Investigations within ICE. The budget proposes 
to replace $25 million in funding from the Examinations Fee Account 
that currently funds benefit fraud with appropriated dollars. The 
budget also proposes moving the responsibility for the Institutional 
Removal Program from the Office of Investigations to the Detention and 
Removals Program, but leaves the base funding within the Office of 
Investigations. Why should appropriated dollars replace mandatory 
dollars for benefit fraud?
    Answer. The appropriated funds are requested for benefit fraud 
investigations. The shift will allow the examinations fee to be used 
solely for immigration services and provide appropriated resources for 
enforcement activities. With respect to the institutional removal 
program, the demands for Detention and Removal have increased 
substantially and been met by investigators, which has had a negative 
impact on the investigation program. The request provides less 
expensive and more appropriate personnel resources to the Detention and 
Removal Program, while at the same time preserving the original intent 
and capacity requirements for the Office of Investigations.
    Question. Will this shift increase the total resources devoted to 
benefit fraud?
    Answer. The approval of $25 million in appropriated funds would not 
increase the resources devoted to benefits fraud but simply replace 
funds previously provided from the Examinations Fee. These funds 
provide the resources for approximately 140 existing ICE positions and 
operational expenses. These resources enable ICE to maintain its 
investigations of benefit fraud organizations and egregious fraud 
violators.
    Question. Under the budget proposal, the base funding for the 
Institutional Removal Program remains within the Office of 
Investigations. What investigative priorities will these resources be 
redirected to?
    Answer. The fiscal year 2005 request is a result of a planned 
realignment of the Institutional Removal Program (IRP) from OI to DRO. 
Managing and executing the program in one office will prove more 
effective and productive than in its current bifurcated state. Special 
Agents within OI that will be freed up from IRP work they currently 
perform will be able to dedicate much-needed investigative hours to 
public safety and national security cases. There are renewed demands 
for investigation of non-incarcerated criminal aliens and violent gang 
enforcement.

                     LAW ENFORCEMENT SUPPORT CENTER

    Question. What are the base resources, FTE and dollars, for the Law 
Enforcement Support Center (LESC) for fiscal year 2004? What are the 
requested resources for the LESC for fiscal year 2005?
    Answer. General expense funding for fiscal year 2004 is budgeted at 
$1.9 million, which includes $869,000 from the War Supplemental. In 
fiscal year 2004, there are 287 positions authorized, of which 9 are 
currently vacant. No increases are anticipated for fiscal year 2005.
    Question. It is the Committee's understanding that there are 
approximately $5 million in facility improvements that are needed at 
the LESC. Is this accurate? If, yes please provide the Committee with 
an itemized list for the $5 million.
    Answer. Due to increased law enforcement inquiry workload and the 
projected growth in the NCIC program, the LESC submitted an out-of-
cycle space request for 80,309 additional sq. ft of expanded facility 
space at the LESC's present location in January 2002. That request was 
subsequently approved and the one-time costs of $3.7 million associated 
with expansion were approved and transferred to GSA.
    Since the submission of the space request in January 2002, the 
LESC's core workload has grown from 240,000 queries to a projected 
744,000 queries per year in 2004. Additionally since establishment of 
DHS and ICE, the LESC has taken on new, critical law enforcement tasks. 
This growth combined with new tasks exceeded the projected growth that 
was the basis of the original space request. Additionally, once the 
80,000-sq. ft. expansion is completed, the current LESC site would not 
allow for any additional facility expansion. The constraints of the 
current site would eventually drive the LESC into a multi-site 
operation to continue to expand workload and mission. For these and 
other reasons, including physical security concerns, it was determined 
not to proceed with the 80,000 sq. ft. addition, but instead pursue a 
larger, more secure site that would not limit future expansion or the 
LESC mission and ability to perform its important law enforcement work.
    The $3.7 million transferred to GSA to fund the one-time costs 
associated with the addition is on account with GSA for 5 years and can 
be used at another LESC site or facility. That amount is in addition to 
approximately $1.5 million that was previously on account with GSA for 
internal reconfigurations at the current site for a total of 
approximately $5.2 million that is available for LESC facility 
expansion and improvement.
    The LESC has completed necessary improvements at the current site. 
Planning for a larger facility that will meet all of the current and 
future physical infrastructure needs of the LESC's expanding workload 
and mission is ongoing.

                         DETENTION AND REMOVALS

    Question. The budget requests $5 million for additional detention 
bedspace. What percentage increase in additional bedspace will this 
provide?
    Answer. Approximately 150 beds or less than 1 percent of current 
bed space.
    Question. Given the increased level of resources that the budget 
proposes to devote to enforcement, as well as the increased vigilance 
that US VISIT allows at ports of entry, are enough resources being put 
towards detention?
    Answer. DRO is currently funded for approximately 20,000 beds.
    Question. Will ICE be working with the U.S. Department of Justice, 
Detention Trustee, where appropriate, in the management of the 
detention program? Has a Memorandum of Understanding been signed with 
the Department of Justice?
    Answer. Yes, DRO is working with DOJ, Office of the Federal 
Detention Trustee (OFDT) in the management of the detention program. A 
memorandum of understanding was signed with the Justice Department on 
1/28/2004.
    Question. How is the relationship with the Department of Justice 
structured? Who will be responsible for procurement and contracting?
    Answer. ICE and the OFDT signed an Inter-Agency Agreement on 1/28/
2004. The agreement establishes OFDT as a procurement service provider 
to ICE for non-Federal detention requirements. Since establishment of 
the agreement, ICE and OFDT have made substantial progress toward fully 
implementing the service provider relationship. ICE has identified 5 
non-Federal secure detention requirements for procurement action by 
OFDT and both entities are cooperating to establish a schedule for the 
transition of ICE inter-governmental service agreements and 
administration of the non-Federal detention inspection program to OFDT.

                          FUGITIVE OPERATIONS

    Question. The President's budget requests an increase of $50 
million to create an additional 30 fugitive operations teams. It is 
estimated that each of these teams will be able to apprehend and remove 
up to 500 fugitive aliens a year. Of the approximately 400,000 
absconders, how are you prioritizing which fugitives you pursue first?
    Answer. National Security and criminal cases are the highest 
priority, then cases that have a higher probability of removal, and 
other non-criminal aliens. There are several initiatives being 
implemented to help identify and locate our absconder population. ICE 
has implemented an interface between ICE and CBP systems that 
identifies fugitives when they return to the United States. Inspectors 
will now be alerted when an ``absconder'' is identified at a port of 
entry.
    DRO entered into an agreement with Citizenship and Immigration 
Services whereby DRO is notified when an alien applies for benefits and 
is identified as an absconder. In these cases, CIS provides us with the 
most current information such as home address.
    Question. Based on the information provided in the budget, once 
additional fugitive operations teams are fully deployed, ICE will be 
able to locate and remove 23,000 aliens a year. Your testimony states 
that the national Fugitive Operations program strategy calls for 
eliminating the backlog of absconders in 6 years. Removal of 23,000 
aliens a year for 6 years does not quite add up to 400,000. How will 
ICE accomplish this goal?
    Answer. Our strategic plan ``Endgame'' calls for the elimination of 
the fugitive backlog within 10 years based on significant increases in 
the fugitive program. This will require 300 teams over that time 
period.
    We are also implementing new initiatives targeting data integrity. 
Through data dumps and systems analysis we are removing cases that are 
incorrectly identified as fugitives (Self Deport, Benefits granted, 
etc.)

                       ALTERNATIVES TO DETENTION

    Question. What are the results so far of the Alternatives to 
Detention program?
    Answer. DRO began utilizing alternatives to detention, or community 
based programs, in August 2002, with the opening of a community based 
residential program for 250 non-criminal females that were previously 
held in a local jail in South Florida.
    DRO began testing the applicability of electronic monitoring 
devices (EMDs) in May 2003 in six Field Offices (Anchorage, Miami, 
Detroit, Portland, Seattle, & Chicago). Traditional EMDs have been 
utilized with just over 100 illegal aliens as an alternative to secure 
detention. Supervision of these cases was initially conducted as a 
collateral duty and was found to be very staff intensive. Efforts are 
underway to integrate the traditional EMD house arrest program into the 
Intensive Supervision Appearance Program (see below). Telephonic or 
administrative reporting technology has been utilized as an automated 
reporting device for just over 500 aliens that are living in the 
community on Orders of Supervision. This technology has the potential 
to assist DRO in effective case management. A summary report on the use 
of these two technologies will be completed after 1 year of the pilot. 
Additionally, DRO and the Federal Protective Service (FPS) are 
exploring the possibility of utilizing FPS for monitoring of the EMD 
program technology, currently being provided through a contract with an 
EMD provider.
    Pursuant to the Zadvydas v. Davis Supreme Court decision, there are 
presently a significant number of Post Order Custody Review (POCR) 
cases that are eligible for release, but are in need of rehabilitation 
programs for substance abuse, mental health, anger management, sex 
offender, etc. In September 2003, as an Alternative to Detention 
initiative, a Condition of Release Program for POCR cases was developed 
through our existing reimbursement agreement with the Division of 
Immigration Health Services (DIHS). Through this Program, DIHS will 
review POCR cases, and identify rehabilitative programs. As of March 
2004, 53 POCR cases have been forwarded to DIHS for review and program 
placement.
    DRO recently announced the contract award selection of Behavioral 
Interventions, Inc. (BI) of Boulder Colorado for the provision of 
community-based supervision of 200 aliens in each of the following 
eight Field Offices: Baltimore, Philadelphia, Miami, St. Paul, Denver, 
Kansas City, San Francisco, and Portland. The program is designed to 
supervise aliens that can be released into the community to ensure 
their attendance at Immigration Court hearings and compliance with 
Court orders.
    The contractor will provide Intensive Supervision Appearance 
Programs (ISAP) services for 200 aliens in the initial eight sites 
during fiscal year 2005. ICE plans to expand the initial capacity to 
400, and to add one additional site with a capacity of 200.
    Question. What is necessary, besides just more funding, to see a 
larger scale implementation of this alternatives program?
    Answer. While community based sanctions has been utilized for over 
30 years by the criminal justice system with proven results, there has 
been very little application or research on these types of services for 
illegal aliens. Staff, program research and development resources are 
necessary to determine if these pilot programs would be effective with 
illegal aliens and to develop replication models for expansion.

                          FEDERAL AIR MARSHALS

    Question. The budget request for the Federal Air Marshal Program 
(FAMS) does not include any funds to provide pay raises, within-grade 
increases, or any other adjustments to base in fiscal year 2005. What 
resources are necessary to provide the FAMS with the same adjustments 
to base as the other components within ICE as well as the Department of 
Homeland Security? Please provide an itemized list of the necessary 
adjustments to base for the FAMS.
    Answer. The FAMS and DHS are working to determine how best to 
manage FAMS' resources. FAMS is developing performance-based measures 
that will determine the optimal number of Federal air marshals and 
resources to provide the necessary aviation security.
    Question. What impact will the fiscal year 2005 President's budget 
request have on staffing within FAMS as compared to fiscal year 2004?
    Answer. The FAMS will adjust its staffing as necessary to meet its 
highest priority missions with available resources. In doing so, the 
FAMS will consider other enhancements within the aviation security 
system.
    Question. Previously, there has been a problem with retention of 
FAMS. What is the current attrition rate as compared to that in 
previous years?
    Answer. Since the start of the fiscal year 2004, Federal Air 
Marshal attrition has been roughly 9.4 employees per pay period. This 
attrition rate is down significantly from the fiscal year 2003 level, 
when the Service's attrition averaged approximately 33 per month. In 
turn, the fiscal year 2003 rate was well below the roughly 58 Federal 
Air Marshals lost per month during the last quarter of fiscal year 
2002. Although the FAMS' attrition rate remains in flux, the reduced 
number of employees leaving the program is attributed to the progress 
made towards completing the FAMS' stand up, stabilizing the workforce, 
implementing quality of work life initiatives, and otherwise working to 
improve procedures and management systems to encourage employee 
retention.

           AIR AND MARINE OPERATIONS--NORTHERN BORDER AIRWING

    Question. The Air and Marine Operations program has been stretched 
very thin for the last 2 years. Long-term repetitive details of 
personnel and assets are being used to protect the Northern Border and 
the National Capital Region. The appropriation for fiscal year 2004 
includes resources for the establishment of a permanent Northern Border 
Airwing. What is the status of establishing the permanent Northern 
Border airwing funded for fiscal year 2004?
    Answer. The fiscal year 2003 War Supplemental provided $20.5 
million to launch the Bellingham Air Branch, the first of five Northern 
Border Branches. Planned allocation is as follows: $2.5 million for 
personnel transfers, $12.6 million for medium lift helicopter 
acquisition and $6.6 million for multi-role enforcement aircraft. 
Staffing will be provided through a combination of new hires and the 
transfer of experienced personnel from other AMO field locations.
    In fiscal year 2004, AMO received $35.2 million in Operations and 
Maintenance (O&M) funding to launch AMO's Northern Border Branch in 
Plattsburgh, NY. Planned allocation is as follows: $10 million for 
medium lift helicopter acquisition and $6.6 million for multi-role 
enforcement aircraft, $9.7 million for facility and $2.7 million for 
aircraft spares. An additional $5.4 million was appropriated in 
Salaries and Expenses funding to cover the cost of 36 personnel.
    Plattsburgh and Bellingham each will be equipped with three 
aircraft, including one Multi-Role Enforcement Aircraft (Pilatus PC-12 
fixed-wing), one Medium Lift Helicopter and one Light Enforcement 
Helicopter.
    The President's fiscal year 2005 budget includes $35.2 million to 
launch the third Northern Border Branch.
  --The funds from these two appropriations were combined to purchase 
        one medium lift helicopter.
    Question. How has the recently announced hiring freeze affected the 
Northern Border airwing?
    Answer. The recently announced hiring freeze did not affect our 
build-up of the Northern Border air wing.
    Question. When will the aircraft and other equipment be procured?
    Answer. The procurement process has already begun for the aircraft 
and other equipment. The four AS-350 A-Star helicopters are scheduled 
to be delivered during the June-December 2004 timeframe. Taking into 
consideration the 120-day communication and sensor installation 
process, the first operational helicopter will be delivered in October 
2004 with follow-on delivery of the remaining 3 helicopters at 1 every 
60 days.
    The first PC-12 (Multi-Role Enforcement Aircraft) is scheduled for 
delivery during May 2004. The second aircraft is scheduled for delivery 
October 2004. Both aircraft will be configured with the Wescam 
Integrated Situation Awareness Display System (ISADS) electro optic/
infrared.
    Question. Even with the establishment of this airwing, to what 
extent will ICE still have to rely on detailees to cover the Northern 
Border and the National Capital Region?
    Answer. The Northern Border will have to rely on detailee 
augmentation during surge operations or designated heightened alert 
postures.
    We are currently maintaining the NCR Branch primarily through the 
use of rotational detailee assignments. We are requiring aviation 
personnel to travel on a temporary duty status, as well as, the 
redeployment of aircraft from southern border locations to the 
Washington, D.C. area in order to provide on-going mission critical 
support. All costs for that operation have been covered using Air and 
Marine Operations fiscal year 2004 Operations and Maintenance funding.

                            LONG-RANGE RADAR

    Question. What is the total amount that the Federal Aviation 
Administration (FAA) has in its fiscal year 2004 budget for operating 
the Long-Range radar system?
    Answer. Questions regarding FAA's distinct budget line items should 
be addressed to the FAA.
    Question. How much is being requested by other agencies for fiscal 
year 2005 for the Long-Range radar system?
    Answer. The Long-Range Radar (LRR) funding, a new fiscal year 2005 
line item to help fund the FAA radar system that feeds information to 
the AMOC, is a $12.5 million increase to the AMO base, ``other 
services'' line item.
    Question. Why are new resources being requested in the fiscal year 
2005 budget to allow the Department to pay the FAA for this service, as 
opposed to a transfer from the FAA budget?
    Answer. FAA has indicated recently that to continue to maintain and 
operate this system as mandated in past Federal legislation, it would 
need to start charging user agencies for the data.

                     TETHERED AEROSTAT RADAR SYSTEM

    Question. The information provided by the Tethered Aerostat Radar 
System (TARS), known as TARS, is a critical component in the 
Department's efforts to interdict illicit air traffickers. Do you 
believe that the Department of the Defense is providing sufficient 
support to the TARS program to enable the Air and Marine Program to 
effectively carry out its mission?
    Answer. The TARS program has declined from 14 operational sites to 
8 operational sites (Lajas, Puerto Rico, is due back on-line in May 
2004). Questions regarding costs for operating these sites should be 
addressed to DOD, which maintains and operates the system. AMO is an 
end user of the data provided by these valuable national assets.
    Question. Is the Department of Homeland Security working with the 
Department of Defense to ensure proper maintenance and upgrades of 
TARS?
    Answer. AMO is currently working closely with all the agencies 
involved in the counter-narcotics and border security missions, 
including USIC, ONDCP, DOD, and DHS to communicate the requirements for 
the continued use of the TARS. Recent close coordination and meetings 
between the Department of Homeland Security and the Deputy Assistant of 
Defense for Counter Narcotics have resulted in frank and open 
discussions related to TARS. The dialogue is productive and ongoing at 
this time, and DHS' requirements have been acknowledged by DOD.
    Question. Does ICE have the necessary expertise and personnel to 
take over the management and maintenance of the TARS program?
    Answer. TARS is now under the purview of DOD and should be operated 
in line with DHS operational needs.
    Question. What is the estimated funding needed for ICE to assume 
management of the TARS program?
    Answer. TARS is now under the purview of DOD and should be operated 
in line with DHS operational needs.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                  Citizenship and Immigration Services

                 IMPACT OF THE PRESIDENT'S REFORM PLAN

    Question. How many new petitions do you expect the President's 
Immigration Reform Plan to generate?
    Answer. This information will be available once Congress has 
drafted the legislation and the specifics are known.

                   MACHINE-READABLE PASSPORT DEADLINE

    Background: The Enhanced Border Security and Visa Entry Reform Act 
of 2002, which President Bush signed into law on May 14, 2002, 
established October 26, 2004, as the deadline by which the 27 existing 
``visa waiver'' countries must have machine readable visas in order for 
their citizens to enter the United States. Last week, Secretaries Ridge 
and Powell sent a letter to various Congressional leaders urging that 
the October 26, 2004 deadline be pushed back to December, 2006. The 
countries which would be affected by this law have had nearly 2 years 
to comply with this requirement. This is not something new which we 
just pulled out of thin air.
    I understand that certain lobbying organizations, such as the 
Travel Industry Association of America, have praised this proposed 
delay in the deadline. However, I predicted this outcome when the 
Enhanced Border Security Act was on the Senate floor.
    We know that terrorists have attempted to gain entry to the United 
States through the visa waiver program. The December 2001 ``shoe 
bomber'', Richard Reid, benefited from attempting to come to the United 
States from a ``visa waiver'' country. We know that tens of thousands 
of passports from visa waiver countries have been stolen in recent 
years and sold on the black market. We know that machine-readable 
passports can help to filter potential terrorists who try to enter the 
United States through the visa waiver program. I do not want to 
discourage legitimate tourists and other travelers from coming to visit 
our country, but border security must remain one of the Department's 
paramount priorities. The law was passed nearly 2 years ago. There has 
been ample time for the Administration to work with the visa waiver 
countries in meeting this deadline. The Administration's job was to get 
these countries to meet the requirements of the law.
    Question. How is it in the interest of our domestic security to 
push back even further the deadline requiring machine-readable 
passports from visa waiver countries? What steps did the Administration 
take over the last 2 years to ensure that visa waiver countries would 
be able to meet the deadline?
    Answer: The EBSVERA requires that beginning on October 26, 2004, 
Visa Waiver Program (VWP) countries must certify that they have a 
program in place to issue their nationals machine-readable passports 
that are tamper-resistant and incorporate biometric and document 
authentication identifiers that comply with International Civil 
Aviation Organization (ICAO) standards in order to continue to 
participate in the VWP. The law also requires that visitors coming to 
the United States under the VWP present machine-readable, tamper-
resistant passports that incorporate biometric and document 
authentication identifiers, if the passports is issued on or after 
October 26, 2004.
    While most, if not all, VWP countries will be able to certify that 
they have a program in place to issue biometric passports by the 
October deadline, very few, if any, VWP countries will actually be able 
to begin issuing biometric passports by that date. The issue is not 
lack of will or commitment to achieving the standard by these 
countries, but rather challenging scientific and technical issues. For 
the same challenging technical reasons, DHS is also not currently in a 
position to acquire and deploy equipment and software to biometrically 
compare and authenticate these documents. It is not in any country's 
interest, including our domestic security interest, to produce or 
accept biometric passports with questionable standards and an immature 
biometric technology.
    DHS is encouraged by the progress that has been made by VWP 
countries to meet the emerging ICAO standards. We believe that by the 
fall of 2006, the technology required to implement successfully a 
security system based on the ICAO standards will be much more settled 
and allow DHS to derive the security benefits envisioned when the 
original EBSVERA was enacted.
    As you know, changing the deadlines requires Congressional action, 
and a memorandum concerning this issue was forwarded to Congress signed 
by Secretaries Ridge and Powell requesting an extension of the 
deadlines until November 30, 2006. The Secretaries also testified 
before Congress on this issue on April 21, 2004.

           IMMIGRATION PROCESSING FEES AND THE BACKLOG (CIS)

    Question. The number of immigrants awaiting decisions from CIS--
including citizenship and permanent resident status--increased 59 
percent in the past 3 years. Despite $160 million appropriated in the 
past 2 years to remedy the logjam, nearly 6.2 million applications were 
pending at the end of September, according to a General Accounting 
Office report. The GAO probe revealed that fees charged by Citizenship 
and Immigrations Services are insufficient to cover the cost of 
processing applications--in part due to expanding security costs. 
According to the GAO, ``CIS knows neither the cost to process new 
applications nor the cost to complete pending applications,'' the 
report said.
    In anticipation of President Bush's immigration overhaul, the GAO 
recommended that Homeland Security Secretary Ridge direct CIS to study 
the fees and determine how much money will be needed to remedy the 
backlog. In an August interview with Government Executive magazine, 
Director Aguirre, you vowed to significantly reduce wait times and 
application backlogs for immigration benefits by increasing the 
agency's efficiency through new information technology investments.
    Based on the funding proposed by the President, how much of the 
backlog will CIS be able to eliminate in 2005?
    Answer. Information on the current backlog and USCIS plans to 
eliminate it will be provided to Congress in the coming months in a 
revised Backlog Elimination Plan. USCIS will meet the President's goals 
of eliminating the backlog and achieving a 6-month processing standard 
for all immigration applications by 2006.
    Question. I understand that in order to meet the President's 
backlog reduction goal by fiscal year 2006, your agency must achieve a 
42 percent increase in productivity. Two questions--First, what 
specific steps are you taking to produce 42 percent increase in 
productivity? Second, it is essential that you ensure that security 
background checks are done correctly. If a 42 percent productivity 
improvement is not accomplished, what will the impact be on making sure 
that security background checks are completed?
    Answer. Information on the current backlog and USCIS plans to 
eliminate it will be provided to Congress in the coming months in a 
revised Backlog Elimination Plan. USCIS will meet the President's goals 
of eliminating the backlog and achieving a 6-month processing standard 
for all immigration applications by 2006.
    USCIS will continue to explore ways of improving the efficiency of 
our national security check processes, but will not place backlog 
elimination requirements above national security requirements. Backlog 
elimination will be achieved through efficiency efforts, through 
development of information technology programs that automate manual 
processes, and from reengineering processes to reduce adjudication time 
without sacrificing the integrity of the adjudicative process.

                    PRESIDENT'S IMMIGRATION PROPOSAL

    Question. What impact would the President's immigration proposal, 
if enacted, have on the immigration application backlog and on efforts 
to reduce the backlog? Would the temporary work permits envisioned in 
the President's plan be issued before or after the benefits sought by 
the 6.2 million applications in the backlog? What is the plan for 
insuring that the backlog reduction program does not increase benefits 
fraud by encouraging the rubber-stamping of applications?
    Answer. USCIS will need to review specific legislative proposals 
before it can comment on the potential impact on USCIS' capabilities.

   Citizenship and Immigration Services and Immigration and Customs 
                              Enforcement

                             BENEFITS FRAUD

    Question. Who is responsible for investigating benefits fraud? Both 
CIS and ICE have asked for funding to investigate benefits fraud, but 
neither seems to know which is actually responsible.
    Answer. A January 2002 General Accounting Office (GAO) Report-02-66 
entitled ``Immigration Benefit Fraud--Focused Approach is Needed to 
Address Problems'' raised concerns about identifying immigration fraud. 
As a part of the USCIS efforts to reengineer its business processes and 
eliminate the backlog, the agency is also looking closely at ways to 
identify and decrease benefits fraud. Immigration and Customs 
Enforcement will continue to play a vital role in investigating 
suspicious cases and/or prosecuting the participants in a scheme in 
conjunction with Federal, state, and local prosecutors.
    ICE will continue to perform those enforcement duties enumerated in 
the OPM classification standards for an 1811 occupational series 
criminal investigator.

               IMMIGRATION REFORM AND CONTROL ACT (ICRA)

    Question. What lessons from the 1986 Immigration Reform and Control 
Act (IRCA) legalization programs have been applied to the President's 
Immigration Reform Plan?
    Answer. The IRCA planning teams developed a strategy that enabled 
the Service to quickly expand its adjudicative capacity through the 
establishment of temporary regional processing centers and local 
interview offices. Temporary employees were hired and trained 
specifically to adjudicate that workload. INS reassigned experienced 
executives and managers at all levels to oversee operations, but relied 
heavily on the skills or retired executives and managers (reemployed 
annuitants). This strategy enabled the Service to continue its efforts 
to process the normal casework plus handle the surge in workload caused 
by the passage of IRCA.
    Key components of IRCA were: the development of the regional 
processing center concept, development of a modular office plan for 
field interviewing sites, automated data systems to record 
transactions, and receipt of authority from Congress to expedite 
certain leasing and contracting requirements. In addition, INS received 
authority to reemploy annuitants without salary offset. The reemployed 
annuitant program was absolutely critical to the overall success of the 
program.
    INS worked closely with Congress prior to the passage of IRCA, and 
that cooperation was also instrumental in INS being able to meet the 
requirements for the legalization provisions of IRCA.
    Question. What were the total costs of IRCA's two legalization 
programs (please break down by main components) and how much revenue 
was generated in total by the fees charged to process IRCA 
applications?
    Answer. The IRCA program was totally fee-funded. Therefore, the 
number of applications filed and their respective fees determine the 
total cost of the program. Our analysis to date of the program has 
determined a total application workload of approximately 2.7 million, 
with costs/fee revenues totaling $245 million. The breakdown of this 
program is as follows: (1) Application for Permanent Residency (2.68 
million applications/$241 million), and (2) Application for Status as a 
Temporary Resident (6,700 applications/$3.7 million).
    Question. How much will the President's Immigration Reform Plan 
cost, and what components comprise the total cost?
    Answer. It is expected that costs associated with the USCIS 
workload would be covered with fees like all other application and 
petition processing.
    Question. How many full-time equivalent (FTE) personnel will be 
necessary to implement the President's Immigration Reform Plan? What 
level of fees or additional appropriations would be necessary to hire 
those additional FTEs without further increasing the deficit?
    Answer. This information will be available once Congress has 
drafted the legislation and the specifics are known.

                         DATA BETWEEN 1996-2003

    Question. Please provide a comparison of the size of the fugitive 
alien population from 1996-2003. Please also provide the same 
information regarding the backlog, as well as the backlog of matters 
pending in the Immigration Court for the same period.
    Answer. Below are the estimates of the number of fugitive aliens 
based on the year that they received their order of removal, based on 
information in the Deportable Alien Control System (DACS).

------------------------------------------------------------------------
                       Fiscal year                          Absconders
------------------------------------------------------------------------
1996....................................................         130,296
1997....................................................         157,220
1998....................................................         186,944
1999....................................................         214,580
2000....................................................         239,656
2001....................................................         265,427
2002....................................................         295,336
2003....................................................         320,364
------------------------------------------------------------------------

    ICE defers to the Executive Office of Immigration Review (EOIR) to 
respond to your question regarding the number of backlogs of matters 
pending in the Immigration Court for the same period of time.

                     Customs and Border Protection

                    TERRORIST WATCH LIST INTEGRATION

    Question. One of the most important items on the Department's list 
of unfinished business is the integration of terrorist watch lists. 
Earlier this year, Secretary Ridge said the list would be fully 
functional ``by mid-May.'' Because the agencies you oversee--Customs 
and Border Protection and Immigration and Customs Enforcement--rely 
daily on accurate information about the potential threats to this 
country posed by individuals on these lists, I would expect that the 
integration of this information would be a priority.
    It is not clear to me whether the integration of the watch lists is 
an FBI responsibility or that of the Department. Is it a DHS 
responsibility or an FBI responsibility to integrate the watch lists 
and when do you expect the integration to be complete?
    Answer. Terrorist Watch Lists are the responsibility of the 
Terrorist Screening Center (TSC), and the Terrorist Threat Integration 
Center (TTIC). CBP submits names for watch listing to the TTIC through 
CBP's Office of Intelligence. Since the CIA, FBI and DHS have joint 
responsibility for the TTIC (TSC is a subsidiary of the TTIC), the 
responsibility lies with the TTIC as a whole. Currently, the Director 
of the CIA oversees that operation of the TTIC.

                     CONTAINER SECURITY INITIATIVE

    Question. An additional $25 million is requested for fiscal year 
2005 to expand the Container Security Initiative. This innovative 
program has placed CBP inspectors at numerous overseas seaports to work 
with their host country counterparts at targeting potentially dangerous 
containers for enhanced inspection prior to being loaded on U.S.-bound 
ships.
    In December, Subcommittee staff were able to see this program in 
action in Asia. They spoke with the inspectors, discussed their working 
relationships with the host country inspectors, and witnessed both the 
physical inspection of individual containers. The U.S. inspectors were 
quite enthusiastic about performing their duties. But both they and the 
foreign counterparts expressed concern that our personnel were being 
rotated through the countries on a temporary basis, as opposed to being 
in country for extended tours of duty. In part because of cultural 
differences in various countries, they stressed the importance of 
remaining overseas to strengthen working relationships with the foreign 
customs officials rather than starting from scratch with each new team 
of U.S. inspectors.
    Does your budget request provide for longer tours of duty for CSI 
team members? Are you actively making CSI tours a career ``enhancer'' 
for your personnel--most of whom are not oriented to working overseas? 
Are your people receiving the necessary support from U.S. ambassadors 
in establishing and expanding the CSI presence overseas? Also, what 
would be costs of fully funding all Phase II CSI ports?
    Answer. Our budget includes funding for permanent overseas 
positions. We are currently using TDY (temporary duty) personnel 
overseas but have initiated the process for obtaining State Department 
approval for the permanent positions. The embassy is providing the 
necessary support to enable CSI to establish and expand its presence 
overseas. That is evidenced by the State Dept's willingness to approve 
NSDD 38's to establish permanent positions in the respective countries. 
The NSDD38 (National Security Decision Directive) requests are 
currently being processed at DHS and will be forwarded to Department of 
State for final approval. We have also developed a comprehensive 
training program for the permanent employees, which include 
operational, administrative and cultural training. We are working 
closely with the overseas posts to transition our temporary staff to 
permanent staff.
    Costs for funding the future ports are impacted by the opening date 
of the port, infrastructure requirement, staffing and equipment, etc. 
Our projected budget for fiscal year 2005 is sufficient to cover the 
costs of our expansion ports that will open in fiscal year 2005.

                 OVERSEAS AIRLINE PASSENGER INSPECTION

    Question. There have been press reports that your agency is 
considering placing CBP inspectors at certain targeted overseas 
airports to pre-screen passengers before they board flights to the 
United States. I understand that the goal is to prevent potential 
terrorists from boarding a plane and either hijacking it or blowing it 
up. That is certainly a goal we all share.
    However, because they screen passengers who board U.S.-originated 
flights, is this not more properly a Transportation Security 
Administration role? Will you be screening all passengers or only those 
holding foreign passports?
    If you are accessing passenger databases, which databases are they 
and what privacy protections are you planning on implementing? Also, 
when will Congress be notified of this program? We've only see reports 
on it in the media.
    Answer. U.S. Customs and Border Protection (CBP) Officers will be 
deployed overseas to perform a tactical function, the goal of which is 
to prevent the onward movement of people identified as national 
security threats. This program will replace the legacy INS Immigration 
Control Officer (ICO) Program. The Immigration Security Initiative 
(ISI) will also disrupt or deter the transportation of inadmissible 
aliens and the proliferation of fraudulent documents. In the course of 
these duties, the ISI will provide information to host countries, or 
appropriate authorities regarding travelers of interest.
    Although these efforts can result in the development of 
intelligence information, the primary function of the ISI is to use 
current targeting and passenger analysis information provided by the 
National Targeting Center (NTC) and the Forensic Document Lab (FDL) to 
focus on high-risk persons. These efforts may lead to the apprehension 
and prosecution of criminals and persons of national security interest 
by host countries, the disruption of attempts to smuggle aliens and 
contraband, and the disruption of attempts to enter the United States 
with fraudulent documents.
    When an ISI Officer identifies a traveler that should be prevented 
from boarding a flight to the United States, the ISI will work with the 
host country's immigration and/or customs control authority and the air 
carrier who will take the appropriate action to prevent the person from 
boarding the flight. The ISI will not have any authority in the host 
country to take such action. Information provided to the host country 
on these types of individuals will be vetted through the appropriate 
authorities before any information is released to the host country.
    Both TSA and CBP perform important functions in ensuring the safety 
and security of the United States. However, TSA does not have the 
authority CBP holds to perform the particular targeting function of ISI 
in another country. ISI is the tool that we propose to use in deterring 
individuals that may pose a threat to the safety and security of the 
United States from boarding U.S.-bound flights, not U.S.-originated 
flights.
    In fiscal year 2004, CBP will initiate a pilot of the ISI program 
in Warsaw, Poland. We estimate the cost to be approximately $500K for 
each ISI site. Once the pilot is evaluated we'll have better 
information regarding the future of the initiative.

                          ISIS BORDER COVERAGE

    Question. How much of the northern border and how much of the 
southern border is covered by ISIS?
    Answer: Currently the ISIS program covers the following:
  --Northern land border: 99 miles
  --Southern land border: 290.5 miles
  --Total: 389.5 miles

                         BORDER PATROL STAFFING

    Question. Have the USA Patriot Act's requirements for Border Patrol 
staffing on the Northern Border been met? If so, when was this goal 
achieved? Was this achieved through the transfer, on either a temporary 
or permanent basis, of personnel from the Southwest Border or 
elsewhere? If so, does your budget request provide sufficient funds to 
restore staffing at those locations to their authorized levels? If not, 
what additional funds and FTEs are required to reach that goal?
    Answer. The number of agents on the northern border had been 
increased to 1,006 as of the end of December 2003. This is triple the 
number of agents that were assigned along the northern border prior to 
9/11 and meets the Patriot Act's requirement for staffing on the 
Northern border. The number of agents currently assigned to the 
northern border remains at 1,006.
    The agent increase was accomplished through the permanent 
relocation of experienced agents from across the nine southern border 
sector areas. The CBP budget has sufficient funds to backfill the agent 
vacancies through a combination of new agent hires and the relocation 
of agents among the southern border areas. Additional funds and FTEs 
will not be required to restore the staffing levels at the southern 
border

                         ALTERNATIVES TO VACIS

    Question. My staff is aware of the existence of non-intrusive 
inspection technology (such as back-scatter gamma ray devices) that 
provides a higher degree of resolution when inspecting shipping 
containers and other closed containers. In fact, they saw some of these 
devices in use at a seaport in Asia late last year. Is CBP considering 
the procurement of next-generation devices which provide enhanced 
resolution either when replacing existing, aging systems or for 
deployment at new locations? If so, what are the approximate costs of 
the systems under consideration versus the costs of the existing 
systems? Do these newer systems provide a significant improvement for 
inspectors over existing systems? Conversely, if you are not 
considering procuring new systems, why not? Is it due to cost, other 
considerations, or both?
    Answer. ``Back-scatter'' technology, which is associated with X-ray 
systems and not gamma ray systems, was developed by American Science 
and Engineering (AS&E) in the 1980's. For many years now, Customs and 
Border Protection (CBP) has operated a large number of devices, which 
have this capability, including large-scale truck/container imaging 
systems. Back-scatter images can indeed provide information, which is 
not available from a transmission X-ray or gamma ray image. Like any 
technology though, it has its limitations--the amount of penetration 
into vehicles or containers, and the resulting image, depends in large 
part on the type and amount of commodity being scanned. CBP operates a 
variety of X-ray and gamma ray imaging systems.
    The costs of the back-scatter technology will vary depending on the 
configuration of the system. There are back-scatter-only systems which 
cost less than gamma ray imaging systems and there are transmission/
back-scatter X-ray systems which cost significantly more than gamma ray 
systems. The requirements, which define what type of system is needed 
to meet operational demands, are much broader than just this single 
technical criteria. CBP recently purchased a new AS&E product, the ZBV 
(back-scatter only) X-ray van, which is now being tested in Arizona. We 
are preparing to field two new high (>6 MeV) energy, mobile sea 
container X-ray systems later this summer to U.S. seaports. CBP also 
recently upgraded an existing 2.5 MeV mobile X-ray system to 3.8 MeV, 
and is now testing it at the Port of Baltimore. CBP continually 
evaluates promising new technologies, which have the potential to 
enhance or replace existing systems.

              ENHANCING BORDER PATROL INTEGRATION INTO CBP

    Question. During briefings with my staff it appears that 
coordination and integration of certain Border Patrol activities, 
programs, and systems has not gone as smoothly as it might otherwise be 
expected. Sometimes it appears that inquiries made by staff come as a 
surprise to Border Patrol and the CBP staff. For instance, we asked 
questions about the procurement of high-endurance vehicles for the 
Border Patrol only to learn that the CBP vehicle management team was 
working on a longer-term vehicle management plan of which Border Patrol 
was not a part. I understand there are growing pains and learning 
curves when creating a new Department, but issues such as development 
of a unified inventory of goods and activities seems rather basic. What 
concrete steps have CBP and Border Patrol taken to ensure that each 
entity knows what the other is doing?
    Answer. With the merger of the U.S. Border Patrol into U.S. Customs 
and Border Protection (CBP), the integration of border patrol 
activities was established as one of our highest priorities. The Border 
Patrol was established as an Office reporting directly to the 
Commissioner with the Chief of the Border Patrol having equal status to 
our Assistant Commissioners. Border Patrol Sector Chiefs participate in 
all CBP Executive Leadership meetings. Representatives from the U.S. 
Border Patrol have been included in all transition management 
activities and in some instances have actually served as the leaders of 
groups addressing integration and merger issues. The issues addressed 
not only operation mission responsibilities, but mission support 
operations as well.
    Knowing that the Border Patrol's functions and responsibilities are 
key to the security of our homeland, the following are examples of 
integration activities in which the Border Patrol has been, and will 
continue to be actively involved:
  --Immediate participation in the CBP ``around the clock'' Situation 
        Room.
  --Integration of border patrol agents into CBP's intelligence 
        structure.
  --Identification of resources, staffing, and property transfers and 
        modifications to information systems necessary to stand up CBP 
        on October 1, 2003.
  --Analysis of vehicle fleet requirements as part of CBP's replacement 
        and upgrade strategy.
  --Participation in a procurement ``War Room'' to train and certify 
        border patrol employees in CBP contract and procurement 
        processes and reduce an inherited backlog of outstanding 
        procurement actions.
  --Determining the process and infrastructure to consolidate the 
        tactical communications program in order to create more unified 
        communications structure and assure officer safety through 
        interoperability.
  --Migration of and training for all border patrol employees to CBP's 
        administrative systems for processing travel, payroll, 
        procurement, and human resources.
  --Identifying technologies to share and to use as force multipliers 
        to increase CBP's enforcement capacity.
  --Designing a process for incident reporting to ensure clear 
        reporting for rapid notification to senior management of 
        significant incidents.
  --Developing a strategy, policies and procedures for integrating the 
        processing of seizures, forfeitures, fines and penalties into a 
        consolidated process for all of CBP to assure property and 
        fiscal accountability.
  --Proposing an integration plan for unifying operational policies, 
        resource management and best practices for the CBP Canine 
        program.
  --Cross training Border Patrol agents in anti-terrorism concepts and 
        techniques.

                         BORDER PATROL VEHICLES

    Question. What is the status of the review of the need for high-
endurance vehicles for the Border Patrol? What performance measures are 
you using for determining the need to procure additional or different 
high-endurance vehicles? Are there funds in the fiscal year 2005 budget 
request to procure additional high-endurance vehicles?
    Answer. U.S. Customs and Border Protection (CBP) recently entered 
into a contract with Nevada Automotive Transportation Center to conduct 
a terrain mapping study. This is a joint effort between the Office of 
Finance and the Office of Border Patrol Information Technology Unit. 
Information obtained from the study will be used to evaluate the 
terrain and recommend the type of high-endurance vehicles needed to 
meet mission requirements and provide for Agent safety.
    CBP will determine the correct vehicle to be procured based on life 
cycle studies, performance measures and the out come of the terrain 
mapping study. The performance measures will include, mission 
requirements, life cycle costs, durability and downtime of vehicles.
    Currently, there are no funds designated in the fiscal year 2005 
budget to procure additional or replacement high-endurance vehicles.

                LAND BORDER ``EXIT'' CONTROL OF US VISIT

    Question. What impact will the ``exit'' component of US VISIT have 
on the land borders? Do you anticipate that additional outbound 
inspection lanes or other facilities modifications will have to be 
created in the coming years? If so, when can we expect to receive an 
estimated plan of those construction and other requirements? Is CBP an 
active participant with the US VISIT program office?
    Answer. The impact of the US VISIT exit program on land border 
facilities, outbound lanes, and possibly staffing will depend on the 
process/solution that is deployed. It will also depend upon the timing 
of the rollout of the exit strategies.
    After US VISIT awards a contract to their prime integrator for the 
land border entry/exit system, expected in mid-fiscal year 2004, and 
the integrator offers a more comprehensive solution, CBP will better 
understand the extent of the impact to our operations. CBP will 
continue to work closely with US VISIT to develop an exit solution. .

                            COBRA EXTENSION

    Question. What is CBP currently doing to fix the COBRA overtime cap 
issue which has caused Customs Inspectors and new CBP officers to lose 
the ability to contribute $2,500 towards their base pay for calculating 
their retirement annuity? The current overtime earning cap has been 
reduced from $30,000 to $25,000 due to a legislative language drafting 
issue in the fiscal year 2004 DHS Appropriations bill. Does your budget 
request provide a legislative fix to this unintentional drafting error?
    Answer. This unintentional oversight is being addressed through 
various channels. The Department of Homeland Security is working on a 
legislative change to equalize the overtime caps for all U.S. Customs 
and Border Protection (CBP) employees, while CBP is investigating the 
possibility of cap waivers that would allow officers to exceed the 
$25,000 cap in fiscal year 2004.
    Question. Does the fiscal year 2005 Budget assume the merging of 
Customs/INS/Agriculture user fees? In addition, what does the fiscal 
year 2005 budget estimate will be received in COBRA user fees for 
fiscal year 2004?
    Answer. The fiscal year 2005 Budget does not assume that the 
Customs/INS/Agriculture user fees will be merged. CBP is projecting 
that $303 million will be received in COBRA user fees in fiscal year 
2004.
    Question. Does the fiscal year 2005 budget assume the 
reauthorization of COBRA which is set to expire on March 31, 2005?
    Answer. Public Law 108-121 reauthorized COBRA through March 1, 
2005. The fiscal year 2005 budget assumes that COBRA will be 
reauthorized beyond the March 1st expiration date.

                      SIXTH DAY OF FLETC TRAINING

    Question. What is the Department doing to correct the problem of 
the Department not paying legacy Customs Inspectors and new CBP 
officers for their required work on the sixth day of basic training at 
the Federal Law Enforcement Training Center (FLETC)?
    Answer. We do pay employees covered by the Fair Labor Standards Act 
(FLSA) overtime while engaged in training at FLETC for 6 day weeks. The 
Government Employee and Training Act (GETA) prohibits us from paying 
non-FLSA employees under FLSA provision. Our COPRA covered front-line 
personnel are not subject to FLSA. COPRA was specifically designed for 
Customs Officers and is the exclusive pay act for our Customs legacy 
personnel. Our agency position on this matter was recently sustained in 
an arbitration decision.

                             CROSS-TRAINING

    Questions: What amount of training dollars per officer (i.e., 
``modular costs'') is currently being spent for customs training vs. 
immigration training?
    Is CBP requiring both legacy Customs and legacy INS/Border Patrol 
personnel to attend cross-training programs? What percentage of legacy 
Customs vs. INS/Border Patrol personnel has actually completed such 
training? Does CBP intend that all enforcement personnel will undergo 
such cross-training, and if so, when is that training expected to be 
completed?
    Legacy immigration inspectors have said that compact discs (CDs) 
are being used for training legacy Customs personnel in immigration 
law, while legacy INS/Border Patrol personnel must attend in-person 
training in Customs law. How does CBP ensure that the material on the 
CDs is being learned? What evidence does CBP have that training at-home 
training with a CD is as effective as in-person training?
    Answer. The CBP Officer Training Modules are being developed by CBP 
under one initiative using field subject matter experts with experience 
in customs, immigration and agriculture for the determination of course 
content. Each individual will receive the training needed to achieve 
full competency as a CBP Officer. Costs are not allocated on a per-
officer basis as each officer receives a training package tailored to 
meet their individual need.
    CBP will require both legacy Customs and legacy INS inspectors to 
attend cross training programs. There are many different audiences for 
the different modules:
  --New CBP Officers
  --CBP Customs Inspectors
  --CBP Immigration Inspectors
  --CBP Agriculture Specialists
  --New CBP Agriculture Specialists
    Because of the differences in roles and geographic areas served, 
Border Patrol personnel were not integrated into the CBP Officer 
position and are not required to participate in the cross-training 
initiatives.
    Of the 21 training modules that have been developed to support CBP 
Officer training priorities, 15 have been identified as cross-training 
programs for legacy Customs inspectors, INS inspectors, or both. 
Integrated training modules will be rolled-out and delivered over the 
next 12-months.
    Integrated training will be delivered in the field locations. There 
are different delivery methods for the modules, ranging from classroom, 
to computer-based, to video, to on-the-job. And, there is different 
timing for delivery of the modules; for example, some will be taken by 
new CBP Officers as soon as possible after their return from the 
Academy. The integrated training for other CBP Officers will be 
mandatory, and will be based on the operational needs of a given port. 
Inspectors who are converted to the CBP Officer position will not be 
expected to perform new functions until they have demonstrated the 
knowledge and skills required for that function.
    Compact Discs (CDs) are being used solely as a prerequisite to 
classroom training. The CDs are a 6-hour course in Fundamentals of 
Immigration, and a 10-hour course in Immigration Law. All CD self-study 
training includes rigorous tests that are administered to ensure 
students are prepared for the 5 days of intensive classroom training 
that provides additional study and application of the law.
    The classroom portion is followed by an extensive on-the-job 
training requirement. Finally, additional classroom instruction will be 
provided to prepare the Officers for more advanced tasks. Approximately 
80 hours of instruction will be delivered to each Officer. The same 
method of training is being developed for customs law.
    Currently customs law is being delivered as a course at the CBP 
Academy to new Officers.
    Due to the complexity and immediate need to get this training to 
the intended users, CBP determined that the best method for delivering 
immigration law training to legacy Customs personnel was by Compact 
Disc (CD). By using CD's, the officers could complete the training as 
required and have a consistent, convenient, available, ready-reference 
information to use. The completion of the CDs takes place during the 
CBP Officers regular duty assignments; the CBP Officers do not complete 
these CD's at home.
    The Officer is evaluated by an examination at the end of each 
module. If successful, the officer receives a certificate of completion 
for that specific module of training. If unsuccessful, the Officer 
receives feedback and information as to what areas of the training 
requires more study. The Officer is required to repeat that module and 
re-take the examination until the modules are completed at the required 
knowledge level.

                   CONTINUED DUMPING AND SUBSIDY ACT

    Question. Please provide an update on CBP efforts to implement last 
year's Treasury IG recommendations on how to improve administration of 
the Continued Dumping and Subsidy Offset Act.
    Answer. CBP has completed three fiscal year cycles under the CDSOA. 
To date, CBP has disbursed over $750 million to affected domestic 
producers. An additional $50 million in fiscal year 2003 duties is 
currently being withheld pending the outcome of a court case. Total 
number of claims processed to date is over 4,000. As a result of a 
recent IG investigation into this program, CBP has added resources, 
improved process controls, and transferred responsibility for the 
program to the CBP Chief Financial Officer. CBP is currently in the 
planning stages for the fiscal year 2004 disbursement process. We will 
be publishing a Federal Register Notice in June or July, announcing our 
Intent to Disburse fiscal year 2004 funds and inviting affected 
domestic producers to file their certifications in a timely manner. 
Under the existing statute, we are required to disburse the fiscal year 
2004 funds no later than 60 days after the end of the fiscal year, or 
November 29, 2004.
    Question. How much was spent in fiscal year 2002-2004 to administer 
the program? What is the estimated cost for fiscal year 2005?
    Answer. From fiscal year 2002-2005, the estimated annual expenses 
incurred by Customs and Border Protection (CBP) to administer this 
program are approximately 18 FTE and $1.9 million.
    Question. On March 19, 2004, CBP issued its Annual Report (2003) on 
the ``Byrd Amendment'' trade law. This is a law I helped enact that 
allows CBP to reimburse U.S. companies that have been injured by unfair 
trade with funds that are collected as import duties on unfairly traded 
imports. The CBP report states that, while CBP should have distributed 
at least $320 million in collected duties to eligible U.S. companies 
and workers in 2003, it was able to distribute only $190 million 
because CBP failed to collect $130 million from unfair traders. Most of 
the uncollected $130 million consists of import duties not collected by 
CBP on goods from China, in particular. While part of the problem is 
that Chinese companies are refusing to pay these duties, it also 
appears that CBP is failing to enforce the U.S. trade laws because it 
is not diligently pursuing the parties who are refusing to pay these 
duties.
    Why is CBP not collecting millions of dollars in duties on unfairly 
traded imports as required by U.S. law?
    Answer. CBP is correctly assessing duties on all imports into the 
United States as required by U.S. law. CBP charges importers for post 
entry changes to this assessment. CBP vigorously pursues collection of 
all outstanding debt liabilities.
    Question. If the duties are not now being paid, what does CBP plan 
to do to make certain that the duties are paid and collected in the 
future?
    Answer. CBP has developed a national trade strategy that 
specifically addresses the high priority issues and risks in trade. 
Anti dumping and countervailing duty (AD/CVD) and revenue collection 
are two priorities within the strategy. Action plans have been 
developed to address specific risks to these issues. Included in the 
plans are innovative approaches to establishing bonding limits, 
specifically for anti-dumping imports, that are commensurate with the 
financial risks of the transaction.
    Question. Why, in your view, does the problem seem to involve more 
imports from China than from any other country?
    Answer. There are a number of possible factors. There are currently 
more anti-dumping and countervailing duty orders in place for China 
(54) than for any other country. In addition, China has been named in 
half of the 16 petitions filed with the International Trade Commission 
(ITC) in the last 7 months.
    There is also volatility in the deposit rates issued by the 
Department of Commerce (DOC) and administered and enforced by CBP for 
dumping cases concerning China. DOC adopts the presumption that the PRC 
is a nonmarket economy during their investigations. The success or 
failure of a particular exporter/producer to satisfy DOC that they are 
independent from the PRC government affects the rate they are subject 
to. It is possible for deposit rates to fluctuate significantly during 
the course of the DOC investigation as well as in the final rate 
depending on their ability to respond to DOC.
    Question. How does CBP specifically plan to address the fact that 
the bulk of the problem concerns imports from China?
    Answer. CBP currently has in place trade strategies that focus 
specifically on anti-dumping/countervailing duty and revenue. Each of 
these plans has a multi-office working group responsible for the 
development, oversight and evaluation of the plans. These plans have 
already developed and implemented a number of actions that address 
dumping as a whole and by inclusion, China. These actions include 
identification and clean up of outstanding dumping entries, increased 
operational oversight of the dumping process, development of improved 
mechanisms to ensure and monitor adequate bonding of dumping entries, 
and improved communication with DOC.
    Question. Some believe that, if it were not for the Byrd Amendment, 
CBP would have no way of knowing that these millions of dollars in 
duties were not being collected. If this is true, do you believe that 
CBP should adopt additional ways to determine whether import duties are 
being paid by importers and collected by the United States Government?
    Answer. While CBP does have adequate controls in place to ensure 
that collectible debt is collected, we are working to strengthen these 
controls to help us identify potential uncollectible debt earlier in 
the process.
    CBP has standard reports that list all unpaid and overdue bills, 
including those for unpaid anti-dumping and countervailing duties. Some 
anti-dumping and countervailing duties have not been and will not be 
collected when importers go out of business or go bankrupt, and bond 
coverage is insufficient. As a part of the normal business process, 
those amounts would not have been collected and deposited into general 
fund receipts. Until the Byrd Amendment, these uncollected amounts were 
not directly related to the injured parties involved with anti-dumping 
and countervailing duty cases. The relationship that injured parties 
now have regarding the anti-dumping and countervailing duty amounts 
uncollected, as direct beneficiaries, makes this issue now especially 
significant.
    Question. In your response to my questions at today's hearing 
regarding why Customs has been unable to collect duties on unfairly 
traded imports--particularly from China--you indicated that there is a 
need to address systemic problems at both the U.S. Department of 
Commerce and the U.S. Department of the Treasury. Could you please 
advise me of the specific actions, including regulatory reform, that 
CBP is and will be asking these other agencies to undertake to better 
enable CBP to collect duties on unfairly traded imports?
    Answer. CBP and DOC have working groups which meet together on a 
regular basis to identify the systematic problems and to develop action 
plans to address these problems. CBP has also undertaken a national 
bond review program which is increasing the monitoring of bond 
sufficiency to ensure that sufficient bonds are in place at all times 
to protect the revenue. Legislative proposals are also being considered 
which would reinforce CBP's ability to require sufficient bonds.
    Questions. CBP's Annual Report on the Continued Dumping and Subsidy 
Offset Act (``CDSOA'') for fiscal year 2003 showed that CBP was unable 
to collect over $130 million in antidumping duties in 2003. Of these 
uncollected duties, over $100 million relate to Chinese imports. There 
have been reports that these uncollected duties reflect active efforts 
by Chinese parties and their U.S. affiliates to avoid paying U.S. 
antidumping duties by, among other things, quickly importing large 
amounts of goods, then filing for bankruptcy to avoid liability for 
duties and engaging in other fraudulent conduct.
    Answer. We don't know if these were fraudulent situations. However, 
in these situations it is important to determine timely that an anti-
dumping or countervailing duty case is a factor in the importation. 
When it is, adequate bond coverage should be required based on the 
findings that anti-dumping and countervailing duties are warranted. In 
addition, the bond amount should not be limited to the preliminary 
determination rate, but at least set at 100 percent of the value of the 
commodity involved on an entry by entry basis. This would resolve under 
collection situations in the major portion of cases where preliminary 
determination rates were understated and bond amounts were set 
accordingly. In the event that an importer goes out of business or 
bankrupt, then the bond amount would be sufficient in most cases (at 
least where the final determination rate by DOC is not greater than 100 
percent of the value of the imported merchandise).
    Question. Has CBP seen evidence of such conduct with respect to 
importations from China of goods subject to antidumping duty orders?
    Answer. On a case-by-case basis, there appears to be instances 
where importers of Chinese merchandise bring in a large volume subject 
to anti-dumping duties and file bankruptcy prior to CBP's collection of 
the full assessment of these duties.
    Question. Is there evidence of an organized effort by China, 
Chinese parties, affiliated U.S. parties and/or their representatives 
to avoid these duties? Could you provide such evidence?
    Answer. No, CBP has no evidence of a Chinese conspiracy in this 
area.
    Question. Please explain the various means by which these parties 
are avoiding the payment of import duties. Please quantify the extent 
to which these means contribute to CBP's inability to collect duties in 
specific Chinese antidumping duty cases.
    Answer. We know that bills have been issued to some importers who 
filed for bankruptcy, therefore forcing us to collect outstanding debt 
from the surety. This has caused financial problems for some surety 
companies, which have then been forced into bankruptcy. Part of the 
work being done within CBP includes the identification of the areas of 
concern and then the quantification of these areas to prioritize them.
    Question. To what extent does the ability of importers to post 
bonds on imports by ``new shippers'' from China contribute to the 
ability of Chinese parties and their U.S. affiliates to avoid paying 
antidumping duties?
    Answer. The ``new shipper'' designation allows for a deferral of 
payment of potential AD/CVD if the party is indeed a new shipper.
    Question. Does CBP have evidence that these parties are 
fraudulently obtaining new shipper bonds? Please explain.
    Answer. CBP has no evidence that these parties are fraudulently 
obtaining ``new shipper bonds''. There is no ``new shipper bond'', just 
the Customs Bond. ``New shipper'' is a status that certain parties can 
claim, which is issued by Commerce.
    Question. Are there steps that CBP has taken or can take to alert 
bonding companies to the potential financial risks posed by Chinese 
``new shippers'' and their U.S. affiliates?
    Answer. No. Companies are granted bonding authority by the 
Department of Treasury. The normal business process involving 
importation has sureties bonding the importer of a record's entry 
transactions based on possible duties, taxes and fees involved, and 
other regulatory reasons that require an entry bond. When a preliminary 
determination is published in the Federal Register, the public is 
advised, and bond coverage is administered accordingly by CBP. This 
public information and other information that a surety can require 
(including the financial ability of the importer of record to pay their 
duties, taxes and fees) should be sufficient.
    Question. Current law permits importers of goods from ``new 
shippers'' to pay deposits of estimated dumping duties by posting 
bonds, rather than making cash deposits, as occurs in most other cases. 
A longstanding agreement between the Department of Commerce and CBP 
requires that such bonds be in the form of single entry bonds 
(``SEBs''). In recent years there have been frequent reports that, 
notwithstanding its agreement with the Department of Commerce, CBP has 
not been obtaining SEBs for ``new shipper'' imports and in other 
required instances.
    To what extent does the amount of uncollected duties shown in the 
2003 CDSOA report reflect CBP's failure to obtain required SEBs? For 
each antidumping duty case for which there were uncollected duties in 
fiscal year 2003, please quantify the extent to which CBP's inability 
to collect duties was attributable to a lack of requisite SEBs or other 
deficiencies in bonding.
    Answer. Extensive research will be required to provide a response 
to this question in consultation with the Committee.
    Question. The CDSOA report for 2003 reports that there is over $283 
million in antidumping duty-related bonds in individual antidumping 
duty clearing accounts for unliquidated entries. To what extent are 
these bonds the required SEBs as opposed to standard continuous bonds? 
To the extent that these bonds are not the required SEBs, what, if 
anything, can CBP do to require SEBs for these amounts?
    Answer. CBP cannot determine which amounts are covered by SEB vs. 
continuous bonds. CBP lacks authority to obtain retroactive SEBs.
    Question. Please detail the steps being undertaken by CBP and the 
Department of Commerce to require SEBs on all import entries for which 
they are required? Please confirm that SEBs are being obtained in all 
cases in which they are required and explain how CBP has verified this 
conclusion. If SEBs are not being obtained in all required cases, 
please explain why not and explain what CBP is doing to address the 
problem.
    Answer. DOC may also allow bonding in AD/CVD cases other than new 
shipper reviews. In accordance with T.D. 85-145, CBP requires single-
entry bonds in instances where bonding is permitted and the deposit 
rate is 5 percent or greater. Policy reminders have been issued to all 
field locations and importers of their responsibility to secure a 
single-entry bond in these instances to cover AD/CVD duties.
    ACS (Automated Commercial System) has the capability to track the 
existence of only one type of bond. The majority of importers have 
continuous bonds to cover normal imports. CBP instituted a policy in 
October 2003 that requires additional bond reporting requirements to 
track single-entry bonds electronically. CBP monitors this requirement 
on a monthly basis.
    Question. Please explain how domestic producers can confirm that 
imports of competing goods subject to antidumping duty orders are 
secured by required cash deposits or SEBs. Who are the points of 
contact at CBP on this issue?
    Answer. Domestic producers cannot confirm this information. This 
information is contained on CBP entry documents. CBP has long 
considered information on entry documents exempt from disclosure 
pursuant to 5 U.S.C. 552(b)(4). Furthermore, the Trade Secrets Act (18 
U.S.C. 1904) prohibits Federal employees from disclosing such 
information and imposes personal sanctions on employees who do so.
    Question. Is there any way of advising when bonds are issued and 
how they can be tracked from the point of issuance? What percent of 
bonds are collectable? Why is it that in cases involving critical 
circumstances, a very small portion is collectible? Is the problem one 
of administration between the Commerce Department and Customs? Could an 
importer be held liable if the exporter refuses to pay?
    Answer. There is no way of advising when bonds are issued and 
tracking them from the point of issuance. Data is not currently 
available to determine what percent of bonds are collectable. In the 
cases involving critical circumstances, a very small portion is 
collectible because the bonds are issued at the time the goods are 
released, based on the amount of duties/taxes/fees assessed when the 
goods are released. CBP does not have the legal authority to demand an 
increase in a bond retroactively (after the release of the goods), 
which, in critical circumstances is when CBP becomes aware of the fact 
that a higher bond amount is needed. CBP is working on legislative 
initiatives, which may include a statutory change that would allow us 
to demand a higher bond retroactively. The importer is always held 
liable for payment of duties/taxes/fees.
    Question. Finally, if there is a serious problem in cases where 
bonds are permitted, wouldn't a logical solution be simply to require 
cash deposits--at least in all new shipper reviews?
    Answer. The Department of Commerce has jurisdiction in this matter 
and can best address it.
    Question. Explain and quantify the budgetary, manpower, technical 
and other impacts on CBP of administering the bonding option for 
imports from new shippers under antidumping duty orders.
    Answer. While CBP is unable to quantify the manpower impact of 
administering the bonding option for imports from new shippers under 
anti-dumping orders, our inability to require the bonds post release 
hinders our collection efforts drastically. If a party claims new 
shipper status, then the determination is made at a later date that the 
party actually was not eligible for new shipper status. CBP has no 
legal authority to retroactively require a bond for those entries that 
were released (and bonded) under the benefits of new shipper status.
    Question. On December 4, 2003, the White House Office of 
Communications issued ``The President's Determination on Steel,'' which 
stated that President Bush ``is committed to America's steel workers 
and to the health of our steel industry.'' It also stated that, 
``[s]teel import licensing, established when the safeguard measures 
were imposed, will continue to provide WTO-consistent data collection 
and monitoring of steel imports. This will enable the Administration to 
quickly respond to future import surges that could unfairly damage the 
industry.''
    The President's Proclamation of the same date similarly stated that 
``the licensing and monitoring of imports of certain steel products 
remains in effect and shall not terminate until the earlier of March 
21, 2005, or such time as the Secretary of Commerce establishes a 
replacement program.''
    Secretary Evans made several comments to the media on December 4, 
2003, regarding the Administration's commitment to the U.S. steel 
import monitoring and licensing system and indicated that it would be 
expanded to include steel products that were not subject to 201 tariffs 
and quotas. I want to be certain that the Administration remains fully 
committed to this effort.
    Could you please advise me as to whether the Administration has a 
plan to expedite the adoption of the new, expanded program?
    Answer. In the President's Proclamation, the President stated that 
``the licensing and monitoring of imports of certain steel products 
remains in effect and shall not terminate until the earlier of March 
21, 2005, or such time as the Secretary of Commerce establishes a 
replacement program.'' The President has clearly assigned the authority 
to establish a replacement program with the Secretary of Commerce and 
therefore Customs and Border Protection (CBP) is not in a position to 
offer comments on the Secretary's plans to expedite the adoption of the 
new, expanded program. As the licensing system was established in March 
2003, CBP's role in the system consists solely of the collection of the 
licenses that have been issued by the Department of Commerce. All other 
implementation and monitoring responsibilities lie with the Department 
of Commerce.
    Question. Could you also please advise me of when the 
Administration intends to request public comment with respect to its 
new import monitoring and licensing system?
    Answer. The responsibility of the licensing system lies with the 
Department of Commerce; CBP is not in a position to respond as to when 
the Department of Commerce intends to request public comment with 
respect to its new import monitoring and licensing system.
    Question. When would you estimate that it will be up and running?
    Answer. CBP is not in a position to estimate when the Department of 
Commerce will implement the new import monitoring and licensing system. 
CBP is committed to taking the necessary steps to implement programming 
and operational changes needed to successfully enforce the licensing 
program once the Department of Commerce has established it.
    Question. What assurances can you provide that the system will be 
operational by that date?
    Answer. CBP will defer to the Secretary of Commerce on the 
timelines for implementation of the new licensing and monitoring 
system.
    Question. The U.S. domestic steel industry and CBP have maintained 
a mutually beneficial partnership since the mid-1960's. The keystone of 
the Customs-Steel Partnership is a program of seminars and meetings 
where experts from the U.S. steel industry train Customs officials in 
the important aspects of steel identification, classification, trade 
law, and commercial issues. The program also provides steel mill tours, 
reference books, videos, sample kits, and other work tools for Customs 
officials. Customs brokers, invited to the meetings at Customs' 
request, serve as the link between importers. Customs also derives 
significant benefits from the seminars.
    When the President ended the Section 201 remedies for steel more 
than a year before originally scheduled, he promised to continue to 
focus on steel licensing, import monitoring, and the enforcement of our 
trade laws. The Customs training program provides significant 
enforcement education to this end. Congress appropriated $1.25 million 
to fund the Customs Steel Partnership training programs in fiscal year 
2003 and fiscal year 2004. We would like to see the same level of 
effort in Customs training during the coming fiscal year and want to 
work with the Administration to secure an appropriation of $500,000 for 
fiscal year 2005.
    Will the Administration support the continuation of funding for 
this vital program as part of the Homeland Security appropriation in 
the amount of $500,000 for fiscal year 2005?
    Answer. The funding is provided as part of the Homeland Security 
appropriations for fiscal year 2003 to enhance CBP's ability to train 
and enforce steel trade laws was a key component in the agency's 
ability to administer and enforce the Steel 201 Proclamation. The 
President's fiscal year 2005 Budget for CBP addresses the 
organization's highest priorities.
    Question. Can CBP confirm the view expressed by many Customs 
officials involved in the Customs Steel Partnership, that its benefits 
are considerable? So much so that it and the Customs Steel Partnership 
Training Program in particular serve as a model for the establishment 
of other Industry/Customs Partnerships?
    Answer. CBP can confirm that the Customs Steel Partnership Training 
Program provided benefits to CBP as well as the importing community. 
The training sessions continue to include Customs Brokers, importers 
and exporters. While the Customs Steel Partnership has allowed CBP to 
expand the size of the audience to be trained, there may perhaps be a 
more efficient manner in which to fund and/or administer the funding 
for said Customs Steel Partnership Training Program. Due to the 
complicated procurement and budget procedures under which CBP operates, 
it may be more beneficial for all parties involved if there is direct 
funding provided by the Steel Industry. CBP could continue the 
partnership with the Steel Industry, as we have since the mid-1960's, 
but perhaps there is a more mutually beneficial avenue in which to 
continue and enhance said partnership.
    Question. Concerns exist about the adequacy of existing practices 
surrounding the enforcement of the U.S. antidumping duty law against 
imports from non-market economies, but particularly China. With the 
extraordinary trade deficit that the United States is running with 
China, can you provide details of what changes in the enforcement of 
the U.S. dumping law are being considered for non-market economy cases 
and when the agency will be implementing such changes?
    Answer. This would be best addressed by the Department of Commerce.
    Question. Last year, the Department of the Treasury's Office of the 
Inspector General completed an audit of CBP compliance with the 
Continued Dumping and Subsidy Offset Act (CDSOA). The OIG's report, 
which was issued in August 2003, by the DHS IG, found a number of areas 
in which CBP could improve its management of this program. 
Specifically, it noted the need to (1) properly establish special 
accounts, and (2) pay claimants within 60 days after the end of the 
fiscal year. In addition, the OIG stated that CBP had not instituted 
standard operating procedures and adequate internal controls for the 
management of the CDSOA program. CBP said it had established a CDSOA 
working group to address both the recommendations and management 
considerations identified by the OIG.
    What has the working group done to address the recommendations and 
management considerations identified by the OIG? Has it established 
special accounts? Are claimants paid within 60 days of the end of the 
year? Are checks sent to proper addresses? Who is responsible for 
preparing and sending the checks on time?
    Answer. The working group recommended, and the Deputy Commissioner 
approved, the consolidation of responsibility for most of the program 
with the Office of Finance, National Finance Center (NFC). Once this 
was done, procedures and controls could be strengthened. This included 
the establishment of crosschecks to identify problems such as the 
overpayments reported by the OIG.
    Timely liquidation of entries and validation of claimants' costs 
and production were not transferred to OF-NFC.
    Special accounts were established at the beginning of the program 
and remain in place and properly utilized. However, due to current 
system limitations, CBP must make manual adjustments to the balances in 
these accounts to determine the actual amounts available for 
disbursement. This limitation will exist until full implementation of 
the new Automated Commercial Environment (ACE) system.
    Question. How much was spent in fiscal years 2002-2004 to 
administer the program? What is the estimated cost for fiscal year 
2005?
    Answer. All disbursements for 2003, which were not restricted by 
pending litigation, were processed within the allotted time. We expect 
to meet the time requirements for 2004 and future years.
    Checks are sent to the addresses on the claims submitted to us. If 
the claimants or their attorney inadvertently include the wrong 
address, we have no way of knowing that.
    The Office of Finance, National Finance Center processes the 
disbursements. The actual checks are issued by Treasury's Financial 
Management Service based on NFC certifications.
    Actual costs for administering the program were not separately 
collected for fiscal year 2002-2004, but are estimated to have 
increased from approximately $500,000 in the first year to 
approximately $1.2 million for 2004, and to an estimated $1.8 million 
for 2005. The increase year by year is due to the increased complexity 
and size of the program.
    Question. What mechanisms are being used currently to ensure that, 
when Commerce issues liquidation instructions to Customs, the 
liquidations are timely made? There have been reports of numerous cases 
recently involving Customs' failure to liquidate timely and, as a 
result, the agency fails to collect duties lawfully owed.
    Answer. CBP meets biweekly with Commerce concerning operational 
issues related to dumping. These meetings address issues that include 
the mechanisms and procedures by which liquidation instructions are 
transmitted by Commerce to CBP.
    An inventory of all unliquidated entries is created on a regular 
basis and these entries are compared to liquidation instructions that 
CBP has received from Commerce. Instances identified by CBP where 
entries are being held but for which specific liquidation instructions 
do not appear to have been issued are provided to Commerce for their 
research and action.
    Question. What mechanisms are being used currently to ensure that, 
when bills are sent to importers, they are paid? The trade community 
hears, unfortunately, that in many instances there is little or no 
follow-up by Customs on outstanding bills. Even if single entry bonds 
are required by Customs and proper proof of their existence is received 
by Customs, it is still important that the bills be collected because 
it is the importers who are required to pay, and if Customs merely 
expects to collect from bonding companies, two things result: (a) the 
amount of duties collected may be severely less than what is actually 
due and (b) the bonding companies may themselves be unable to pay if 
their exposure goes beyond their risk planning.
    Answer. CBP takes the following actions to collect delinquent bills 
from importers:
  --Monthly bills are issued and interest is assessed against an 
        importer of record on unpaid billed amounts;
  --Refunds scheduled for payment to an importer of record are offset 
        against open delinquent bills owed by that importer;
  --Sanctions are administered against an importer of record, that 
        require payment of duties on merchandise currently being 
        imported before the release of merchandise into the commerce of 
        the U.S. permitted;
  --Formal demand for payment notices are issued and collection 
        litigation actions are taken against any surety with a bond 
        contract covering respective delinquent duty liability amounts; 
        and
  --Litigation actions are taken against delinquent importers of record 
        on any amounts remaining unpaid.

                       NOTICE AND PROTEST PROCESS

    Bills issued to importers of record are not delinquent until 
protest period authorized by law has expired or an applicable protest 
has been denied. Throughout the collection process, monthly bills are 
issued to the importer of record and in addition a formal office of any 
billed amount covered by surety bonds that remain unpaid are issued to 
the applicable surety. The importer of record can legally challenge 
their bill, thus aggressive collection efforts do not commence at this 
stage of the process until at least 90 days from the respective entry 
liquidation date has passed (19 USC 1541). If protest is filed, no 
aggressive collection action is taken until a final resolution of the 
protest. A surety may also file protest. On average, 45 percent of duty 
bills issued are protested. Interest charges are assessed throughout 
the billing process.

           AGGRESSIVE COLLECTION AGAINST DELINQUENT ACCOUNTS

    When protest is filed, in addition to regular monthly billing 
notices, dunning letters are sent to the importer of record demanding 
payment. When a protest is not filed or denied, additional dunning 
letters are sent to the applicable surety with appropriate background 
documents (CF 7501 (formal entry), liquidation worksheets, etc.) as a 
follow up to the monthly Formal Demand on Surety for Payment of 
Delinquent Bills (612 Report). During any period of delinquency, 
refunds payable to an importer of record are used to offset the 
delinquent debt they owe. Importers with delinquent bills are 
sanctioned, and accordingly must pay duties owed on current imports 
before the release of merchandise into the commerce of the United 
States is permitted. A surety bond serves as an additional security in 
the event that an importer goes out of business, files for bankruptcy 
or otherwise fails to timely a pay delinquent amount owed.

    Joint Customs and Border Protection and Immigration and Customs 
                              Enforcement

                    OVERSEAS OPERATIONS INTEGRATION

    Question. I have heard various reports of how the division of labor 
of formerly independent components now merged into DHS is working. 
While the melding of functions is proceeding apace stateside, the same 
personnel have no clear guidance as to how they are to operate 
overseas. Who is in charge of your agencies overseas? Does it vary from 
country to country? Does it make sense to have international affairs 
offices in both agencies? Do the operational and informational 
stovepipes, currently being eliminated here at home, still exist 
overseas? If so, what steps are each of you taking to eliminate them?
    Answer. The Office of the Secretary has initiated a detailed review 
of the role of DHS overseas, including the management structure that 
best advances the full range of the international liaison, enforcement, 
inspection and services missions of DHS.

                        UNMANNED AERIAL VEHICLES

    Question. The CBP budget includes a request of $10 million for 
testing and development of a UAV program. At the same time, I 
understand that ICE has been using its own funds to test the possible 
deployment of a series of UAVs along the Northern and Southern Borders 
to provide real time intelligence to inspectors and agents in the 
performance of their duties. What are the unique needs of each agency 
that would necessitate the need for development of two separate UAV 
programs?
    Answer. The Coast Guard operates primarily in the maritime domain 
along the coast and well offshore; the Border Patrol operates close to 
the border, between the ports of entry both in the maritime and 
terrestrial domain, but primarily in the terrestrial domain; and AMO 
operates in both areas but has additional requirements (e.g., airspace 
security) within internal airspace. Some overlap in geographical and 
mission requirements exits, and DHS is working to minimize those. All 
operations that support border security require a detection capability, 
and because of the operating environment, the platforms that provide 
that detection capability may need to be different in order to best 
meet the mission requirements. Therefore it makes sense that each 
component, as well as Science and Technology, be involved in the 
testing of UAVs.
    Question. How do these programs relate to one another and would not 
the Department's interests be best served by a joint program or one 
program which would meet the needs of both agencies (as well as 
potentially other DHS entities)?
    Answer. BTS and the Science and Technology (S&T) Directorates co-
chair the working group that coordinate each components plans regarding 
use and testing of UAVs. Through the Joint Requirements Council (JRC) 
the Aviation Management Council, and the UAV Executive Steering 
Committee in conjunction with the UAV working group, the Department 
will ensure that UAVs will be tested, deployed and eventually procured 
in a way that meets the needs of the Department jointly. The UAV 
working group is currently participating in an analysis of alternatives 
(AoA) for aerial surveillance needs within BTS. Once this report is 
complete we will begin a process to establish a DHS-wide concept of 
operations (CONOP). The CONOP will identify unique needs and ensure 
that redundancy and overlaps are minimal and that systems procured and 
deployed on behalf of the DHS are interoperable. At the conclusion of 
the AoA, DHS will also determine the need for UAVs as a permanent asset 
for its components. It is likely that UAVs could support other current 
and emerging sensing technologies to monitor the U.S. borders between 
ports of entry, and their acquisition will be considered and evaluated 
in terms of cost and performance in view of all the other alternative 
contemplated.
    The data and results obtained in the component-specific deployments 
and feasibility studies will be shared within BTS, and the U.S. Coast 
Guard. The evaluations and tests already conducted by ICE/AMO the U.S. 
Coast Guard have been shared within the context of the working groups.
    Question. If not, please explain in detail how the Department can 
justify development of separate programs given limited resources.
    Answer. A coordinated effort for UAV development and testing is 
being addressed within the Department of Homeland Security.

                           TETHERED AEROSTATS

    Question. What is the value of the aerostat system to the DHS 
interdiction and border security mandate?
    Answer. At the lower altitudes in which many suspect aircraft 
operate, the Tethered Aerostat Radar System (TARS) is the main source 
of data, which the AMO uses to sort targets and determine operational 
responses. The Tethered Aerostat Radar System (TARS) for Border and 
Transportation Security (BTS) is a critical component in the 
interdiction of illicit air traffickers as well as our border security 
system. It is the only fixed system that provides low-level radar 
coverage (100-500 feet above ground level) of air targets with 
altitude, speed, heading, and Identifier Friend or Foe (electronic 
transponder) capability. The system also provides a platform for radio 
relay equipment. Without TARS, radar coverage along the southern border 
of the United States and Puerto Rico is severely diminished. Also, 
modified TARS are able to provide surveillance of maritime targets in 
coastal regions and limited land targets. The sea and land capabilities 
of the system are not being employed.
    Today, nearly all of our joint air interdiction efforts in Northern 
Mexico are directly attributable to TARS. When TARS coverage is not 
available, BTS (ICE AMO) must rely upon scarce and much more expensive 
systems in an attempt to fill the resultant surveillance gaps. 
Currently, the alternative is to use our airborne early warning (AEW) 
aircraft (low density/high demand and high cost assets). AEW costs can 
be 6-14 times higher than the cost per hour of TARS coverage and their 
availability is limited since they are tasked with missions in the 
source and transit zones, in addition to other homeland security 
flights.
    Question. Has there been an impact from the non-operational status 
of the Lajas, PR TARS? If so, what are the impacts from the loss of 
Lajas TARS?
    Answer. Prior to the shutting down of the Lajas, PR, TARS site, the 
vast majority of suspect air tracks avoided approaching or attempting 
to land or over fly the land mass of Puerto Rico, opting instead to 
transit to Hispaniola to the west and the Virgin Islands to the east.
    Since Lajas was the primary tracking sensor for this area, the 
impact of the loss of its information is difficult to assess. However, 
until the site returns to operational status, AMO will continue to 
monitor the changing threat picture through the use of limited tracking 
information from FAA radar, intelligence assessments, and post-seizure 
analysis of interdictions.
    Question. Should this TARS remain in non-operational status, what 
are the prospects for future drug interdiction efforts in Puerto Rico 
and the Caribbean? Are there other locations where the aerostats had 
existed and were removed (i.e. The Bahamas)? What was the impact to 
drug interdiction resulting from the removal of those assets?
    Answer. The system's greatest potential would be achieved as a 
series of TARS sites linked to form a continuous radar detection 
blanket that reaches 150 miles beyond the U.S. border. Maintaining a 
complete ``radar fence'' is imperative for several reasons.
  --An effective surveillance system of this type serves multiple 
        national objectives including:
    --Homeland Security--counter illicit traffickers (air, land and 
            sea) and unauthorized border incursions
    --Air sovereignty/Advanced Airborne Early Warning
    --Air Traffic Control, flight safety
  --The U.S. Interdiction Coordinator reports:
    --Suspicious air tracks in the CENTAM corridor increased from 50 to 
            200 in 2003
    --Air seizures increased ten-fold in 2003 over the 10-year average
    --Maritime successes have forced drug traffickers to alter their 
            methods to air routes.
  --The illicit trafficking and unauthorized border incursion threat 
        vectors continually change. Therefore, we need a system that is 
        effective against all threat vectors.
    Question. There has been some discussion regarding the possible 
transfer of the aerostat systems from the Defense to Homeland Security 
departments. Though DOD is the owner of these assets, I understand that 
DHS is the primary consumer of the intelligence they collect. Do you 
feel that the Defense Department has adequately considered the needs of 
DHS, or consulted with you, regarding the continued operation of these 
aerostats? What is the Department's position on such a future transfer 
of responsibility of these TARS systems?
    Answer. DHS believes that this critical system supports homeland 
security and provides a critical detection and monitoring capability. 
That mission is a DOD responsibility. Operation of TARS should remain 
in DOD.

                             CROSS-TRAINING

    Question. Representatives of the Department of Homeland Security 
Council (the union comprised of legacy INS employees) reported at a 
press conference on March 3 that no more than 5 percent of Immigration 
and Customs enforcement personnel have received cross-training. When 
does DHS expect to complete cross-training of all existing personnel? 
What percentage of all needed cross-training is funded in the 
President's fiscal year 2005 budget proposal?
    Answer. OI conducted a manual survey the last week of March 2004. 
At that time 830 Special Agents had completed the cross-training. This 
accounts for 19 percent of the 4,463 agents targeted for cross-training 
in this fiscal year. The Automated Class Management System is expected 
to be on-line shortly. At that time, training statistics will be more 
readily available.
    OI has established a target to complete the cross-training for all 
non-supervisory Special Agents GS-05 through GS-13 by the end of fiscal 
year 2004. This cross-training will be accomplished using a train-the-
trainer format with initial training being conducted at the Federal Law 
Enforcement Training Center (FLETC).
    Cross-training beyond this priority group will be completed in 
fiscal year 2005 and will be funded out of base dollars.

                             PAY DISPARITY

    Question. A pay disparity of a full grade exists between 
Immigration Special Agents (GS-12) and Customs Special Agents (GS-13). 
It appears that the new regulations proposed by the Administration 
would hide this disparity within a pay scale, rather than addressing it 
directly. Is this correct? If so, what impact is this disparity having 
on morale within ICE
    Answer. Issues regarding ICE Criminal Investigator pay parity have 
been resolved. Over the last year, we gave careful thought to the many 
variables involved in this matter prior to integrating the new duties 
of the national security and counter-terrorism mission with the legacy 
Customs and INS duties. During this time, we submitted proposals to 
resolve the issues related to this integration to a sample of the CI 
population and higher level ICE and DHS management to give this 
sensitive matter the care and consideration it deserved, all of which 
took time. All ICE CIs will be assigned to the new position 
descriptions. Employees will be either reassigned at their current 
grade level or promoted if all eligibility requirements are met with an 
effective date of May 2, 2004. We believe this action will enhance 
ICE's ability to fulfill its mission, which in turn can improve morale, 
productivity and, ultimately, performance of crucial work in national 
security and terrorism investigations. Based upon this action, all ICE 
CIs will be similarly situated once the new HR system is finalized and 
implemented.

                         ASSET FORFEITURE FUND

    Question. Many of the programs now under the purview of ICE were 
enhanced by a productive working relationship with the Treasury 
Forfeiture Fund. This working relationship still exists today. 
Typically, the agencies that contributed to the fund were able to draw 
on the same funds to increase mission capabilities in many areas. This 
process worked well.
    I understand, however, that there are plans to cede control of this 
Fund to the Department of Justice. Are you concerned about losing 
access to the asset forfeiture fund? What impact would it have on your 
investigations if your agency were not able to have access to the 
resources that you have, in fact, contributed to the Fund?
    Answer. As you note, the Administration has proposed to 
consolidation of the Government's Asset Forfeiture Funds within the 
Department of Justice. Consolidating operation of these funds offers 
enormous opportunities for efficiency gains and reductions to overhead 
costs.
    If the consolidation proposal is approved by the Congress, DHS will 
work with the Department of Justice to ensure that its proceeds from 
the fund are maintained and disbursed appropriately. The Department 
does not expect the proposed consolidation of the funds and their 
administration to affect the availability of fund balances or its 
future proceeds.
    Question. Is consideration being given to creating a separate/new 
Department of Homeland Security Asset Forfeiture Fund to which all DHS 
components would contribute and have access?
    Answer. The Administration has proposed to consolidate the 
government's Asset Forfeiture Funds at the Department of Justice. There 
is no current Administration proposal to establish a Department of 
Homeland Security Asset Forfeiture Fund.

                  Immigration and Customs Enforcement

                          WORKSITE ENFORCEMENT

    Question. In its 1997 Executive Summary, the U.S. Commission on 
Immigration Reform found that ``reducing the employment magnet is the 
lynchpin of a comprehensive strategy to deter unlawful migration.'' 
Despite this fact, worksite enforcement has been last on the list of 
enforcement priorities. According to a Jan. 11, 2004 article published 
in the San Diego Union-Tribune, arrests of illegal aliens at worksites 
have dropped from 8,027 in 1992 to 1,254 in 2002, and the number of 
Notices of Intent to Fine has dropped from 1,063 to 13. The explanation 
for this drop in enforcement, according to Joe Greene, deputy assistant 
director of ICE, is that employer sanctions don't work and that they 
``didn't seem to be making a dent in changing the practices of 
employers.'' Does Mr. Greene's statement represent the official policy 
of the Bush Administration?
    Answer. Since September 11, 2001, ICE's worksite enforcement role 
has gone beyond that of merely reducing the job magnet. It has become a 
matter of national security. As a measure of its role in national 
security, the ICE Headquarters Worksite Enforcement Unit (now called 
the Critical Infrastructure Protection unit) has been aligned under the 
National Security Division. In the interest of national security, ICE 
is increasing its worksite enforcement efforts and has instructed its 
field offices to focus their worksite enforcement investigations on 
Businesses of National Interest (BNI). ICE defines a BNI as a private 
or public entity that provides goods or services vital to our national 
security and economy, or whose infiltration would pose a serious threat 
to our domestic security.
    Question. Your proposed $23 million increase is just a drop in the 
bucket. Do you believe that the failure to make worksite enforcement a 
more important priority is one of the reasons that there are between 8 
and 11 million aliens illegally present in the United States today? 
Please provide a list of the number of worksite enforcement actions 
undertaken each year between 1999-2003.
    Answer. There are numerous overlapping factors contributing to the 
Nation's illegal immigration problem. Worksite enforcement is just one 
of the immigration enforcement programs that ICE administers. 
Statistics show that ICE initiated more worksite enforcement/critical 
infrastructure protection cases during fiscal years 2002 and 2003 than 
there were in fiscal years 1999 and 2000.

----------------------------------------------------------------------------------------------------------------
                                                                                     Fiscal year
                                                                    --------------------------------------------
                                                                       1999     2000     2001     2002     2003
----------------------------------------------------------------------------------------------------------------
Cases initiated....................................................    2,834    1,766      856    3,428    1,547
----------------------------------------------------------------------------------------------------------------

                               BENCHMARKS

    Question. The ICE budget requests increases for the detention and 
removal and institutional removal programs. What benchmarks does the 
agency use to determine the specific benefits which will be achieved 
through these increases? What performance measures are used to 
determine the effectiveness of these programs?
    Answer. DRO is currently developing a new performance measure to 
demonstrate the expected outcome of improved IRP management. This 
measure shows the percentage of IRP removals that had received a final 
order of removal prior to the completion of the criminal sentences and 
prior to release into DRO custody. In numerical terms it will be 
expressed as: number of cases with pre-release final orders/total 
number of IRP removals.
    Reaching 100 percent on this measure would mean that DRO does not 
have to expend detention resources on IRP cases that are still awaiting 
a decision from an immigration judge. All IRP cases would already have 
a removal order when they complete their criminal sentence, and they 
would only need to be detained by DRO for the time that it would take 
to arrange and conduct the removal. This would mean a much more 
efficient use of resources. Because this measure has not been used 
before, it will be baselined at the end of fiscal year 2004.
    Canine Teams Last week, as part of his rail and transit security 
initiative, Secretary Ridge said that the Department will develop a 
rapid deployment Mass Transit K-9 program by using existing Homeland 
Security explosive K-9 resources, including those of the Federal 
Protective Service.
    Once again, it appears that the Department is robbing Peter to pay 
Paul. It appears that the Department will be pulling K-9 teams away 
from airports and the protection of Federal buildings and using them 
for mass transit, thus degrading security in one transportation mode to 
begin beefing up security in another mode. By refusing to seek 
additional funds to address this very real threat it truly calls into 
question the seriousness of this Administration in its effort to secure 
the homeland.
    Question. Does the initiative announced last week mean that you 
will be pulling existing K-9 teams away from protecting Federal 
buildings or from airports to use them for rail and mass transit 
security?
    Answer. In support of Department of Homeland Security (DHS) efforts 
to strengthen rail and transit security, the Federal Protective Service 
was tasked to develop a plan for ensuring the availability of Explosive 
Detector Dog (EDD) support, if and when required. The intent of the 
initiative is to be ready to surge EDDs to an area needing heightened 
security if that becomes necessary. The law enforcement elements of the 
DHS have established EDD capability in support of their primary 
missions. Most of these elements maintain existing cooperative 
relationships with the state, local, and transit authorities within 
their local jurisdictions whereby they participate in joint training 
exercises, share information, and respond to requests for support and 
assistance on an ad hoc basis. The plan for the EDD-RDF builds upon 
these existing relationships and expands it to ensure that DHS EDD 
support is available to all jurisdictions across the Nation. The 
mission of the EDD-RDF will be to provide expanded capability to mass-
transit systems within the United States by assisting State, local, and 
transit authorities in the event of an increased threat situation. The 
EDD-RDF is designed to enhance security and explosive detection 
capabilities, as well as to provide a strong psychological deterrence 
to terrorist activities. The RDF consists of existing DHS EDD assets, 
and will be available 24-hours a day, 7-days a week. The EDD teams 
should be able to deploy to any location within the United States 
within 24 hours. Deployments will be based on specific intelligence 
developed within the DHS, response to specific requests for 
augmentation, or actual incidents.

               LIMITED IMMIGRATION ENFORCEMENT RESOURCES

    Question. Your budget request for fiscal year 2005 represents a 
more than 9 percent increase over the funding level provided by 
Congress for this year. While this is a step in the right direction, 
the fact remains that limited budget resources constrain you in the 
various types of activities your personnel can take to enforce existing 
immigration laws--much less implement a sweeping alien amnesty law such 
as the President has suggested. It calls into question the importance 
the Administration places on immigration enforcement.
    I realize that your budget requests incremental increases in 
programs such as institutional removal, fugitive operations, 
alternatives to detention, worksite enforcement, compliance teams, and 
benefit fraud operations. But these increases are not sufficient.
    I do not know what the budget resolution's topline discretionary 
spending level will be, nor do I know what allocation this Subcommittee 
will receive. However, if we were able to find additional resources for 
immigration enforcement, where would you suggest we provide additional 
funds?
    Answer. The President's fiscal year 2005 Budget provides sufficient 
resources for immigration enforcement by more than doubling the number 
of worksite investigations currently performed by ICE.

                                CHIMERA

    Question. The Enhanced Border Security and Visa Entry Reform Act 
requires all immigration databases to be made interoperable and, 
eventually, combined into the Chimera data system, which is to include 
all known immigration, law enforcement, and intelligence data on 
aliens. What progress has been made thus far on creating the Chimera 
data system? What roles are ICE and DHS playing in this process? Which 
agency has the lead in ensuring that the Chimera system is created?
    Answer. On the 28th of October 2002 the former Immigration and 
Naturalization Service published an informational document regarding a 
comprehensive information technology planning and infrastructure 
modernization program called ``Atlas''. That document was entitled the 
``Atlas Business Case'' and provided a concise high-level view that 
demonstrated the INS' confidence in Atlas' strategic, technical, and 
financial merits. The business case reflected investment principles, 
emulation of industry best practices, and compliance with the Clinger-
Cohen Act of 1996, as well as with other related legislative and 
government guidance.
    Consistent with the urgencies of the Government's post-September 11 
security agenda, the Atlas Business Case was subsequently socialized 
and promoted within the Department of Justice and sent to the Hill for 
budgetary consideration. It was understood that the Atlas Program would 
be the fundamental IT infrastructure foundation on which INS business 
applications would operate. In its business case, the former INS 
illustrated that the successful Atlas transformation strategy would 
hinge upon a robust IT infrastructure containing a secure, scalable 
backbone that would support all INS business processes. Atlas, it was 
shown, would also provide database interoperability at the 
infrastructure level and support data sharing at the applications 
level. From the beginning, the Atlas design strategy also supported 
emerging Department of Homeland Security (DHS) requirements. Unlike the 
previous environment, Atlas was proposed to reside within an integrated 
Enterprise Architecture (EA) that would harmonize the following:
  --System hardware, including mainframes and servers
  --Data services, including data and voice circuits
  --Data communication equipment, including servers, switches, local 
        area networks (LAN), wide area networks (WAN), routers, and 
        cabling
  --Computer security, information assurance activities and enterprise 
        information. This, specifically, is the area that would later 
        come to be identified as the focus area for the suggested 
        Chimera project.
  --Workstations, including personal computers and laptops and 
        enterprise-wide software (i.e., office automation, e-mail, 
        operating system, etc.)
  --Operational support to maintain and operate the modernized IT 
        infrastructure
    Perhaps in contemplation of partitioning and re-tasking of the 
former INS and its resources, or perhaps in calculating the initial 
complexity and cost of implementing Atlas, a counter-suggestion was 
made in committee and transmitted back to the Department of Justice and 
the former INS that certain specific information security and assurance 
attributes of Atlas could be separately expedited and put into action 
under a new initiative tentatively labeled ``Chimera''.
    However, other program initiatives under way at former INS and the 
new Department of Homeland Security were also addressing the same 
security concerns. In particular, the ``US VISIT'' program had pursued 
the same set of concerns and an active, high-precision approach for 
addressing critical information security and assurance requirements.
    Because of the US VISIT Program's ongoing and comprehensive 
approach to information security and assurance requirements within the 
DHS sphere of immigration-related operations, Chimera has been 
suspended and is being revisited to determine its potential as a 
duplicative effort.

                             ALIEN REMOVALS

    Question. Please compare criminal and non-criminal alien removals 
from 1990-2003.
    Answer:
Removals: Criminal and Non-criminal
    The following data were collected in the Deportable Alien Control 
System (DACS). These data include expedited removals. The criteria for 
categorizing criminal/non-criminal and the data system used to capture 
the data have been consistent since fiscal year 1993. Prior to fiscal 
year 1993 the criteria were slightly different. In addition, multiple 
data systems were used to collect the data and not all those data 
systems supported the 1993+ criteria (see separate table below).

----------------------------------------------------------------------------------------------------------------
                                                                                     Criminal      Non-criminal
                           Fiscal year                            Total removals     removals        removals
----------------------------------------------------------------------------------------------------------------
1993............................................................          42,542          29,458          13,084
1994............................................................          45,674          32,512          13,162
1995............................................................          50,924          33,842          17,082
1996............................................................          69,680          38,015          31,665
1997............................................................         114,432          53,214          61,218
1998............................................................         173,146          60,965         112,181
1999............................................................         180,948          70,417         110,531
2000............................................................         186,056          72,114         113,942
2001............................................................         177,818          72,434         105,384
2002............................................................         150,237          71,636          78,601
2003............................................................         188,292          80,355         107,937
----------------------------------------------------------------------------------------------------------------


                        PRE-FISCAL YEAR 1993 STATISTICS ON CRIMINAL/NON-CRIMINAL REMOVALS
----------------------------------------------------------------------------------------------------------------
                                                                                     Criminal      Non-criminal
                           Fiscal year                            Total removals     removals        removals
----------------------------------------------------------------------------------------------------------------
1990............................................................          30,039           8,971          21,068
1991............................................................          33,189          14,475          18,714
1992............................................................          43,671          20,098          23,573
----------------------------------------------------------------------------------------------------------------

                            ARREST AUTHORITY

    Question. As part of the 1990 Immigration Act, Congress authorized 
general arrest authority for all immigration law enforcement officers. 
INS never developed regulations to implement this authority. Has DHS 
developed such regulations?
    Answer. Yes, ICE issued a memo implementing general arrest 
authority for the ICE Office of Investigations and Detention and 
Removal in November 2003.

                          WORKSITE ENFORCEMENT

    Question. The President's budget proposal would increase funding 
for worksite enforcement by $23 million. It also proposes the addition 
of 150 ``work certification'' positions--a position that does not 
currently exist. Does the inclusion of this additional funding mean 
that worksite enforcement will become a higher priority for ICE? What 
priority will DHS give the nationwide expansion of the workplace 
verification pilot programs, as passed by Congress late last year?
    Answer. Enforcement efforts targeting companies that break the law 
and hire illegal workers will need to increase in order to ensure the 
integrity of the temporary worker system. President Bush's Fair and 
Secure Immigration Reform proposal provides for an enhanced worksite 
enforcement program, and the $23 million requested for fiscal year 2005 
for worksite enforcement will allow ICE to enhance its worksite 
enforcement program and provide credible deterrence to the hiring of 
unauthorized workers. ICE worksite enforcement investigations generally 
involve a review of company employment records to verify the 
immigration status of workers and to determine if the employer has 
committed any violations. ICE special agents also conduct extensive 
outreach initiatives to educate employers as to their legal 
responsibilities.
    Additionally, the Basic Pilot Program, an automated system 
administered by USCIS, enables employers to verify the immigration 
status of newly hired workers. It is currently available in six States 
but, we understand, will be available to employers in all 50 States by 
the end of this year. This is a voluntary program and is currently 
provided at no cost to employers. Information on the Basic Pilot 
Program is available to the public on the USCIS website.
    Question. Does the President's budget proposal include sufficient 
funding to meet the December deadline for nationwide expansion of the 
pilots? Will the new ``work certification'' agents work exclusively to 
enforce employer sanctions? What increase in ``Notices of Intent to 
Fine'' can be expected from these 150 positions and the doubling of 
funding?
    Answer. If the new special agent positions are funded and 
designated for the worksite enforcement program, it is anticipated that 
they will be used in that capacity. It is difficult at this point to 
project the increase in Notices of Intent to Fine that will be 
accomplished by the enhancements due to factors such as the rate at 
which the new personnel can be hired, trained and deployed. The budget 
enhancement will enable ICE to place additional emphasis on a 
traditional worksite enforcement program that offers credible 
deterrence to the hiring of unauthorized workers while retaining its 
focus on a Critical Infrastructure Protection program that has produced 
national initiatives such as Operation Tarmac and Operation Glowworm.
    Question. In May 1998, the Commissioner of the INS announced a new 
internal policy on workplace enforcement efforts. This policy required 
approval of a written ``operation plan'' by a District Director, a 
Regional Director, the Public Affairs Office, and the Community 
Relations Office before any worksite enforcement operation to arrest 
``one or more unauthorized aliens'' could be undertaken. This policy 
was reiterated in a memo to field agents at least as recently as Feb. 
13, 2002.
    Is this policy still in place?
    If so, isn't it unlikely that there will be any increase in 
worksite enforcement, considering the obstacles set up by this policy?
    If not, what is the current policy?
    Answer. No, the old policy is no longer in place. Current policy, 
which went into effect on July 24, 2003, states that a Special Agent in 
Charge (SAC) may approve a Worksite Enforcement Operation Plan that 
targets a Business of National Interest (BNI). A SAC may, at his or her 
discretion, delegate this authority to an Associate Special Agent in 
Charge, or Acting. The Chief of the Headquarters Critical 
Infrastructure Protection unit must approve any worksite enforcement 
investigation or enforcement operation that targets an employer or 
entity that is not a BNI.
    Question. Has someone within DHS been tasked with the job of 
reviewing all old policies and recommending changes to those that 
actually deter enforcement?
    Answer. Old policies are reviewed to assure they contribute to 
enhancing enforcement rather than hindering it
    Question. The State Criminal Alien Assistance Program provides 
reimbursement to States for the costs of incarcerating alien murderers, 
rapists, child molesters, drug smugglers and other criminal aliens. The 
President's budget proposal eliminates all funding for SCAAP.
    Is DHS proposing an alternative to States incarcerating these 
criminal aliens or does it expect the costs of incarcerating criminal 
aliens to drop dramatically in the next year? And if so, on what basis?
    Answer. For fiscal year 2005, the Administration proposes 
significant investments in border control and immigration enforcement 
efforts. For U.S. Customs and Border Protection (CBP), the President 
proposes in enhance Border Patrol Surveillance and Sensor Technology by 
$64 million for the continued expansion of the Remote Video System 
along the southern and northern borders thereby increasing the 
effectiveness of Border Patrol Agents. The expanded system will provide 
for significantly enhanced detection and monitoring capability between 
the ports of entry and increase officer safety. In addition, the fiscal 
year 2005 Budget seeks $10 million to develop, procure, deploy, and 
operate a system of unmanned aerial vehicles to support the Border 
Patrol and other components of CBP.
    In addition, the fiscal year 2005 President's Budget proposes 
enhancements for numerous immigration enforcement efforts of the U.S. 
Immigration and Customs Enforcement. Funds sought will support enhanced 
compliance teams, detention and removal efforts, and international 
enforcement efforts related to immigration and visa security. These 
efforts will enhance our border security and bolster our ability to 
enforce our Nation's immigration laws.

                         INVESTIGATIVE EMPHASIS

    Question. One area of concern that legacy immigration personnel 
have is whether Customs personnel and issues are dominating the 
immigration side of the equation in the Bureau of Immigration and 
Customs Enforcement, so that enforcement of immigration laws is given 
lower priority than enforcement of customs laws.
    What is the number of ICE Special Agents in Charge who are ``legacy 
Customs'' personnel? What is the number of ICE Special Agents in Charge 
who are ``legacy INS'' personnel?
    Answer. As of April 27, 2004, there are 27 SAC offices. Assignments 
are as follows:
  --16 have ``legacy Customs'' personnel permanently assigned as SACs.
  --3 have ``legacy INS'' personnel permanently assigned as SACs.
  --Of the 8 remaining, the acting supervisors are: 7 ``legacy 
        Customs'' and 1 ``legacy INS''.
  --Permanent selections in progress: 2 have ``legacy Customs'' 
        selectees and 1 has a ``legacy INS'' selectee.
    Question. What is the number of ICE Senior Executive Service (SES) 
positions in the Investigations program occupied/encumbered by ``legacy 
Customs'' personnel? What is the number of ICE Senior Executive Service 
(SES) positions in the Investigations program occupied/encumbered by 
``legacy INS'' personnel?
    Answer. There are 22 SES positions in the Office of Investigations. 
Seventeen (17) are filled with ``legacy Customs'' personnel and 5 are 
filled with ``legacy INS'' personnel.
    Question. What is the number of ICE GS-15 supervisory positions in 
the Investigations program occupied/encumbered by ``legacy Customs?'' 
What is the number of ICE GS-15 supervisory positions in the 
Investigations program occupied/encumbered by ``legacy INS?''
    Answer. As of April 27, 2004, there were 68 GS-1811-15s in the 
Office of Investigations, 52 of which are ``legacy Customs'' and 16 are 
``legacy INS''.
    Question. What is the number of ICE HQ component or division chief 
positions in the Investigations program occupied/encumbered by ``legacy 
Customs?'' What is the number of ICE HQ component or division chief 
positions in the Investigations program occupied/encumbered by ``legacy 
INS?''
    Answer. There are 5 divisions at Headquarters in the Office of 
Investigations. Three of those divisions are headed by ``legacy 
Customs'' personnel and 2 are headed by ``legacy INS'' personnel.
    Question. Some have indicated that ``legacy Customs'' personnel, 
particularly in managerial positions, have not diligently attended to 
their duty to enforce immigration provisions now under the ICE mandate, 
essentially treating customs as more important than immigration 
enforcement. What steps are being taken to ensure that former Customs 
personnel do not neglect their duty to enforce immigration laws?
    Answer. In ICE, legacy INS and Customs investigators are being 
cross-trained to maximize law enforcement authorities and capabilities. 
This force multiplier is intended to expand the capability of our newly 
shared authorities in the area of investigations and intelligence. Each 
individual ICE agent has a responsibility to utilize all of the tools 
in his/her collective INS and Customs enforcement arsenal to identify, 
investigate, prevent and deter criminals or terrorists from exploiting 
vulnerabilities as a means of harming our country.
    Question. What is the number of 1801-series Detention & Removal 
Officers in ICE? Whereas the 1801s are responsible for carrying out the 
administrative enforcement and removal provisions of the immigration 
code, how are they distributed nationwide? How are they empowered to do 
their duty more effectively and efficiently using technology and in 
coordination and cooperation with State and local law enforcement? 
Answer:

------------------------------------------------------------------------
                                                            Immigration
                District                    Deportation     Enforcement
                                              Officer          Agent
------------------------------------------------------------------------
Anchorage...............................               5               4
Atlanta.................................              25              35
Baltimore...............................              21              23
Boston..................................              32              45
Buffalo.................................              21             113
Chicago.................................              37              42
Cleveland...............................               4               3
Dallas..................................              29              46
Denver..................................              21              56
Detroit.................................               9               8
HQ......................................              86               0
El Centro...............................               0              11
El Paso.................................              35             133
Helena..................................               6              12
Honolulu................................               8               9
Harlingen...............................              31             130
Houston.................................              41              50
Kansas City.............................              13              28
Los Angeles.............................              84             145
Miami...................................              57             178
Newark..................................              42              43
New Orleans.............................              40              88
New York City...........................              59             158
Omaha...................................               7              23
Philadelphia............................              35              42
Phoenix.................................              51             162
Portland, ME............................               2               4
Portland, OR............................               8              21
San Juan................................              11              42
Seattle.................................              23              36
San Francisco...........................              44              85
San Antonio.............................              24              79
San Diego...............................              60             222
St. Paul................................               9              16
Washington, DC..........................              18              14
                                         -------------------------------
      Total.............................             998           2,106
                                         ===============================
      Grand Total.......................               3,104
------------------------------------------------------------------------

    DRO is directly involved with State and local law enforcement 
agencies in the search and apprehension of fugitives. DRO continues to 
expand the use of technology in an effort to apprehend fugitive aliens. 
A recent example is providing the officers of the Miami Fugitive 
Operations Team with Blackberry devices. A Blackberry device will 
eventually enable Officers to search names in NCIC (criminal history) 
and the Division of Motor Vehicles. In addition, we are entering into 
an agreement with the United States Marshals Service to expand our 
databases. The agreement will allow DRO and the USMS to compare 
databases on warrants and select and search for fugitives of joint 
interest. DRO is also planning to purchase laptop computers with 
wireless modems so Officers can conduct field inquires. DRO is 
expanding the use of commercial databases containing biographical 
information on a person, such as last known address, in an effort to 
locate and apprehend fugitives.
    Question. What is the number of 1811-series Special Agent/Criminal 
Investigator personnel in ICE? How are they distributed geographically? 
Whereas 1811s are the ``detectives'' responsible for complex, 
protracted investigative casework largely dealing with the criminal 
provisions of the immigration code, how do they coordinate and 
cooperate with both 1801s and with State and local law enforcement, 
especially pursuant to cases where State or local officers encounter an 
alien lawbreaker?
    Answer. As of April 27, 2004, there were 5,464 special agents 
assigned to the Office of Investigations, as follows.

------------------------------------------------------------------------
                Organizational Component                     On Board
------------------------------------------------------------------------
HQ--Office of Investigations............................             289
SAC Atlanta, GA.........................................             181
SAC Baltimore, MD.......................................              78
SAC Boston, MA..........................................             155
SAC Buffalo, NY.........................................             109
SAC San Juan, PR........................................             128
SAC Chicago, IL.........................................             312
SAC Dallas, TX..........................................             139
SAC Denver, CO..........................................             109
SAC Detroit, MI.........................................             175
SAC El Paso, TX.........................................             220
SAC Houston, TX.........................................             206
SAC Los Angeles, CA.....................................             389
SAC Miami, FL...........................................             335
SAC Newark, NJ..........................................             143
SAC New Orleans, LA.....................................             221
SAC New York, NY........................................             382
SAC St Paul, MN.........................................              96
SAC San Antonio, TX.....................................             315
SAC San Diego, CA.......................................             330
SAC San Francisco, CA...................................             260
SAC Seattle, WA.........................................             216
SAC Tampa, FL...........................................             177
SAC Tucson, AZ..........................................             143
SAC Phoenix, AZ.........................................              95
SAC Washington, DC......................................             108
SAC Philadelphia, PA....................................             107
SAC Honolulu, HI........................................              46
                                                         ---------------
      TOTAL.............................................           5,464
------------------------------------------------------------------------

    A key objective of DHS and ICE is to share information with our 
State and local partners in law enforcement that contributes directly 
to the security and safety of the United States and the American 
people. The Law Enforcement Support Center (LESC) in Vermont is the 
vital DHS and ICE point of contact with the entire law enforcement 
community and is on the cutting edge of the Federal effort to share 
critical enforcement information with state, county, local and even 
international law enforcement officers. It is a national, single point 
of contact, law enforcement center that provides timely immigration 
status and identity information and real-time assistance to local, 
state and Federal law enforcement agencies on aliens suspected, 
arrested or convicted of criminal activity. The primary user of the 
LESC continues to be State and local law enforcement officers seeking 
information about an alien encountered in the course of their daily 
duties.
    Question. Is ICE requiring both legacy Customs and legacy INS 
enforcement personnel to attend cross-training programs? What 
percentage of legacy Customs vs. INS personnel has actually completed 
such training? Does ICE intend that all enforcement personnel will 
undergo such cross-training, and if so, when is it expected to be 
completed?
    Answer. Yes, all OI Special Agents will be cross-trained in both 
legal and investigative blocks of instruction.
    OI conducted a manual survey the last week of March 2004. At that 
time 830 Special Agents had completed the cross-training. This accounts 
for 19 percent of the 4,463 agents targeted for cross-training in this 
fiscal year. Of the 830 who have completed the cross-training, 57 
percent are legacy immigration agents and 43 percent are legacy customs 
agents. The Automated Class Management System is expected to be on-line 
shortly. At that time, training statistics will be more readily 
available.
    OI has established a target to complete the cross-training for all 
non-supervisory Special Agents GS-05 through GS-13 by the end of fiscal 
year 2004. This cross-training will be accomplished using a train-the-
trainer format with initial training being conducted at the Federal Law 
Enforcement Training Center (FLETC).
    Cross-training beyond this priority group will be completed in 
fiscal year 2005.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

    Question. Mr. Bonner, Mr. Garcia, there is now a hiring freeze in 
place at both your agencies, as well as at Mr. Aguirre's agency, and I 
understand you are facing a budget shortfall of more than 12 percent. 
It is outrageous to hear about a hiring freeze in critical national 
security agencies after the Bush Administration has strongly opposed 
attempts by the Ranking Member and many many others in Congress to 
increase funding for DHS. How could this have happened, and what 
funding does Congress need to provide so you can at least replace law 
enforcement agents who resign from your agencies?
    Answer. The budgets for our agencies have increased substantially 
since fiscal year 2001 and we are not facing a budget shortfall. As a 
result of budget reviews of our agencies and the Department, we 
supported a hiring freeze as a prudent measure in the face of 
uncertainties in budget allocation and adjustments in fee collection 
forecasts.
    The Department established a review team composed of staff from the 
CFO's Office, BTS, CIS, and the Coast Guard to assess the situation. 
The review team engaged in a detailed budget reconciliation effort 
among the three Bureaus. The team examined the allocation of resources 
and services throughout the three Bureaus, and this effort resulted in 
an immediate internal realignment of $212 million. A subsequent 
internal realignment of approximately $270 million is possible, pending 
additional discussions and coordination of the final documentation and 
billing.
    The Congress has recognized that funds may need to be realigned 
between ICE, CBP, and CIS. In the Joint Explanatory Statement (H. Rpt. 
108-280) accompanying the Department of Homeland Security 
Appropriations Act, 2004 (Public Law 108-90), the Congress recognized 
that the budgetary resources may need to be realigned. Specifically, 
the Congress noted: ``The conferees are aware that the Department is 
conducting a comprehensive review of administrative and other mission 
responsibilities, particularly as they affect ICE and other agencies 
that have inherited multiple legacy missions. While funding provided by 
this conference agreement is based on the best possible information 
available, the conferees understand there may be a need to adjust 
funding to conform to the decisions resulting from the review.'' A 
similar statement was included under the heading discussing CBP.
    Over the past year, these three Bureaus have undergone major, 
successful reorganizations by incorporating programs, staff, and 
resources from legacy programs at the Immigration and Naturalization 
Service and the Customs Service (as well as the General Services 
Administration and the Department of Agriculture) and a realignment of 
functions to strengthen the security of the Nation. Through this 
process, which included successful reassignment of over 50,000 
employees from the legacy agencies, robust hiring continued to ensure 
adequate staffing to accomplish mission objectives. However, the 
transformation effort has not been without challenges and each Bureau 
continues to integrate everything from budgets to uniforms to Standard 
Operating Procedures in virtually every area. We have made great 
progress to date.
    During a review of the status of execution of the fiscal year 2004 
budget, the ICE and CBP determined that implementation of hiring 
restrictions was a prudent managerial measure not just to stay within 
2004 appropriations, but for mission-related objectives. CIS had 
already instituted hiring restrictions since the beginning of the year 
due to lower than anticipated fee projections. Additional focus was, 
and is required to work through funding realignments related to the 
establishment of the three new Bureaus. This work recognized the 
tremendous effort of the Administration and the Congress to establish 
the Department but also acknowledged that some of the finer details on 
funding and provision of support services required negotiations and 
reconciliation between the three Bureaus. The work has been on-going, 
but agreements have been recently reached to realign funds to cover 
costs of services incurred by the Bureaus. Formal memoranda of 
agreement will be implemented between the three Bureaus, which will 
help ensure that funding is aligned with services rendered.
    The Department is committed to the security of the Nation and we 
will continue to work towards successful establishment of the three 
Bureaus, CBP, CIS, and ICE. To that end, we will continue to work with 
the Congress, in particular through the appropriations process, to 
ensure that funds are aligned to mission objectives consistent with 
Congressional intent.
    Question. Mr. Garcia, I am pleased that you and other components of 
the Executive Branch are making such good use of the Law Enforcement 
Support Center, located in my home State of Vermont--including its role 
in Operation Predator. The LESC provides information to State and local 
police departments throughout the Nation, regarding the immigration 
status and identities of aliens suspected, arrested, or convicted of 
criminal activity. You joined me in Vermont last August to announce 
expanded capabilities at the LESC. I look forward to continuing to work 
with you to ensure that the LESC is as helpful as possible to law 
enforcement officers throughout our Nation.
    At the same time, I want to ensure that adequate funding is 
available for the LESC to perform its various functions. The 
President's proposal did not include a specific budget for the LESC, 
leaving me only to assume that the base budget from this year will be 
continued in the upcoming fiscal year. Considering the increased 
demands on the LESC and their expanded capabilities, how will you 
ensure that the LESC has the resources it needs to perform its vital 
role of supporting Federal, State and local law enforcement?
    Answer. All of the new or increased activity levels at the LESC 
that are contributing significantly to national security and public 
safety have been accomplished within existing resources. ICE has 
clearly recognized the value of the LESC as demonstrated by the steps 
taken to increase productivity and is determined to expand the role of 
the LESC not only within the broader law enforcement community, but 
also within DHS and ICE.
    In order to ensure the LESC is properly positioned to address its 
expanding workloads and roles within the law enforcement community, ICE 
conducted a detailed analysis of current and projected operational 
requirements and the resources that would be necessary to assure their 
continuation and expansion. That analysis, which included examination 
of staffing, facility and other resource needs, resulted in a 
comprehensive, strategic document. Some of the recommendations have 
already been implemented or are in the planning or implementation 
process.
    Question. Mr. Aguirre, the President's budget proposes a 40 percent 
cut in the amount of directly appropriated funds for the Bureau of 
Citizenship and Immigration Services (CIS), from the nearly $235 
million appropriated for the current year to $140 million for fiscal 
year 2005. At the same time, the President has proposed a guest worker 
program that would significant increase the CIS workload.
    Why is the President proposing a 40 percent cut in an agency whose 
workload he wants to increase dramatically?
    Answer. The President's fiscal year 2005 Budget is not proposing a 
cut in the USCIS budget. In fact, the President's budget includes a 
$300 million increase over last years levels, including an additional 
$60 million in discretionary funding towards backlog reduction efforts 
aimed at achieving a 6-month processing time for all immigration 
benefit applications by fiscal year 2006.
    The President's fiscal year 2005 budget reflects the recent changes 
by USCIS to adjust its fee schedule. This fee adjustment includes 
amounts for administrative support services ($155 million) previously 
funded through appropriated funds (tax dollars). Thus, this proposal 
has no impact on the USCIS budget except for the fact that the funding 
source for these services will be by way of fees versus tax dollars. 
With the exception of the $140 million in appropriated backlog 
reduction funds, USCIS will be a wholly fee-funded agency in fiscal 
year 2005.
    Beginning in fiscal year 2002, USCIS has been receiving a total of 
$100 million in funds for backlog reduction to achieve the 6-month 
processing time. The $100 million is made up of $80 million in 
appropriated funds and $20 million in premium processing fees. The 
President is proposing a 60 percent increase for backlog reduction 
efforts in fiscal year 2005, bringing the total backlog reduction funds 
from $100 million to $160 million ($140 million in appropriated funds 
and $20 million from the premium processing fees).
    Question. Speaking of the guest worker program, I wrote to the 
President in January and asked him to submit a legislative proposal to 
Congress that would implement his plan. As you know, we have a short 
legislative year ahead of us, but I have still not received a response. 
Are the media reports suggesting the President has shelved his guest 
worker program accurate? If not, why has he not submitted proposed 
legislation? Will he do so?
    Answer. On January 7, 2004, the President announced principles in 
creating a new temporary worker program that would match willing 
foreign workers with willing U.S. employers when no Americans can be 
found to fill the jobs. We look forward to working with Congress to 
develop legislation that incorporates the best ideas for the American 
worker and our foreign visitors. Through the principles outlined by the 
President, the best course to the end goal of opportunity, security, 
safety, compassion, jobs and growth can be achieved.
    Question. President Bush has promised to reduce the average wait 
time for applicants for immigration benefits to 6 months by 2006. In 
light of that goal, and the increased burden the President would place 
on the CIS through the guest worker program, why did the President's 
not seek increased funds for backlog reduction?
    Answer. As stated above, the President is proposing a 60 percent 
increase for backlog reduction efforts in fiscal year 2005, bringing 
the total backlog reduction funds from $100 million to $160 million 
($140 million in appropriated funds and $20 million from the premium 
processing fees).
    Question. Mr. Aguirre, I have joined with many other Senators in 
writing to Secretary Ridge and opposing the potential outsourcing of 
1100 Immigration Information Officers (IIOs). My colleagues and I 
believe that these IIOs perform important work--including background 
checks on applicants for immigration benefits--that we should not be 
delegating to the private sector, especially at a time of continuing 
threats of terrorism. (A) As the supervisor of these IIOs, do you 
believe they are performing their jobs well? (B) Do you believe they 
should be replaced by private contractors?
    Answer. Many IIOs individually do an excellent job. But we have a 
very significant customer challenge that we have yet to meet. INS was 
known for long lines, and lengthy waits at its local offices, and was 
not considered particularly responsive to written correspondence. 
Clearly we need to make some changes. USCIS has already started the 
process with expansions of our toll-free call center services, case 
status on-line, InfoPass appointments, and initiatives to reduce lines 
and improve customer service. Introducing an element of competition 
through the A-76 process should further stimulate innovation and 
improvements, with the current workforce being one of the competitors 
in this process.
    Question. Mr. Garcia, I have supported and helped to obtain funding 
for Legal Orientation Proceedings for immigration detainees, with the 
view that the immigration system works better for all parties when 
detained aliens are informed as to whether they have a legitimate legal 
case to stay in the United States. Congress appropriated $1 million for 
orientation proceedings in fiscal year 2003, but DHS has still not 
transferred that money to the Executive Office for Immigration Review 
so the proceedings can take place. Can you tell me when that money will 
be transferred, and why it has taken so long?
    Answer. The Department of Homeland Security (DHS) appreciates the 
attention and funding Congress has appropriated annually to fund the 
Legal Orientation Program for Immigration Detainees. As you know, the 
former Immigration and Naturalization Service (INS) was abolished on 
February 28, 2003, shortly after the fiscal year 2003 Appropriations 
was signed into law on February 20, 2003. One of its successor 
agencies, the U.S. Immigration and Customs Enforcement (ICE), began to 
manage the funding appropriated for the Legal Orientation Program. Late 
in fiscal year 2002, the former INS transferred $1 million to the 
Executive Office for Immigration Review (EOIR) for the Legal 
Orientation Program. However, this transfer was not made in fiscal year 
2003. Also, throughout fiscal year 2003, EOIR had fiscal year 2002 
funding available to use for their Legal Orientation Program. In fiscal 
year 2004, ICE has transferred $1 million to EOIR for the Legal 
Orientation Program, under a reimbursable agreement that was signed on 
February 2, 2004.

                         CONCLUSION OF HEARINGS

    Senator Cochran. This concludes our scheduled hearings on 
the President's fiscal year 2005 budget request for the 
Department of Homeland Security. I appreciate the cooperation 
and assistance of all members of the subcommittee, especially 
the distinguished Senator of West Virginia, my friend, Senator 
Byrd, as well as the dedicated hard work of the staff of this 
subcommittee.
    The hearing is recessed.
    [Whereupon, at 12:15 p.m., Tuesday, March 30, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
